<html>
<title> - REAUTHORIZATION OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 REAUTHORIZATION OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 2004

                               __________

                           Serial No. 108-71

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

92-543              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JANICE D. SCHAKOWSKY, Illinois
ED WHITFIELD, Kentucky                 Ranking Member
BARBARA CUBIN, Wyoming               CHARLES A. GONZALEZ, Texas
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
JOHN B. SHADEGG, Arizona             SHERROD BROWN, Ohio
  Vice Chairman                      PETER DEUTSCH, Florida
GEORGE RADANOVICH, California        BOBBY L. RUSH, Illinois
CHARLES F. BASS, New Hampshire       BART STUPAK, Michigan
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
MARY BONO, California                KAREN McCARTHY, Missouri
LEE TERRY, Nebraska                  TED STRICKLAND, Ohio
MIKE FERGUSON, New Jersey            DIANA DeGETTE, Colorado
DARRELL E. ISSA, California          JIM DAVIS, Florida
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
JOHN SULLIVAN, Oklahoma                (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Bonin, Jason, Vice President for Lighting Technology, Hella 
      North America..............................................    61
    O'Neill, Brian, President, Insurance Institute for High 
      Safety.....................................................    55
    Pittle, R. David, Senior Vice President, Technical Policy, 
      Consumers Union............................................    43
    Runge, Jeffrey W., Administrator, National Highway Traffic 
      Safety Administration......................................     7
    Shea, Donald B., President and Chief Executive Officer, 
      Rubber Manufacturers Association...........................    28
    Strassburger, Robert, Vice President, Safety and 
      Harmonization, Alliance of Automobile Manufacturers........    35
Material submitted for the record:
    American International Auto Dealers Association, prepared 
      statement of...............................................    98
    Association of International Automobile Manufacturers, Inc., 
      prepared statement of......................................    94
    Claybrook, Joan, President, Public Citizen, prepared 
      statement of...............................................    82
    Gillan, Jacqueline S., Vice President, Advocates for Highway 
      and Auto Safety, prepared statement of.....................    75
    O'Neill, Brian, President, Insurance Institute for High 
      Safety, letter dated May 3, 2004, to Hon. Cliff Stearns....   101

                                 (iii)

  

 
 REAUTHORIZATION OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

                              ----------                              


                        THURSDAY, MARCH 18, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2322, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Upton, Shimkus, 
Radanovich, Bass, Issa, Otter, Barton (ex officio), Schakowsky, 
Gonzalez, Green, McCarthy, Strickland, Davis, and Dingell (ex 
officio).
    Staff present: David Cavicke, majority counsel; Kelly 
Zerzan, majority counsel; Jill Latham, legislative clerk; Jon 
Tripp, deputy communications director; and Jonathan Cordone, 
minority counsel.
    Mr. Stearns. Good morning, everybody. Today, we are here to 
discuss the reauthorization of the National Highway Traffic 
Safety Administration, NHTSA. We have two excellent panels with 
us here today to discuss the vast ranges of vehicle safety 
issues, and of course, I'm anxious to hear from everybody.
    Today, safety sells cars. According to the 2002 J.D. Power 
and Associates U.S. Automotive Emerging Technology Study, 9 of 
the 10 top features most desired by consumers in their next new 
vehicle purchase are designed to enhance vehicle or occupant 
safety. As expected, as the demand for safety products 
increases, so will the supply. Car companies are responding to 
the call from consumers for safer vehicles. Despite their being 
more cars on the road than ever.
    We continue to see the fatalities and injury rates 
decreased. We are light years from where we were 10 years ago 
and the future looks bright. But despite the innovations in 
safety technology, there is no doubt that more needs to be 
done. Every year, over 40,000 people, parents, children, 
husbands and wives, tragically die annually in automobile 
accidents. What is distressing is that many of these lives 
should never have been lost.
    The single most effective strategy to prevent deaths on our 
national highways is a click of the safety belt. For instance, 
of the 8,407 people who were killed in single vehicle rollover 
crashes in 2001, a full 78 percent were not wearing their seat 
belt. Unfortunately, despite the fact that seat belts have been 
standard safety equipment on cars since 1966, there are those 
who refuse or fail to simply buckle up and the costs are 
staggering.
    Over the past 20 years more than 7,000 people were killed 
and over 100,000 injured annually, due to the failure to wear 
seat belts. It is estimated that these incidents have cost 
society nearly $20 billion, not to mention the emotional toll 
that has had on the families of those who were killed.
    I applaud our Administrator, Mr. Runge, for making the 
increased use of safety belts a priority for NHTSA and pledge 
to assist in any way I can to further his goals.
    Additionally, NHTSA is working on the issue of vehicle 
compatibility with the exponential growth of SUVs and minivans 
in the market, when these vehicles crash into passenger cars, 
the effects are dramatic. While most buy SUVs or similar 
vehicles to gain increased safety, few wonder what the impact 
will be on a smaller car. Thankfully, NHTSA is considering 
vehicle compatibility and continues to research the best way to 
frame the problem.
    In addition, the auto industry has taken on responsibility 
and has entered into an agreement with the Insurance Institute 
for Highway Safety which we'll hear more about today. In this 
agreement, the auto industry has pledged to voluntarily adopt 
standards designed to address vehicle compatibility during 
front to front collisions and front to side crashes. This will 
ensure that advances in auto safety will be incorporated into 
the marketplace at a faster pace which will only result in 
increased safety and save lives.
    I hope the Administrator will be able to tell us this 
morning about the prospect for NHTSA's reauthorization this 
year. Specifically, (1) does NHTSA plan to send reauthorization 
legislation to Congress? (2) When do you anticipate that 
legislation will be sent to us? And (3) what will be the main 
substantive provisions of the legislation?
    I thank the witnesses for being here today and thank the 
staff for their help and I look forward to their testimony. 
Momentarily, we will have an opening statement from our 
distinguished ranking member, Ms. Schakowsky, so I'll ask her 
to provide it.
    Ms. Schakowsky. I thank you, Mr. Chairman, for holding this 
hearing today on the reauthorization of the National Highway 
and Transportation Safety Act, and the challenges that are 
facing NHTSA as it works to immediately safety improvement 
responsibilities.
    I would also like to recognize and thank my ranking member 
of the full committee, Representative John Dingell, for being 
here today and I want to welcome our witnesses who are here to 
share with us their views on how to improve safety, reduce 
fatalities and injuries and better protect children.
    In 2002, 42,815 people died in motor vehicle crashes, the 
highest number in over a decade. Nearly 3 million more people 
were injured. Those numbers do not include children who were 
killed or injured in and around cars that were not in traffic. 
Centers for Disease Control, a CDC study, found that between 
July and June 2001, an estimated 9,160 children suffered 
nonfatal injuries and 78 children were killed in nontraffic 
accidents. Those numbers too, are cause for alarm. While they 
are not included in the official NHTSA statistics, they do 
count in families and we must do all we can in order to 
eliminate accidents that are otherwise avoidable and to ensure 
that vehicles on and off the road are as safe as possible.
    Increasingly, we're seeing problems on our roads that stem 
from the fact that people are buying bigger and tougher 
vehicles. In fact, half of new vehicles purchased are SUVs, 
vans and pickup trucks. This has led to an increased number of 
rollover accidents and crashes where bigger vehicles caused 
severe damage to people in smaller vehicles. Deaths in rollover 
crashes increased to a record 10,666 in 2002; 500 more rollover 
deaths than occurred in 2001. Rollover deaths accounted for one 
third of all passenger occupant fatalities in 2002.
    We must approach this issue by working to prevent rollovers 
from happening as well as improving protections for people in 
cases where rollovers do occur.
    I'm encouraged to hear that NHTSA is working to study crash 
avoidance technology. In addition, consumer advocates have 
proposed that we adopt standards dealing with roof strength, 
rollover resistance, seat belt design, crash ejection 
prevention, as well as design characteristics to reduce the 
threats posed by more aggressive vehicles. I believe we need to 
act in those areas.
    I want to address the issue of our children's safety in and 
around cars. I've joined my colleague, Representative Peter 
King, in introducing H.R. 3683, the Cameron Gulbransen Kids and 
Cars Safety Act. One evening, 2 year old Cameron followed his 
dad out of the house as he went to move the family's SUV into 
the driveway. Cameron's father was not aware that his son was 
there and backed over him, killing him almost instantly. 
Unfortunately, this is not a lone occurrence. Our bill would 
require NHTSA to conduct a study of backover prevention 
technologies and to establish a data base to keep track of 
these types of nontraffic crash-related injuries and deaths.
    Finally, this bill would address the issue of children 
being inadvertently killed or injured by power windows by 
requiring that manufacturers install child-proof auto reverse 
mechanisms. This technology exists and there's no reason it 
should not be used in all new cars. The standards in the Kids 
and Cars Safety Act, we well as rollover crash avoidance and 
other safety concerns are critical issues for the subcommittee 
to continue. I hope that this briefing will help to start a 
dialog among all parties involved so that we can come to some 
agreement on how to achieve our common goals of consumer 
protection and safer highways and safer cars.
    Thank you.
    Mr. Stearns. Thank the gentlelady. Mr. Issa from 
California.
    Mr. Issa. I'll waive.
    Mr. Stearns. The gentleman waives. The distinguished 
ranking member of the full committee, Mr. Dingell?
    Mr. Dingell. Thank you for your courtesy. I commend you for 
the hearing and I'm delighted to see our panel here. I thank 
both panels for their presence and their assistance.
    I am delighted we are holding this hearing on the 
reauthorization of the National Highway Traffic Safety 
Administration, NHTSA. This hearing is important. It will allow 
us to examine the resource needs of the agency and its current 
priorities. I've always viewed reauthorization of an agency 
which is for a fixed period of time to be separate from 
decisions to change underlying laws which the agency 
administers. Should Congress during the reauthorization process 
consider writing new laws for the agency to administer, we 
should be guided by a number of facts and I'd like to address 
them now.
    First, we must guard against regulating before the experts 
have had an adequate understanding of both the problem we seek 
to solve and the effect of the proposed regulations or 
solutions that may have a significant overall safety and public 
health consequence. I would remind my colleagues of the vast 
enthusiasm with which we went with regard to seat belts and 
with regard to the airbags. Seat belts turned out to be a good 
thing. Seat belt interlocks did not. Air bags turned out to, in 
fact, have a serious health consequence of a very adverse 
character. They kill people.
    So it is essential that we look at these matters through 
clear eyes on the basis of sound experience. Time after time 
when NHTSA has been forced to regulate without a complete 
understanding of the problem and the ramifications of the 
proposed solution, the unintended consequences have been, as 
I've indicated, grave. Good intentions alone are not sufficient 
for regulating vehicle safety.
    Second, we must not divert resources away from regulations 
and innovations that have the most potential to save the 
greatest numbers of lives. Every time Congress mandates that 
NHTSA promulgate a rule on a specific subject, there is less 
time and money for NHTSA to spend on other safety priorities. I 
would note these other safety priorities may, in real fact, and 
in the minds of experts, be much more important in terms of 
accomplishing the safety of the motoring public and others who 
are involved in highway usage and motor vehicle usage.
    As information resources improve and as research gets 
better, we must allow the agency the chance to use its 
expertise and adequate responsibility and flexibility to 
determine what actions will save the greatest number of lives 
and prevent the greatest amount of pain and suffering to 
people.
    Third, we must recognize that irresponsible regulation of 
the automobile is going to sacrifice important high paying 
manufacturing jobs at a time when this country is hemorrhaging 
jobs, we must take extraordinary care to ensure that new 
regulations are both appropriate and are implemented wisely.
    The automobile industry, so that we can see what it does 
for us, is responsible for creating 6.6 million direct and 
spinoff jobs across the United States. It produces $243 billion 
in payroll compensation. It is an essential component of the 
economic well being, the national defense and all other things 
that are important to us as Americans. A manufacturer, and I 
would note, typically does not begin to realize a profit for a 
particular vehicle model until the third or fourth year of the 
model cycle. Much of the facts like this are not known to my 
colleagues and sometime our enthusiasm sweeps us in to things 
which are going to hurt an industry.
    This industry has accomplished enormous amounts. If you 
look at a modern American automobile, it is now safer than it 
has ever been in history. If you look at that same automobile, 
it is also more fuel efficient than it has been and has a fuel 
efficiency that is double the day before we had CAFE. It also 
is cleaner when it's going down the road at 50 miles an hour 
and is a new model than was a pre-1968 or pre-control vehicle. 
That tells us much about what the industry has accomplished in 
terms of billions of dollars in investment.
    There are legislative proposals currently being considered 
that would require multiple redesigns of most models of cars 
and trucks across the fleet over a very short period of time. 
If this is accomplished, I think we can look forward to a 
significant period of economic downturn in the country and 
economic calamity in the automobile-producing areas and I would 
tell my colleagues that the automobile-producing areas are not 
just Detroit or places where there's a factory. They're 
wherever glass or computers or rugs or steel or nonferrous 
metals or high tech or computers are put together and other 
things.
    The cost of such mandates, I would note, while unknown is 
going to be in the levels of billions of dollars. The effect of 
poorly planned regulations could be terrible with regard to 
unemployment and possible safety gains from on-going voluntary 
efforts could be placed in jeopardy.
    Now there are times when legislative action is necessary. 
This committee worked well and harmoniously and diligently on 
the TREAD Act. That's a law that continues to yield fruit 
today. The early warning system established under TREAD helps 
NHTSA and manufacturers to identify problems sooner and recall 
affected vehicles faster due in part, to the success of the 
TREAD Act. Times have changed. NHTSA has established an 
aggressive agenda for vehicle safety that will be implemented 
on a responsible time table, one which could be met by all 
parties, for vehicles and manufacturers have responded. 
According to J.D. Power and Associates, 9 out of 10 most 
popular vehicle options now relate to safety. Every major 
manufacturer has joined forces with the Insurance Institute for 
Highway Safety to create an unprecedented voluntary agreement 
on vehicle compatibility that is enforceable by Federal 
regulations. That means how the vehicles are going to interact 
when they come together with a bang.
    The same working group is also continuing its efforts on 
the issue of rollover avoidance and crash worthiness. Most of 
these arrangements are enforceable by Federal regulators, as I 
had said earlier. But we must not forget that in the end, human 
behavior remains the significant factor in reducing motor 
vehicle fatalities. In a nutshell, it is the nut behind the 
wheel, not the nut in the wheel that causes the accident.
    There were approximately some 36,000 occupant fatalities in 
2001. Yet, when you remove from that statistic accidents 
involving alcohol and unbelted passengers, the number drops by 
75 percent. Over 17,000 occupant deaths were related to alcohol 
in 2002. That number continues to climb. This is obviously an 
outrage and one which we should address.
    I would note that although seat belt usage is at a record 
high, there remains significant room for improvement. In 
rollover accidents alone, more than 75 percent of the 
passengers who died were not wearing their seat belts when the 
accident occurred. Whether it be belt minders, interlocks, 
Federal incentives or primary seat belt laws we can and should 
do more to increase assured seat belt use.
    Mr. Chairman, I thank you for holding this hearing. I thank 
the witnesses today for their assistance and I appreciate your 
courtesy to me and I yield back the balance of my time.
    Mr. Stearns. And I thank the distinguished gentleman and 
Mr. Upton, the gentleman from Michigan.
    Mr. Upton. I'll just stick my statement in as part of the 
record.
    Mr. Stearns. By unanimous consent, so ordered. Ms. 
McCarthy?
    Ms. McCarthy. I will follow Mr. Upton's lead, Mr. Chairman, 
and submit my remarks for the record.
    Mr. Stearns. Mr. Otter?
    Mr. Otter. I'll put mine in the record.
    [The prepared statement of Hon. C.L. ``Butch'' Otter 
follows:]

 Prepared Statement of Hon. C.L. ``Butch'' Otter, a Representative in 
                    Congress from the State of Idaho

    Mr. Chairman, thank you for the opportunity to examine the past 
actions and present goals of the National Highway Traffic Safety 
Administration.
    Transportation has been a subject of main concern for Congress over 
the past few months. And as we discuss the effectiveness of our 
nation's highways and road systems, no issue is more important than 
safety. Our economy depends on a capable transportation system to 
transport goods and people from place to place, and yet every year 
there are tens of thousands of people killed in motor vehicle crashes--
in fact, automobile accidents are the leading cause of death among 
young Americans today.
    Since 1970 the National Highway Traffic Safety Administration has 
worked both to make cars safer every year and to teach Americans how to 
protect themselves from debilitating or even fatal car crashes. Through 
cooperation with the automobile industry, state legislatures, and 
consumers, driving on our nations highways and roads has become safer 
and many lives have been spared. These groups continue to work together 
to address the changes in the industry and on the roads.
    I appreciate the open collaboration between the NHTSA and industry, 
as they recognize and work toward a common goal. However, I am 
concerned that the NHTSA reauthorization language included in the 
Senate transportation bill ignores the success of this teamwork by 
forcing overly aggressive mandates and arbitrary deadlines. As the 
House addresses this reauthorization I anticipate that we will take 
into account the efforts of industry, of the States, and of NHTSA to 
develop and successfully implement rules and standards for automobile 
safety. Today's hearing is the first step in that process. I look 
forward to hearing both from NHTSA and from industry members how they 
are addressing the needs of the ever-changing life on the road, and how 
we can work together to protect lives and make our transportation 
system safer.

    Mr. Stearns. Put it in the record. Mr. Davis.
    Mr. Davis. I'll put mine in the record.
    Mr. Stearns. Same.
    [Additional statement submitted for the record follows:]

 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce

    Thank you, Chairman Stearns, for holding this hearing today on the 
reauthorization of the National Highway Traffic Safety Administration. 
I would also like to welcome Dr. Jeffrey Runge, NHTSA Administrator, to 
the Committee this morning.
    Nearly everyone in this country owns a car, which is why automobile 
safety is so critical. Cars are part of the American culture, part of 
our way of life, and we have seen enormous advances in vehicle safety 
in the last 20 years. For instance, although every year there are 
increasingly more vehicles, of all sizes, on the road, every year the 
rate of accidents continues to decline. Every year seat belt use 
increases, and the American public are making their auto purchases with 
safety in mind. However, despite these great strides, there are still 
opportunities to make vehicles safer.
    In its quest to make roads safer, NHTSA has focused on four primary 
areas: vehicle compatibility, rollover, seat belt use, and impaired 
driving. All of these issues are laudable goals that I fully support. I 
am pleased to see NHTSA spending its resources on the trouble spots 
that can produce the most benefit. The time and money of the 
Administration should be focused on the problems that can produce the 
greatest safety benefits for the highest number of consumers. The more 
lives that can be saved on American highways the better.
    Along those lines, I am very pleased to hear that NHTSA intends to 
review each safety standard every seven years. This is a necessary 
process that should take place to ensure the best regulations are in 
place in light of advances in technology.
    And certainly, NHTSA does not have to bear the brunt of pursuing 
safety advances--the industry should also step up to the plate, and it 
has in the area of vehicle compatibility. Working with the Insurance 
Institute for Highway Safety, and with annual progress reports to 
NHTSA, I have confidence that this program will get new and innovative 
technologies into the market faster than we've seen in the past. 
Consumers should not be forced to wait for a bureaucratic regulatory 
action, which is typically cumbersome and slow, to take advantage of 
new safety products. Particularly in an area, like auto safety, where 
delay can have such severe consequences, I encourage such partnerships 
and voluntary commitments.
    As this Committee begins its process to examine NHTSA and its 
reauthorization, I understand that the other body has attached NHTSA 
reauthorization language to its highway spending bill. There is no 
question that these vehicle safety issues raise large questions and 
will have huge impacts on the American public. They should be 
thoroughly discussed and deserve to be debated. Therefore, I would 
prefer that NHTSA reauthorization move through the Committee process in 
regular order, but it appears that may not be possible. In light of 
that fact, this Committee plans to be a strong participant in any 
conference dealing with NHTSA and vehicle safety.
    Thank you again, Chairman Stearns, for holding this hearing and I 
look forward to hearing from our witnesses.

    Mr. Stearns. With that Dr. Runge, we welcome you, 
Administrator, National Highway Traffic Safety Administration, 
for your opening statement.

 STATEMENT OF JEFFREY W. RUNGE, ADMINISTRATOR, NATIONAL HIGHWAY 
                 TRAFFIC SAFETY ADMINISTRATION

    Mr. Runge. Thank you, Mr. Chairman, Representative 
Schakowsky, Ranking Member Dingell, other members of the 
subcommittee, I really appreciate the opportunity to appear 
before you today to talk about motor vehicle safety. I'm happy 
to have the chance to update you on the activities at the 
agency.
    NHTSA's mission, of course, is to save lives and prevent 
injuries. Motor vehicle crash is the leading cause of death for 
Americans from ages 2 through 34. In 2002, we lost 42,815 
Americans to this epidemic. The associated economic costs 
seriously impact our Nation's fiscal health with an annual cost 
to our economy of over $230 billion.
    At NHTSA, we focus our vehicle safety efforts on actions 
that offer the greatest potential for reducing those big 
numbers of lives and economic costs. The motor vehicle safety 
statute grants us the authority and the responsibility to issue 
motor vehicle safety standards for new motor vehicles and 
equipment. These standards must advance safety and be 
performance-based, objective, practicable and the test for 
compliance must be repeatable. Our professional staff includes 
experts from many disciplines and they are the world's leading 
experts in motor vehicle safety. All are dedicated to one 
singular mission, to reduce deaths and injuries on our Nation's 
streets and highways.
    Since vehicle issues are the primary responsibility of this 
subcommittee, I will focus on these rulemaking activities. 
We've demonstrated tremendous progress with our rulemaking 
procedures over the last 4 years. When I became Administrator, 
I set a goal of a 2-year duration from the start of the 
rulemaking process to the final rule. An audit released this 
month by the DOT Inspector General found that we have met that 
goal of 2 years or less. This has been accomplished with 
careful attention to timeliness, to milestones and internal 
deadlines that we impose on ourselves.
    In order to ensure our rulemaking process is timely and 
data driven, we published NHTSA's first ever multi-year 
rulemaking priority plan this past summer of 2003. And it 
documents the agency's rulemaking activity through 2006.
    Mr. Chairman, I have submitted copies of that for the 
record as well.
    These rulemaking priorities were defined by careful 
examination of the data and through extensive discussions 
within the agency and with the public. Everybody in this 
country had the opportunity for input into this rulemaking 
priority plan. Once the rulemaking priorities were established, 
we then prioritized our research studies to make sure that 
those research needs that were there to support the priority 
rulemakings were also given the highest priority. We intend for 
this plan to be a living document and we will update it every 
year. We are also committed to reviewing all vehicle safety 
standards systematically over a 7-year cycle.
    As I stated earlier, our highest priorities are given to 
those actions that have the greatest potential to reduce death 
and injury on the highway, irrespective of anybody's parochial 
or political concerns that are not supported by the data. 
Because of the necessity to adhere to this process, the 
Administration is opposed to legislatively mandated rulemakings 
that would displace the research and regulatory actions given 
priority under our deliberative and public process, all 
designed to produce the best and most cost-effective solutions 
to our most critical safety problems.
    Arbitrary deadlines imposed with these mandated 
requirements could preclude vital research and analysis needed 
to avoid those unintended and dangerous consequences 
Representative Dingell talked about earlier. Furthermore, we 
have seen proposed mandates that include technical requirements 
that have never been proven to be viable. The public and the 
industry deserve regulations that are technically sound, 
practical, objective and repeatable. These can only be achieved 
when based on sound science and careful development of test 
procedures.
    Mr. Chairman, I've detailed our priority rulemaking actions 
in my written testimony, which I've submitted for the record. 
I'd like to highlight just a couple of them for the committee, 
if I may.
    The first is our side impact standard, which will address 
much of the problem with vehicle incompatibility caused by the 
collision of different sized vehicles, particularly passenger 
cars and SUVs. Of the 32,598 vehicle occupants killed in 2002, 
over 9,000 were killed in side impacts. In side impacts 
involving two passenger vehicles, an occupant of the struck 
vehicle was about seven times more likely to die than the 
occupant of the striking vehicle. The current safety standard 
for side impact is not adequate. For instance, it does not 
address injury to the head, even though 58 percent of side-
impact fatalities involve the head. Therefore, improvements in 
occupant protection in side impact crashes must be one of our 
most urgent priorities.
    We have developed a proposed rule to upgrade this standard, 
which is currently under review at OMB.
    Another lethal type of crash that we are addressing with 
high priority is rollover. Even though rollovers account for 
only about 2.5 percent of police-reported crashes, they account 
for about a third of all occupant fatalities. That's over 
10,000 people a year including more than 60 percent of SUV 
occupant fatalities. Nearly two-thirds of rollover deaths are 
the result of full or partial ejections from the vehicle and 
nearly all of those were not wearing safety belts.
    To improve the chances of surviving a rollover, in addition 
to the agency's tremendous work on safety belt use, we are 
working to reduce ejections and to enhance roof crush 
protection. We believe that our side impact upgrade will also 
lead to reductions in ejection, as the expected counter-
measures for side impact might also be made protective in the 
event of a rollover. As our research matures, we will be 
considering appropriate rulemakings on these matters.
    Longer term, Mr. Chairman, in addition to continuing 
efforts in crash worthiness, we will be exploring the new 
frontier in technology-assisted crash avoidance, including 
electronic stability control systems and driver assist 
technologies. We also need to undertake research and 
development in the fuel integrity of hydrogen-powered vehicles 
to support the President's Hydrogen Fuel Initiative and the 
FreedomCAR Program.
    I urge the subcommittee to support these safety initiatives 
and our rulemaking goals, Mr. Chairman, as I outlined in our 
priority plan, which I'm submitting for the record. I'd be 
happy to answer any questions that you have.
    [The prepared statement of Jeffrey W. Runge follows:]

 Prepared Statement of Hon. Jeffrey W. Runge, Administrator, National 
                 Highway Traffic Safety Administration

    Chairman Stearns, Congresswoman Schakowsky, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss various motor vehicle safety issues.
    I want to express my appreciation for this Subcommittee's long-
standing support of motor vehicle programs. Transportation safety is a 
top priority for Secretary Mineta and President Bush. Your work has 
allowed the National Highway Traffic Safety Administration (NHTSA) to 
advance motor vehicle safety. We are grateful to this Subcommittee for 
its continuing leadership and for scheduling this hearing.
    NHTSA's mission is to save lives and prevent injuries. Motor 
vehicle crashes are responsible for 95 percent of all transportation-
related deaths and 99 percent of all transportation-related injuries. 
They are the leading cause of death for Americans in the age group 2 
through 34. In 2002, the last year for which we have data, 42,815 
people were killed in motor vehicle crashes, up slightly from 42,196 in 
2001. The economic costs associated with these crashes also seriously 
impact the Nation's fiscal health. The annual cost to our economy of 
all motor vehicle crashes is $230.6 billion in Year 2000 dollars, or 
2.3 percent of the U.S. gross domestic product.
    We focus our vehicle safety efforts on actions offering the 
greatest potential for saving lives and preventing injury. The motor 
vehicle safety law vests NHTSA with the authority and responsibility to 
issue motor vehicle safety standards for new motor vehicles and 
equipment that are performance-based, objective, practicable, and 
repeatable, and that advance real world safety. These standards reduce 
the number of motor vehicle crashes and minimize the consequences of 
crashes that do occur. NHTSA's professional staff includes engineers, 
statisticians, economists, lawyers and managers considered to be among 
the world's experts in applying their individual disciplines to the 
advancement of motor vehicle safety. All are dedicated to our singular 
mission of reducing death and injury on our nation's streets and 
highways.
    We have demonstrated tremendous progress with our rulemaking 
procedures over the last 4 years. When I became Administrator, I set a 
goal of a two-year duration from the start of the rulemaking process to 
the Final Rule. A recent audit by DOT's Inspector General found that, 
based on a sample of significant rules for 2003, we have met our goal 
of two years or less. This has been accomplished with careful attention 
to timelines, milestones, and internal deadlines that we impose upon 
ourselves.
    Last year we published the first NHTSA multi-year vehicle safety 
rulemaking priority plan. It sets forth the agency's rulemaking goals 
for 2003 to 2006. The rulemaking and supporting research priorities 
were defined through extensive discussions within the agency, taking 
into account the views we have heard over several recent years at 
public meetings and in response to rulemaking notices and requests for 
comment. We prioritized potential new rules and upgrades of existing 
rules according to the size and severity of the problems they address, 
and the best educated estimates of the cost and effectiveness. The 
agency works closely with the Congress and the public to define our 
priorities openly and with ample public comment.
    We intend for our rulemaking priority plan to be a living document, 
and will update it annually. In addition, we are committed to reviewing 
all Federal Motor Vehicle Safety Standards systematically over a 7-year 
cycle. We decided that such a review is needed in light of changing 
technology, vehicle fleet composition, safety concerns and other issues 
that may require changes to a standard. Our regulatory reviews are in 
keeping with the goals of the Government Performance and Results Act, 
to ensure that our rulemaking actions produce measurable safety 
outcomes.
    Because of this process, and the need to make these decisions based 
on current data, the Administration is opposed to legislatively 
mandated rulemaking actions that displace deliberative research and 
regulatory actions. The process that we have developed will produce the 
best and most cost effective solutions to our most critical safety 
needs. The deadlines imposed with mandated requirements can preclude 
the completion of necessary research and force premature judgments or 
the adoption of incomplete or only partially developed solutions.
    Furthermore, we have seen proposed mandates that include technical 
elements that have not been proven viable. Several decades of vehicle 
safety rulemaking have demonstrated that quality data and research 
produce regulations that are technically sound, practicable, objective, 
and repeatable. Our rulemaking priority plan was carefully considered, 
in the context of concomitant research needs, and I ask for your 
support in our pursuit of its objectives.
    The overall safety priorities set by our agency at the outset of 
this Administration are increasing safety belt use, reducing impaired 
driving, addressing vehicle crash incompatibility, reducing rollovers, 
and enhancing our data systems. Last year, we carefully studied these 
objectives and developed and published a roadmap for achieving them. 
This Subcommittee has jurisdiction over the motor vehicle safety law, 
which is central to our objective of reducing deaths and injuries 
associated with crash incompatibility and rollover.
    NHTSA's priority rulemakings for the immediate future reflect our 
priorities. These include enhanced side crash protection, preventing 
occupant ejection in rollovers, and upgrading our standards relating to 
roof crush, head restraints, seat back strength and door locks. Our 
longer-term research priorities include a number of potential advances 
in crash avoidance, including electronic stability control systems and 
driver-assist technologies. We have integrated our rulemaking priority 
plan and our research plan to ensure that, as rulemaking becomes 
necessary to advance safety in the future, we have the research to 
support it.
    In all of our efforts, we recognize the vital role that complete 
and precise data play in identifying safety problems. With that in 
mind, we are evaluating the important advances that electronic data 
recorders can add to our crash data and our ability to assess safety 
needs and benefits.
    I would like to turn, now, to a discussion of some of the specific 
actions we are taking in accord with our rulemaking priority plan, 
against the backdrop of the safety problems we must address.
    Of the 32,598 passenger vehicle occupants killed in 2002, 9,197 
were killed in side impacts. In side impacts involving two passenger 
vehicles, an occupant of the struck vehicle was about 7 times more 
likely to have been killed than an occupant of the striking vehicle. 
It's not hard to see why preventing deaths and injuries in side-impact 
crashes is one of our highest priorities.
    We have developed a notice of proposed rulemaking upgrading our 
side-impact standard. That proposal is currently under review at OMB. 
We estimate that this upgrade would prevent many hundreds of deaths 
annually in these types of crashes. We hope to publish that proposal 
later this spring.
    Rollover crashes account for a substantial percentage of the fatal 
crashes in the country. Even though only 2.5 percent of crashes are 
rollover, over 10,000 people die each year in rollovers. This is almost 
a third of all passenger vehicle occupant fatalities and more than 60 
percent of SUV occupant fatalities. The data show that nearly two-
thirds of all rollover deaths are the result of full or partial 
ejections from a vehicle, and nearly all of these are unbelted.
    We recently started dynamic testing of vehicles as part of our new 
rollover resistance rating system in accordance with the TREAD Act. 
Testing and reporting of those results began this year, as part of our 
New Car Assessment Program (NCAP).
    We have already noticed improvements in vehicle designs and in 
safety ratings. Manufacturers strive to obtain high safety ratings 
under NCAP, because so many consumers rely on this information in 
making their vehicle purchasing decisions. We have seen an increase in 
vehicle manufacturers using NHTSA's star-rating information in their 
product advertising. An informed public will be an effective catalyst 
for improved rollover resistance. We recently introduced a new web 
site, www.safercar.gov, to enhance consumers' ease of use and 
accessibility of the information.
    To improve the crashworthiness of vehicles that roll over, we are 
working on improved ejection mitigation and roof crush protection. Even 
as NHTSA is upgrading our side impact standard, all of the major 
automobile manufacturers have committed over time to ensure that their 
vehicles meet certain testing criteria in side impact. Those testing 
criteria are intended to encourage the installation of side airbag 
curtains that protect against brain injury in side impact crashes. An 
additional benefit of many side airbag curtains is that they prevent 
ejections, which are very lethal.
    In order to realize maximum benefits from side curtain airbags, 
they must deploy in a rollover. The agency will develop a plan to 
evaluate rollover sensors in full-system tests later this year. We 
anticipate issuing proposals for new rulemakings as our research 
matures.
    In addition to the attention we are giving our rollover and 
compatibility priorities, we also intend to bring to the Congress some 
additional important safety initiatives that I would highlight. We 
believe the Secretary of Transportation should be authorized to 
participate and cooperate in international activities to enhance motor 
vehicle and traffic safety. This would provide for NHTSA's 
participation and cooperation in international activities aimed at 
developing the best possible global safety research and technical 
regulations. Through participation in these international efforts, the 
United States will combine its motor vehicle safety initiatives with 
those of other countries, to ensure a comprehensive approach to motor 
vehicle safety and to promote cost-effective deployment of safety 
technologies.
    A second area is our need to expand activities in crash avoidance. 
The most significant vehicle safety initiatives in the future will be 
based on technology that will avoid crashes, rather than our 
traditional emphasis on crashworthiness. This would include evaluations 
of crash avoidance technologies such as electronic stability control, 
telematics, alternative braking, vision enhancement systems, collision 
avoidance systems and lane departure warnings.
    We anticipate that our research into these and other driver 
assistance technologies will reach significantly beyond the scope of 
current agency research and development activities. The rapid advance 
of these technologies will radically change the design and performance 
of automobiles over the next 10 years and, coupled with the aging 
driver population, present unique research challenges in human factors 
engineering. Our goal is to hasten the introduction of vehicle-based 
driver assistance technologies into the marketplace while ensuring 
their safe performance across all demographics, through the development 
of standards, voluntary guidelines, or consumer information. In doing 
so, we will have to be mindful that with the proliferation of new 
technologies comes the potential for increased driver distraction.
    A third new area is our need to engage in research and development 
in fuel integrity of hydrogen powered vehicles. This includes risk 
assessment studies, the development of test and evaluation procedures 
and performance criteria and the development of suitable 
countermeasures.
    This safety initiative would support the President's Hydrogen Fuel 
Initiative and the FreedomCAR Program. In particular, the research 
program would investigate the safety of the power train, the vehicle 
fuel container and delivery system, the onboard refueling system, and 
the full vehicle system performance. This research would evaluate leak 
detection systems, determine the effectiveness of safety systems, 
assess fire potential and flammability, and evaluate external hazards 
to these systems. The onboard refueling system-related research and 
performance tests would evaluate fuel leakage, examine sparking and 
grounding conditions of the refueling system, and examine conditions 
under which fire could occur. The full vehicle systems research and 
performance testing would include crash tests to identify safety issues 
associated with the existing Federal Motor Vehicle Safety Standards and 
new safety standards, evaluate performance of leakage detection systems 
under crash and normal operating conditions, and identify post-crash 
and special requirements for emergency medical services.
    I urge this Subcommittee to support these important safety 
initiatives and our rulemaking goals as outlined in our priority plan, 
which I'm submitting for the record. I will be glad to answer any 
questions you may have.

    Mr. Stearns. Thank you, Dr. Runge. Let me get right to the 
gist of our concern.
    Dr. Pittle, in his testimony, argues that NHTSA works best 
when it has congressional mandates and you've referenced in 
your testimony that you do not believe that legislated, 
regulatory mandates are wise. So I guess the question is we 
have out of the Senate, we have a bill, the language 
reauthorizes NHTSA, it was talked about as being part of the 
transportation bill.
    I guess the question is do you support that bill that came 
out of the Senate on reauthorization? Why or why not and what 
specifically are the problems with that bill?
    Mr. Runge. Mr. Chairman, there are some great things in the 
Senate bill. The thing that will make the most difference in 
saving lives, in the Senate bill right now, is the incentive 
for primary safety belt laws that was in the President's safety 
legislation, which rewards States with very large incentives 
for passing primary safety belt laws. We lose 7,000 to 9,000 
people a year because they're not belted, and even though we're 
at 79 percent, it's the proportion that are not yet belted that 
are the riskiest drivers, the most likely to drive impaired, 
the most likely to have a crash and most likely to get killed. 
So that's a very important provision.
    What we have problems with are the inflexible mandates that 
are put into the bill that will basically reset our priorities 
for the next 6 years. The mandates are permanent. They can't be 
steered where the research goes. They're inflexible.
    Mr. Stearns. They cannot be steered where research goes?
    Mr. Runge. Right. We learn important things during the 
research and regulatory process that might change your approach 
or your time table and it's important that we get it right. 
Representative Dingell said earlier very well that there are 
always unintended consequences and until we begin to look at 
the effects of vehicle-based technologies in research, we don't 
really know the rulemaking direction that we want to take.
    Moreover, the Senate bill has some very specific 
technologies mandated that we've not really shown to be viable 
yet. You know, the Senate has the same mission that we have. 
It's to save lives. We differ about the process about how we 
really want to solve a problem with 15-passenger vans, for 
instance, or whether we want to mandate a specific technology 
in 15-passenger vans. We want to solve the problem. Wherever 
the technology leads us is----
    Mr. Stearns. But you're saying within the bill, he's 
mandating these technologies which, in your opinion, today are 
not viable and so this is going to ask you to develop a program 
on something that doesn't work?
    Mr. Runge. That may not work.
    Mr. Stearns. May not work, right.
    Mr. Runge. From our best knowledge right now, a lot of the 
things that are in those mandates look very promising.
    Mr. Stearns. And the one before that that bothered you, the 
mandate before that, tell me that again, it's not registering. 
You said before the technology mandate, there was another 
mandate in there?
    Mr. Runge. The primary safety belt?
    Mr. Stearns. Yes.
    Mr. Runge. That's actually a great thing that we very much 
support.
    Mr. Stearns. So you support that one?
    Mr. Runge. Yes sir.
    Mr. Stearns. So is there anything else in that 
reauthorization that you don't like besides the technology 
mandates which are not viable?
    Mr. Runge. I think as far as this subcommittee is concerned 
with respect to vehicle mandates, interestingly, there are a 
bevy of them. Many of them we are already working on, but the 
answer is no.
    Mr. Stearns. Okay, so Mr. Pittle says we need to have 
congressional mandates. Do you agree with that?
    Mr. Runge. I think----
    Mr. Stearns. Should we step in in the reauthorization bill 
and put a lot of mandates in?
    Mr. Runge. There's no need to do that at this time for the 
things that are contained in the Senate bill.
    Mr. Stearns. Okay. You know, some of the young drivers 
between 16 and 20 and I've had three boys all through 
automobiles and so forth have had the normal crashes and 
things, what could NHTSA do and I'm not sure there's an answer 
to this question, for these young people, so many of them who 
do not wear seat belts and we have these tragedies claiming 
lives of these young people. In fact, we've had Members of 
Congress, their sons, they've died in automobile accidents and 
I think father and parents were all wondering what can we say 
to our children, what can we do and what can your agency do 
that involve crashes with young people, 16 to 20?
    Mr. Runge. This group of people is a very risky population. 
They're the least experienced drivers. In fact, a new driver 
has about a--a quarter of new drivers have a crash in their 
first 2 years of driving. We are studying the issue of 
licensing. We have research that demonstrates that graduated 
licensing, meaning a step-wise licensing process is again State 
law, is very effective. North Carolina and Michigan both have 
shown a 25 percent reduction in crashes in their teen driving 
population with driving with a graduated law.
    We are working with State legislatures with the NCSL and 
hopefully can cajole State legislators into graduated licensing 
laws. Strict alcohol enforcement, the approach to underage 
drinking and separating the drinking from the driving task is 
also very important. But first and foremost, this is a parental 
responsibility and we want to give parents the right 
information that they need to be parents. One of those, in 
fact, is vehicle choice. We have a new car assistant program 
which rates vehicles by stars and they're not all created 
equal. They're as safe as they've ever been, but typically a 
young person and in my own family my 17-year-old drives a 1994 
vehicle. Well, that's sort of counter intuitive. He should be 
driving my 2001 and I should be driving the 1994, but that's 
not how it works in families. So we want people to exercise 
good vehicle choice and be parents as well.
    Mr. Stearns. My time has expired, but you, the three 
questions I gave in the opening statement, does NHTSA plan to 
send a reauthorization is yes?
    Mr. Runge. Yes.
    Mr. Stearns. And when do you anticipate that being sent?
    Mr. Runge. It can be sent any time, Mr. Chairman, and we 
should have it over here for you next week.
    Mr. Stearns. That would be good. I think you've outlined 
you can, some of the main things within that as other members 
talk to you. So with that, I'll ask the ranking member.
    Ms. Schakowsky. Thank you, Dr. Runge. A couple of, a number 
of questions, but one you just said, for example, that for 15-
passenger vans that the Senate bill mandates a certain 
procedure. I'm looking at the language. It says that NHTSA 
shall evaluate and test the potential of technological systems, 
particularly electronic stability, control system and rollover 
warning systems to assist drivers in maintaining control of 15-
passenger vans. I mean it doesn't seem to me that that is such 
a restrictive requirement. The goal here is to assist drivers 
in maintaining control of 15-passenger vans. I would take issue 
with your characterization that it leads you in the wrong 
direction.
    Mr. Runge. Thank you, Representative Schakowsky. We have a 
15-passenger van plan at NHTSA that we developed last year that 
involves problem identification, consumer information and 
education, counter measure research including electronic 
stability and control, whether or not we can actually put these 
through the same fishhook maneuver that we used for the NCAP 
test and then finally, vehicle countermeasures, including 15-
passenger vans in certain appropriate rulemakings.
    Ms. Schakowsky. I'm not suggesting that you're not 
addressing it. I'm just saying that your characterization of 
what was required in the Senate bill, I don't think is so 
restrictive as to be even inconsistent with what you say you're 
already planning to do.
    But let me ask another question. In an article in USA Today 
on February 25, you cited as being worried that ``some ways to 
strengthen a roof''--this is about rollover technology--
``strengthen a roof required to be higher which can increase 
the chance of rollover.'' I'm just wondering if there's any 
study or other research that would substantiate your concern 
and are you saying that there is no way to simultaneously 
address roof strength and rollover protection?
    Mr. Runge. I'll answer your second question first. 
Absolutely, there are ways to strengthen roofs without 
increasing the risk of rollover and we feel sure of that. With 
respect to the first thing, Ms. O'Donnell used the word 
``higher'' in that article. I don't think I ever said the word 
``higher''. What I said to her is that one could strengthen a 
roof inappropriately and raise the center of gravity by putting 
a lot of weight up high, which would absolutely increase the 
rollover risk. So what we do with one technology, we don't want 
to cause an unintended consequence with the other. We are going 
to come out this year with a proposed rulemaking for a better 
roof crush standard than the one we have right now. We are on 
the case. So again, legislative mandates are fine when we have 
a crisis like TREAD addressed, but in the every day course of 
our normal rulemaking priorities, we believe that an open, 
public process is much better than specific inflexible 
legislative mandates.
    Ms. Schakowsky. Although even on that point, there are ways 
to lower the center of gravity to compensate for additional 
roof height. That wouldn't exclude the notion that raising the 
height of the roof would be a positive thing, right?
    Mr. Runge. That would be correct. Again, through 
deliberative research, careful--again, we don't make vehicles 
at NHTSA. The auto makers make vehicles.
    Mr. Stearns. Right.
    Mr. Runge. Thank God, we don't have to make them or sell 
them. So a lot of what we mandate paints the manufacturers into 
a certain corner that they have to then engineer their way out 
of and we want to make sure that we don't cause harm as well.
    Ms. Schakowsky. Let me ask you another question. You know 
Representative King and I have the Kids And Cars Safety Act 
that requires safety standards, power windows, safety child 
switches for auto reverse on the windows, auto reverse 
technology, etcetera. And in Tuesday's Washington Post, you 
said that there isn't enough nontraffic fatal and injury crash 
data being collected, but you question the figures supplied by 
a national safety group that talks about backover deaths and 
the window problems.
    If you say you don't have the data on the nontraffic 
crashes, how do you know that the figures that were supplied by 
the organization called Kids and Cars and backover tragedies 
are too high?
    Mr. Runge. Our staff has met with the leader of that safety 
group, and they meet regularly with all these safety groups who 
have these issues and they've gone over the data and they have 
some concerns about the numbers that have been given. But 
you're absolutely correct, we realized last year that we needed 
additional data on nonroad fatalities and injuries and our 
statisticians set about trying to figure out how to do that 
accurately.
    We have been reviewing national vital statistics looking at 
death certificates and I believe that report should be out 
shortly, where we're looking at every single fatality. And if 
the medical examiner or the physician who does the death 
certificate codes it as having happened related to a motor 
vehicle, they're going to pull every single one of those and 
look at them and categorize them.
    It takes manpower to do that and they think it's important 
enough to do that and so do I.
    Ms. Schakowsky. So you will be collecting data?
    Mr. Runge. Yes ma'am.
    Mr. Stearns. The gentlelady's time has expired. The 
gentleman from Michigan.
    Mr. Upton. Thank you, Mr. Chairman. Welcome, Dr. Runge. We 
appreciate your appearance today. I want to thank you for 
implementing the TREAD Act the way that you have and I know 
that just in the last month or so the word came out on yet 
another tire recall that clearly will save lives. Because that 
recall is a direct result of the regulations that were 
promulgated from the act of our committee getting it through 
after the Firestone mess from several years ago. So I want to 
thank you on behalf of lots of people who otherwise have ridden 
on those tires.
    I'm just curious to know if you've had any count yet in 
terms of the tires that have actually been submitted back to 
the dealer, to the tire dealers and how many have been replaced 
up to this point?
    Mr. Runge. No sir, I don't have that information. This 
occurred actually less than 4 weeks ago. Our compliance people 
will begin to get information from the manufacturers in due 
time. I can't recall what that time course is.
    Mr. Upton. If you could just make it public to the 
committee at the appropriate time, I certainly would appreciate 
it.
    I want to go back to something that you said in your 
statement, particularly on SUV safety where I think you said 
that a third of all the deaths in SUVs have been those folks 
that died wear a result of full or partial ejection, in other 
words, they were not wearing their seat belt. I know most 
States, I think, it's my understanding that most States do have 
mandatory seat belt laws, otherwise they'll lose their highway 
money. How many States don't have a mandatory seat belt law, do 
you know?
    Mr. Runge. I think for Michigan where you do have a first 
rate safety belt law, you don't have a problem.
    Mr. Upton. I would note that part of the reason that we've 
done so well is at least in my family we have a fine and that 
fine just got elevated from--my son is 12 and he has an 
allowance of $6 so we've elevated the fine from what once was a 
nickel to $1 and now it's $2 last week because of the new fine. 
It seems to work pretty well, but I know Michigan does have a 
mandatory seat belt law, as the Upton family does as well. But 
how many States don't have a mandatory seat belt law?
    Mr. Runge. Twenty-nine States have a safety belt law that 
prohibits a police officer from pulling a motorist over unless 
they're doing something else wrong. We refer to those as 
secondary laws and those have about an 11 percentage point 
difference in compliance when compared to those States with the 
law like Michigan's where one can be pulled over.
    Mr. Upton. So Michigan, I know is a primary law State, so 
how many States have primary laws?
    Mr. Runge. Twenty now.
    Mr. Upton. Twenty.
    Mr. Runge. Illinois and Delaware just passed, so 20.
    Mr. Upton. So 20 have a primary law and 29 have the 
secondary law, so one State does not. Is that State New 
Hampshire?
    Mr. Runge. It would be, sir.
    Mr. Upton. That's what I thought. That was my 
understanding.
    Mr. Runge. Now I should say for the benefit of your 
colleague----
    Mr. Upton. I have just one question and then I'll let you 
respond. What is the percentage of--are those folks in New 
Hampshire, do they have a higher either death rate in car 
accidents or injury rate that could be tied back to the lack of 
a seat belt law or any law?
    Mr. Runge. That's a great question. There are many reasons 
why a State has a high or a low fatality rate. New Hampshire is 
doing a lot of things very well. The three things that 
determine whether you're going to die in a crash, basically, if 
you can lump this into three, are safety belts, alcohol and 
speed. Road conditions are also an issue. The slower one 
drives, the less chance you have to have velocity squared and 
have a lot of energy delivered to your body. So what we see in 
all the New England States where there's lots of snow and 
inclement weather is a fairly low fatality rate compared to 
other States in the South, for instance.
    Mr. Upton. But what are the numbers as it relates to New 
Hampshire?
    Mr. Runge. I can't tell you what their fatality rate is 
right now, but I'll be happy to give that to you.
    Mr. Upton. I'd appreciate that. It would be helpful. You 
know they brag about their syrup up there, but I still think 
the Michigan stuff is better.
    The last question I have is as it relates to the Senate 
bill, I know that they have quite a few dates that are imposed, 
mandated rulemakings. I'm just curious, if the Senate bill 
became law, do you think NHTSA would have trouble or the 
industry would have trouble with the number of these dates and 
if so, which ones? I know there's a number of different 
rulemakings. I think there are 10 major mandated rulemakings. 
As we work through the TREAD Act and again those, as I recall, 
they had not, the tire ratings had not been updated since the 
1960's. I would just be curious to know how you think NHTSA 
would be able to move these new rulemakings with the time table 
that was laid out by the Senate. Which ones would you have 
trouble with?
    Mr. Runge. If I can give you sort of a comprehensive answer 
about that first. As I said in my statement, we have a 
commitment, which is a new commitment to review all rules on a 
7-year cycle. We will not have any more 1968 rules that have 
not been reviewed any more.
    Now having said that, a lot of the mandates in the Senate 
bill requires us to look at technology and so forth and those 
are less problematic than those which actually require an NPRM 
or a final rule by a certain date. For instance, the mandate 
regarding aggressivity, how aggressive a vehicle is and that it 
should be included in the NCAP ratings. We are in the middle of 
research looking at how we are going to gauge aggressivity and 
this has to do a lot with the barriers that are available, the 
load sensors that are available in the barriers, how we 
interpret the force through the vehicle.
    We are at a very early stage of research and while it may 
be a great idea, as I said before, we have to have tests that 
are perfectly repeatable so that the manufacturers can actually 
know when they make a vehicle how it's going to rate. And we 
have to be able to do it the same way every single time. So 
while it may be a terrific idea having an NPRM for January 
2007, it also may be a terrible idea, but we won't know that 
until we finish the research. So once it's in law, it's 
inflexible and we have to respond.
    Mr. Upton. It's probably a little premature for some of 
these rulemakings to have the force of law without you having 
enough scientific knowledge to proceed. Is that right?
    Mr. Runge. That's correct. It may turn out to be the best 
idea in the world.
    Mr. Upton. And that's one example. Can you provide, again 
I'm watching my clock expire here, if you can provide us with 
some of those areas where you think it would be difficult as we 
begin to work with the Senate and I'm getting legislation 
moving and obviously get to conference, I know that we'd all 
appreciate that.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Stearns. Time has expired. Mr. Dingell?
    Ms. Schakowsky. If I could?
    Mr. Stearns. Yes.
    Ms. Schakowsky. Excuse me, Mr. Chairman, if I could ask 
unanimous consent to put in the record the testimony of Public 
Citizen and also of the Advocates for Highway and Auto Safety.
    Mr. Stearns. By unanimous consent, so ordered. Mr. Dingell?
    Mr. Dingell. Mr. Chairman, thank you. Dr. Runge, 
congratulations on an excellent statement. I assume that you're 
familiar with the agreements between the automobile industry 
and the Insurance Institute for both compatibility and side 
impact airbag standards. Will these agreements help NHTSA in 
its work on these issues?
    Mr. Runge. Yes sir, they will.
    Mr. Dingell. Will you have the expertise and an opportunity 
to review them and see whether they are, in fact, good or will 
you not?
    Mr. Runge. Yes, this is a real success story. And I 
appreciate your bringing that up.
    Mr. Dingell. Thank you. Doctor, even if there's more work 
to be done on these issues, do voluntary agreements such as 
compatibility and side impact airbag standards make vehicles 
safer, more quickly than just by regulation issued by you 
alone?
    Mr. Runge. It's really clear that the industry can move 
much faster than the regulatory process can and as I said, as 
I've said on numerous occasions, we have a duty to proceed down 
our own track. There's a relatively small community in this 
country of vehicle safety researchers and they all sort of know 
what each is doing. So as the knowledge advances, the odds of 
converging on the same target get a lot better.
    We will proceed down our track for side impact protection 
and for compatibility protection and as the industry does, I'm 
sure that they will share with us what they're doing and it 
really does help us in our rulemaking.
    Mr. Dingell. Thank you, Doctor. Now the manufacturers have 
agreed to share compliance data with NHTSA. This will enable 
the agency to monitor such manufacturers for compliance. Is it 
true then that you will know if automobile manufacturers are 
complying with these voluntary standards?
    Mr. Runge. To the extent that they submit the data, yes 
sir, that will help us out.
    Mr. Dingell. But they will produce that data, will they not 
and you have the power to insist that they do so?
    Mr. Runge. Where it's a voluntary standard, for instance, 
if we look back at the 1998 side airbag working group that they 
formed, we recently asked them to define for us the numbers of 
side airbags that actually conform to that voluntary standard 
and I've not seen the results of that, but I'm sure----
    Mr. Dingell. Do you have any reason to believe they will 
not be cooperative in providing the information that the agency 
needs?
    Mr. Runge. No sir, not at all. Just the opposite. I think 
they will be cooperative.
    Mr. Dingell. Thank you, Doctor. I note that NHTSA is 
beginning to work on rollover prevention crash worthiness. 
Would voluntary standards produced through a similar process be 
helpful to NHTSA on these issues?
    Mr. Runge. We have spoken with the Alliance and I would 
very much appreciate their getting to work on the rollover, on 
a voluntary rollover standard as they have with their side-
protection and compatibility. They've not done so yet, but I 
think it would be a welcome advance.
    Mr. Dingell. Now Doctor, if we were to dramatically reduce 
the occurrence of alcohol-related incidents and dramatically 
increased the use of seat belts, isn't it true that we would 
reduce our fatalities by about 75 percent?
    Mr. Runge. I can't tell you that 75 percent number, Mr. 
Dingell. It would be a lot. It would be a lot.
    Mr. Dingell. Doctor, how many enforcement actions did NHTSA 
bring against car manufacturers that sold replacement tires 
that did not comply with NHTSA requirements? If you don't have 
that information present, we'll ask you to submit it for the 
record.
    [The following was received for the record:]

    NHTSA has not brought any enforcement actions against car 
manufacturers for selling replacement tires that did not comply 
with agency requirements. We also are not aware of any car 
manufacturers that sell replacement tires. However, NHTSA does 
have an active, ongoing compliance test program for tires sold 
as replacements in the United States market. For fiscal years 
1997 through 2004, NHTSA performed compliance testing on 1,719 
replacement tires, and has documented one failure. As a result 
of this testing, the agency initiated one investigation that 
closed without action.

    Mr. Runge. Thank you, sir.
    Mr. Dingell. A similar question with regard to actions 
brought by NHTSA against parts manufacturers that sold 
replacement lighting processes or rather lighting products that 
did not comply with NHTSA safety regulations. If you don't have 
that information, would you submit it?
    Mr. Runge. Absolutely.
    [The following was received for the record:]

    The following table summarizes the investigations NHTSA initiated, 
between January 1, 1997 and March 31, 2004, with regard to replacement 
lighting equipment, and the result of those investigations.

----------------------------------------------------------------------------------------------------------------
                                                                           Stopped
        Total # of Investigations          # of Pending   # of Recalls      Sales         Civil      Closed w/o
                                          Investigations                  (Dealers)     Penalties      Action
----------------------------------------------------------------------------------------------------------------
48......................................             4            29*          13**      $660,000             7
----------------------------------------------------------------------------------------------------------------
* Certain investigations resulted in multiple recalls.
** In today's marketplace, it is often difficult to determine the manufacturer of lighting products until after
  an investigation is underway. Although dealers are prohibited from selling noncompliant products, they are not
  required to recall.


    Mr. Dingell. Doctor, at least two witnesses on the second 
panel will discuss a growing problem in the industry, foreign 
manufacturers selling replacement tires and auto parts that do 
not comply with U.S. safety standards. To make matters worse, 
many of these products are labeled as if they did comply with 
our standards. This places our domestic manufacturers at an 
economic disadvantage. Does this constitute a danger to vehicle 
safety?
    Mr. Runge. I think the answer to that question will come 
when we work with the industry, with the Customs Service, 
anybody that we have to work with in order to identify those 
tires and actually do compliance.
    Mr. Dingell. Common sense tells us that it is a problem and 
it does impose risks on American public, does it not?
    Mr. Runge. There certainly is a risk.
    Mr. Dingell. Doctor, does the NHTSA need new powers to 
address this? Should you be able to seize falsely marked parts 
and equipment that says it meets standards when, in fact, it 
does not? Food and Drug has a similar power. Department of 
Agriculture has a similar power. What powers do you have and 
what do you need to address this concern?
    Mr. Runge. I think that we probably already have the power 
to do so. I'll check with our lawyers to make sure.
    Mr. Dingell. I would be more comfortable if you could tell 
us today or if you would be able to submit it to us at a later 
time?
    Mr. Runge. We will check into our authority and let you 
know. I will say that this is an issue that we've talked about, 
particularly the tire manufacturers association, the rubber 
manufacturers association and we also agree that we need to get 
a handle on this problem. If it's a problem, let's jump on it. 
I've asked them, in fact, if they have information that's out 
there, we would like to have it. We don't have it right now.
    Mr. Dingell. We don't have the information. How are we 
going to get it?
    Mr. Runge. Well, you might better ask Mr. Shea in the next 
panel, but he's told me that he believes that they can give us 
that information. They apparently have it.
    Mr. Dingell. I will ask that you communicate with us on 
these matters and also that you inform us of the powers you 
have to address it, to collect the information and the powers 
you need to bring this problem to a halt.
    Mr. Chairman, I thank you.
    Mr. Stearns. I thank the gentleman from Michigan. The 
distinguished Chairman of the Full committee, Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. I would ask unanimous 
consent that my opening statement be made a part of the record.
    Mr. Stearns. So ordered.
    Mr. Barton. I just have one question, Doctor. The Senate 
moved the reauthorization bill for your agency on their highway 
bill. The Bush Administration has objected to some of the 
mandatory provisions in that particular reauthorization. If we 
were to decide to move a clean bill through regular order 
through this committee, would you and your administration at 
NHTSA work with us to do that?
    Mr. Runge. Absolutely, Mr. Chairman, we'd be delighted to.
    Mr. Barton. Thank you.
    Mr. Stearns. I thank the gentleman. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman. Dr. Runge, I want to 
first salute the level of service I'm aware of that your 
administration observes with respect to your website and to 
phone calls from my constituents and I'm sure others, 
information about crash worthiness and safety ratings.
    One of the things we would all agree upon is informed 
judgment by consumers, one of the best forms of protection as 
far as safety.
    Mr. Runge. Thank you.
    Mr. Davis. It's not easy to do that well either. I wanted 
to ask you a couple of questions, the first pertains to the 
protections in terms of the side solutions. There's a news 
article I had that suggests that the auto makers pledge to make 
voluntary changes, would take effect by September 1, 2009 and 
if, in fact, that's correct, my question to you was what your 
observations were about that timeframe in relation to 
discussions you're having about your own track.
    Mr. Runge. When we were briefed on the outcome of that 
voluntary agreement, we were very happy that they have agreed 
in the first phase, in the earlier compliance test, to meet our 
75 degree pole test, which almost certainly will voluntarily 
mandate, if that's a phrase, head protection through the use of 
side curtain airbags. This is a tremendous stride and in fact, 
in our own rule that we'll be proposing shortly, we will have a 
very similar counter measure in mind. There's no question that 
that will reduce the cost of compliance with this rule, which 
is better for all parties.
    Their voluntary standard for 2009 involves a different 
barrier and we need to look very carefully at the differences 
in countermeasures that might be applied to meet that as well. 
We are committed to paying attention to, for the first time, in 
our side impact standard and I think that we will arrive at 
virtually the same place by 2009.
    Mr. Davis. So your observation today is the 2009 timeframe 
sounds like a suitable timeframe for that type of compliance?
    Mr. Runge. I would imagine that by 2007, if the majority of 
their fleet meets the 75 degree pole test, that we'll see these 
countermeasures appear a lot sooner. In fact, at the Auto Show, 
I was taken around by the people from the different 
manufacturers and they were eager to show me how their 
engineering, their roof rails with the possibility of packaging 
a bag in there that can be put in. In many cases, they're 
already there, particularly as options. So we're making rapid 
progress here.
    Mr. Davis. When we're talking about 2007 and your 
observations, are we also talking about the protections in 
terms of side collisions with pick up trucks and SUVs, as well 
as poles?
    Mr. Runge. Yes. If in fact, this voluntary agreement takes 
place and the majority of vehicles meet the standard by 2007, 
we will have come a long way toward protecting Americans from 
incompatible vehicles.
    Mr. Davis. My second question pertains to my State, 
Florida, and perhaps other States that have repealed laws that 
previously required people driving motorcycles on public roads 
to wear a helmet. I am not aware that in my State there was any 
study done before that was repealed, nor any study done since 
in terms of how it has affected the safety and survivorability 
of people driving motorcycles. I wanted to ask you if you had 
any general or specific observations about that in any studies 
you're aware of on that particular issue and how many States 
are doing this?
    Mr. Runge. We just released a study looking at two States, 
Kentucky's and Louisiana's repeal of their helmet laws and 
looked at the difference in fatalities before and after. In 
Louisiana, I think there was a 230 percent increase in 
fatalities following the repeal of that law. I'm not aware of 
the data from Florida.
    Now it's not only helmet use. Other protective equipment is 
also important, and we also see a phenomenon in States that 
have no helmet law, where ridership seems to go up, so there's 
also an exposure issue that is not adequately accounted for in 
that study. These are very difficult to do because it's very 
difficult to achieve, to find a rate because we don't know the 
vehicle miles traveled by motorcycles. But I can tell you that 
very clearly that Newtonian laws of physics are pretty 
straightforward here, and when a head meets the pavement, 
there's no stopping distance and there's a lot of force applied 
and death occurs.
    Mr. Davis. Thank you. Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentleman. We have a series of 
three or four votes in about 10 minutes. So I just urge 
members, if possible, we could get through all the questioning 
of the chairman, so he could go, take our break and then the 
second panel comes back.
    So Mr. Otter is next.
    Mr. Otter. Thank you, Mr. Chairman, and thank you, Doctor, 
for your testimony earlier. I'm a little confused though. I 
don't quite understand a couple of the figures relative to the 
deaths of 202 that you've got in your report. On your first 
citation it's 42,815 and then a citation later in your 
testimony is 32,598 for the same year and I'm trying to 
understand what the difference is between those two.
    Mr. Runge. Forty-two thousand eight hundred fifteen 
includes pedestrians, motorcyclists and pedal cyclists; 32,598 
are the numbers of vehicle occupants that were killed.
    Mr. Otter. Oh, I see. So then auto safety probably would be 
closer to the 32,000 rather than the 42,000?
    Mr. Runge. Well, usually when a pedestrian is killed, an 
automobile hits him, so there are counter measures that can 
also be applied for pedestrian safety.
    Mr. Otter. No, I understand that. But usually, there should 
be some personal responsibility involved here as well, whether 
you're pedaling a bicycle. You know if you're going to run into 
a car, anyway that's another discussion we'll get into later.
    Let me ask you, has the agency proposed any kind of 
marketplace discipline in some of these areas where we can't 
seem to accept by law, enforce personal responsibility whether 
it's putting on the seat belt or driving the speed limit or 
whatever. For instance, like allowing the insurance companies 
to say look, if you get in a car accident we're not going to 
insure you unless you've got your seat belt on. Is there any 
kind of marketplace discipline or schemes that you folks have 
even entertained to say maybe let's let the marketplace do some 
of this and personal responsibility if it's going to cost me an 
accident because I don't have my seat belt on and I'm going to 
have to pay for it. It's a lot different.
    Mr. Runge. That's a great question, and we have entertained 
those countermeasures.
    Mr. Otter. Have you tried them anywhere?
    Mr. Runge. That might be a more appropriate question to ask 
Mr. O'Neill with the Insurance Institute. We've talked to the 
insurance industry about some of these things. One of the 
problems, and I think the States number in the 20's, if someone 
runs into you and is not belted and is severely injured or 
dies, and they sue you, there are States that prohibit bringing 
up the evidence of whether or not they were belted is 
contributory to their injuries. So there's a lot of State 
legislation around here that actually inhibits those market 
forces from taking place. But there's no question that 
nonsmokers get cheaper life insurance. Clearly, people who are 
belted should get cheaper automobile insurance it seems to me, 
but then again, I'm not an actuarial. We would like to explore 
those sort of things.
    Mr. Otter. Of the 32,000, let's work with that number. Of 
the 32,000 folks that--do you have that demographic divided up 
into SUVs and small cars and big cars and pickups?
    Mr. Runge. I do, but I don't have that with me. But we do.
    Mr. Otter. I would like to get the percentage of larger 
vehicles, the SUVs and the pickups which are suggested by some 
to be the safest on the highway and suggested by others to be 
the killers on the highway.
    One other question I would have and that is relative to 
highway safety. Do you get involved with highway safety at all, 
does your agency?
    Mr. Runge. I'm sorry, sir?
    Mr. Otter. Other than the vehicles and design and operation 
and that sort of thing?
    Mr. Runge. Yes, we have--we also have authorization and a 
mandate to take care of human factors as well.
    Mr. Otter. The reason I ask this question is because we've 
got a stretch of highway in Northern Idaho and Highway 95 we 
refer to as blood alley. We average 32 deaths a year on that 
and for the most part the reconstruction of that and redesign 
of that has been held up because of three toed frog or 
something, some slick spot peppergrass or something. And I was 
just wondering, does your agency have any authority to go 
forward and perhaps say these human lives are awfully 
important. In fact, I remember when I was on the Transportation 
Committee and I think you were there when the then Governor of 
New Jersey, not Christy Todd Whitman, but the one after that, 
testified that they had an offering that they had tried to get 
for 10 years, but they had a couple of acres of swamp that they 
couldn't get mitigation on and my question would just go to is 
there any input that you have or authority that you have to 
force some kind of mitigation so that we can stop killing 
people?
    Mr. Runge. The road building group is the Federal Highway 
Administration. Administrator Peters and I, I believe, were on 
that panel, and let me just say it is a priority of the 
Secretary and of Administrator Peters to improve environmental 
streamlining. They've been working on this very diligently and 
I believe there are some provisions in the President's safety 
reauthorization bill that would provide for that.
    Mr. Otter. Thank you.
    Mr. Stearns. Thank the gentleman. Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. Quickly, 
I'll try--I'm new to the committee and trying to understand 
process. On the reauthorization and I guess it's kind of a 
philosophical debate that's going on and your position is 
mandates would obviously get in the way of you establishing 
whatever priorities you deem are necessary than applying 
limited resources that you have to do in your job, yet I guess 
Members of Congress always feel that we're a lot closer to the 
people. We hear from constituents. We have a hand on the pulse 
and therefore identify certain problems that we feel that your 
agency should be addressing.
    Is there anything short of mandates in order to accomplish 
that? In other words, how do we communicate with you? I've 
noticed that you've had your priorities and I know in the State 
of Texas, and I know that many consider that maybe not even 
part of the United States, it's a whole different culture, but 
the views that are expressed are the concerns that I hear 
really are about vehicle size and the fact that people don't 
feel comfortable in the city of San Antonio unless they really 
get into a bigger vehicle. That is recounted time and time 
again. And I will ask why do you drive the Suburban which is a 
great vehicle and such and they will always say it's always 
about safety, always about safety which you can understand if 
you're driving a Saturn and you're at the stop light and a 
Hummer comes next to you. You really understand things about 
size.
    So I guess what I'm saying is in my area the concern is 
really size. Yet, I'm not sure that's addressed or maybe I just 
missed it in what you had as far as some of your priorities. So 
one, policy-wise, how do we get your attention without 
legislative mandates and second, are you doing anything 
regarding this particular problem as expressed by the 
statistics?
    Mr. Runge. First of all, I'll give you my phone number and 
my cell phone number and you can call me any time. Our agency 
has five priorities: safety belt use, reducing impaired 
driving, improving data and traffic records, reducing rollover 
and improving compatibility or reducing the problems with 
incompatibility. That is one of our five agency priorities. 
We've been pushing on this really, really hard for 3 years and 
what is going to make the biggest difference the soonest is 
revising our side impact standard so that when one 
unfortunately is struck by something larger, that you are not 
doomed to be killed by an incompatible vehicle striking where 
the energy absorbing structures aren't on that Saturn.
    The second piece of the incompatibility issue is with the 
striking vehicle and re-engineering the striking vehicle. We 
have to have some metrics for measuring the load path of the 
striking vehicle so that the vehicle engineers can engineer the 
struck vehicle in order to absorb that energy. I hope this is 
not too technical, but there's the struck vehicle and there's 
the striking vehicle and we have to tackle both of those 
things.
    The industry picked up the gauntlet that I threw down and 
they have voluntarily agreed to put these countermeasures in 
for self-protection starting by 2007 and 2009 for separate test 
procedure. This is really good. We are also evaluating our side 
impact standard. And we're doing research on how best to judge 
that aggressivity of the striking vehicle. But this is not 
something that you can just pronounce that it will be done. 
This really is part of a deliberative, very careful process 
that will end up with a performance-basesd standard so that 
when we make a rule as to how something has to be, we say how 
it has to perform. We don't say how it has to be designed. In 
order to do that, we have to have tests. We have to design 
compliance tests that are done exactly the same way every 
single time.
    Congress has our attention, absolutely. We have numerous 
reports. We're very happy to communicate with the committee in 
written form or orally. Our priority-setting is a very public 
process and we look at the data. These are all data-driven 
prioritizations that we do. So where there are some 
constituents that you might have who are not getting their 
problems addressed, it may be unfortunate, but where we are 
seeing 2, 3, 4 or 5 people killed in the country by something 
that could be addressed, we simply are not willing to take 
resources off of something that's killing hundreds and hundreds 
and hundreds of people to do that. It's a little cold, but 
that's my whole bureaucratic hat.
    Mr. Gonzalez. It's almost basic, just height requirements. 
I mean that is a major engineering reconfiguration and I 
understand the problems with that, but when you're talking 
about side impact, some of these things are--there is no metal 
on the side impact to the vehicle that is being hit on the 
side. It's glass or mostly glass. That's how high the 
difference is on some of the bumpers and such. But I do look 
forward to working with you in the future and I would like your 
cell phone. Anybody that gives you their cell phone number is 
either a real close friend or is a glutton for punishment.
    Thank you very much.
    Mr. Stearns. And I thank the gentleman. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman, and I can assure my 
friend Charlie that Dr. Runge is very accessible. He's been in 
my office a couple of times and I think you'll find him a 
pleasure to work with in the administration. So Dr. Runge, 
welcome. You don't have your motorcycle helmet with you today. 
My motorcycle rider friends always say there's that dang Dr. 
Runge carrying that motorcycle helmet, but it is an 
illustration of the points I think in the initial motorcycle 
debate that my colleague Mr. Davis brought up.
    Before I talk, ask a few questions, I also want to make 
sure I recognize Mr. Jason Bonin who is the Vice President of 
Lighting and Technology for Hella North America. He's in the 
next panel, the facility in my District located in Florida. I 
look forward to visiting that facility. Yes, there is 
manufacturing in America. It is--there is a difficult challenge 
and a lot of that is taxation, a lot of that is overregulation, 
but believe it or not, there are still a few manufacturing 
facilities and we're trying to keep them in the United States. 
So it's great to be able to welcome him here.
    I guess the first question is things we've talked about in 
the office. Is it still the intent of NHTSA to ensure that 
taxpayer dollars at the Federal level are not going to lobby 
State legislatures to pass State law?
    Mr. Runge. We do not lobby State legislatures, but we do 
show up when they ask us to.
    Mr. Shimkus. That's correct. That was an issue of 
contention, as you know, with publicized material and I just 
want to re-emphasize the fact that taxpayers do not expect 
taxpayers' dollars to go to fund lobbying, quote unquote 
lobbying activities or issues and we've had that debate before.
    I think it's also my impression that in the budgetary 
debates, there may be a restriction of motorcycle rider safety 
programs. Are you aware of that? And have you been able to do 
any analysis of motorcycle rider classes with respect to safety 
and educational aspects?
    Mr. Runge. We do support motorcycle rider training. It's 
part of our national agenda for motorcycle safety. There seems 
to be a feeling among many of the rider community that the 
Federal Government should pay for rider education in the State 
level and we disagree. We believe that it's every driver's----
    Mr. Shimkus. Has there been a history before that? Is this 
a shift? What's driving that?
    Mr. Runge. There's no shift. We've never paid for anyone's 
personal education in any driving course that I'm aware of.
    Mr. Shimkus. I'm asking to try to find out. Obviously, 
there is a concern and the question is maybe not through you, 
but maybe through some DOT issues or--I'm not sure. To say that 
the Federal Government is not involved in education and funding 
would not be an overall accurate statement, but it may be in 
this case. I would just say that if safety is an issue, driver 
safety issues might be of concern. That's been raised by us and 
that's why I ask the question.
    Mr. Runge. Yes sir. We do support rider education. We've 
been working with the Motorcycle Safety Foundation, which is a 
manufacturers group on this. Most of my staff has taken the 
course, in fact. We do support it, but we believe that 
everybody has his own responsibility to pay for his own driver 
education, including whether it's a car and a 16-year-old or if 
it's a motorcycle rider.
    Mr. Shimkus. Thank you, Mr. Chairman. Thank you for your 
time and I yield back.
    Mr. Stearns. I thank the gentleman. The gentleman from New 
Hampshire, Mr. Bass.
    Mr. Bass. Thank you very much, Mr. Chairman. The New 
Hampshire State Motto is ``Live Free or Die.'' We do not have a 
seat belt law as my friend from Michigan so aptly pointed out. 
We're the only State in the Nation that does not. We do not 
have a motorcycle helmet law and we do not even have mandatory 
insurance required for automobile usage in New Hampshire. This 
has been a subject of debate for my entire career in politics 
going back to my time in the legislature when both the helmet 
law and the seat belt laws were debated. We've had an 
interesting association with the transportation bill over the 
years as the State has received a waiver, both in TEA21 and 
ISTEA prior to that and obviously these are issues that it's 
hard for the arguments on a State level to get beyond that 
feeling that there's something arbitrary about the Federal 
Government deciding or forcing somebody to do something when 
they're driving their car.
    I happen to be a seat belt user. New Hampshire, by the way, 
has a mandatory or primary seat belt law for anybody under the 
age of 15 and they have a mandatory child safety seat law and 
so forth. And indeed, the figures do show that seat belt usage 
is lower in New Hampshire than it is anywhere else, I believe, 
in the nature. Our seat belt usage is about 57 percent and I 
think the national average is around 79 percent, something like 
that.
    However, there is one interesting piece of data and that is 
that New Hampshire's fatality rate is significantly lower than 
the national average. So it is my hope, Dr. Runge, that as we 
discuss the reauthorization of this important bill, that we try 
to avoid getting into the issue of mandating a specific quote 
unquote fixing an issue that we create considerable controversy 
in my home State.
    I am also pleased to hear that you're willing to work, as 
Chairman Barton mentioned, you're glad to work with us on the 
reauthorization issue for a stand-alone bill so that the safety 
criterion deadlines that we may neutrally decide are 
appropriate are the ones that we can work on together so that 
we achieve a balance, an important balance between what is 
practical and economic and what will work the best to ensure 
the best highway safety.
    And I also want to commend NHTSA for its willingness over 
the years to really use sound science and research and so forth 
and express pride at the fact that the agency has done that 
over the years. So your agency has done a great job and we're 
looking forward to working with you on this reauthorization. I 
don't really--I didn't get a chance to make an opening 
statement, so I think would you believe that that is my opening 
statement and not a question for you?
    Mr. Runge. Absolutely.
    Mr. Bass. I yield back.
    Mr. Stearns. I thank the gentleman and Dr. Runge, I think 
we've completed our questions with you. We thank you very much 
for your time and patience and now we'll call up the second 
panel.
    Mr. Runge. Thank you, Mr. Chairman.
    Mr. Stearns. Mr. Donald Shea is President and Chief 
Executive Officer of the Rubber Manufacturers Association; Mr. 
Robert Strassburger, Vice President, Safety and Harmonization, 
Alliance of Automobile Manufacturers; Dr. David Pittle, Ph.D., 
Senior Vice President, Technical Policy, Consumer Union; Mr. 
Brian O'Neill, President, Insurance Institute for Highway 
Safety; and last, Mr. Jason Bonin, Vice President for Lighting 
Technology, Hella North America and we welcome all of you folks 
to Panel 2 and I think we'll start off with Mr. Shea on my 
right with your opening statement. Each of you have 5 minutes. 
We're fortunate we haven't been interrupted with any bells, so 
I feel with some deal of satisfaction that we can keep the 
hearing going. I appreciate the members' opening statements and 
also their questions, and now with your opening statements and 
then we'll move to questions.
    Mr. Shea, you'll start. Just move the microphone close 
enough to you and just turn it on so we can hear it. Thank you.

  STATEMENTS OF DONALD B. SHEA, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, RUBBER MANUFACTURERS ASSOCIATION; ROBERT STRASSBURGER, 
     VICE PRESIDENT, SAFETY AND HARMONIZATION, ALLIANCE OF 
    AUTOMOBILE MANUFACTURERS; R. DAVID PITTLE, SENIOR VICE 
 PRESIDENT, TECHNICAL POLICY, CONSUMERS UNION; BRIAN O'NEILL, 
   PRESIDENT, INSURANCE INSTITUTE FOR HIGH SAFETY; AND JASON 
  BONIN, VICE PRESIDENT FOR LIGHTING TECHNOLOGY, HELLA NORTH 
                            AMERICA

    Mr. Shea. Good morning, Mr. Chairman and distinguished 
members of the committee. My name is Donald Shea and I am 
President of the Rubber Manufacturers Association which 
represents tire manufacturers and manufacturers of other 
products. I have submitted written testimony to the committee 
and request that my oral statement be included in the record.
    Mr. Stearns. So ordered.
    Mr. Shea. Mr. Chairman, as you and this committee know, 
implementation of the TREAD Act is well underway. This historic 
and far-reaching legislation has had profound impact on the 
tire industry. RMA and its members supported enactment of the 
TREAD Act and have provided extensive input to NHTSA throughout 
the rulemaking process.
    I should note that NHTSA has expended enormous efforts in 
promulgating rules called for under the TREAD Act and 
accomplishing it, as Dr. Runge noted, in record time.
    As we near the end of this process, the tire industry 
wishes to bring to your attention issues that will ensure that 
the spirit and the letter of the law will be fully implemented. 
A complete enforcement, compliance and auditing program is 
necessary to ensure that the TREAD Act works as intended. RMA 
members have invested significant resources to comply with the 
new rules. Those who comply will be at a start competitive 
disadvantage if other companies escape these requirements. The 
early warning reporting system is a first of its kind program 
designed to help regulators and industry spot potential 
performance issues. Each year, tire manufacturers will report 
over 1 million pieces of data to NHTSA about our products. Any 
company failing to comply with this rule not only escapes the 
financial cost of compliance, but puts lies at risk by denying 
Federal safety regulators information that may signal and 
emerging safety problem.
    Tire testing standards also will require a compliance 
program. RMA members alone will spend over $1.7 billion to 
comply with this rule. Tire manufacturers who avoid compliance 
would have a significant cost advantage over companies that 
adhere to the rule. More importantly, new tires that do not 
conform to the revised testing standards will not give 
consumers the benefit of more robust performance these new 
standards demand.
    RMA urges Congress to set aside adequate funding for 
compliance and auditing work on early warning reporting and 
tire testing and we would welcome the opportunity to work with 
NHTSA to establish an appropriate, cost effective program of 
enforcement that can be reported on Congress.
    In addition to the compliance matter, the tire industry is 
faced with other issues. The Senate's NHTSA reauthorization 
measure contains three provisions relating to tires. We commend 
the Senate for its desire to enhance motoring safety. While we 
recognize the Senate's intent to refine and improve tire 
safety, RMA does not support the tire provisions in the Senate 
bill. One provision calls for an accelerated aging test 
requirement. RMA and the automotive industry are already 
working to design a science-based accelerated aging test for 
tires. NHTSA should be allowed to consider this work and 
thereafter develop the appropriate test method as well as time 
line, thereby precluding the need for the Senate mandate.
    The other Senate provisions for new strength in bead and 
seating tests will not assist the agency or the public in 
assessing radial tire performance. NHTSA postponed 
consideration of these tests because their analysis found that 
such tests were not appropriate requirements and we share the 
agency's view.
    Another issue that has recently emerged is tire expiration 
dates. The U.S. tire industry is currently engaged in dialog 
with our counterparts in Europe and Asia on this subject and 
our objective is to develop a consensus global tire industry 
recommendation regarding tire service life within the next 
several months.
    We're also concerned that some TREAD Act issues have not 
been fully resolved. RMA has filed timely petitions for 
reconsideration for several TREAD Act rules. To date, our 
petitions for tire labeling and tire testing have not been 
answered, and we hope that NHTSA will respond soon to these 
petitions and accept our recommendations.
    Finally, in July 2002, RMA petitioned NHTSA to establish a 
tire pressure reserve based on the minimum pressure required to 
carry the vehicle maximum load. RMA's petition would mandate 
that tires have a sufficient reserve inflation pressure so that 
a tire pressure monitoring system will warn motorists before 
tires are operated in an unsafe condition.
    RMA urges NHTSA to grant this petition so that all 
interested parties can formally register their views with the 
agency.
    Again, I wish to thank you, Mr. Chairman, and the members 
of the committee for the opportunity to provide these comments 
and I'll be pleased to answer your questions.
    [The prepared statement of Donald B. Shea follows:]

  Prepared Statement of Donald B. Shea, President and Chief Executive 
             Officer, The Rubber Manufacturers Association

    The Rubber Manufacturers Association (RMA) is the national trade 
association for the tire and rubber products manufacturing industry. 
RMA represents more than 120 companies that manufacture various rubber 
products. These member companies include every major domestic tire 
manufacturer including Bridgestone Americas Holding, Inc., Continental 
Tire N.A. Inc., Cooper Tire & Rubber Company, The Goodyear Tire and 
Rubber Company, Michelin North America, Inc., Pirelli Tire North 
America Inc., and Yokohama Tire Corporation. RMA is pleased to submit 
these comments on reauthorization of the National Highway Traffic 
Safety Administration (NHTSA).
    The tire industry is an integral part of the nation's economy and 
transportation system. In 2003 RMA members manufactured over 230 
million tires in the United States. In this country, RMA tire 
manufacturing members operate 36 manufacturing facilities and employ 
almost 50,000 workers.
    Over 98 percent of all tires on passenger cars in the U.S. are 
radial tires. A radial tire is a highly engineered structure consisting 
of six major components, each with separate functions. These components 
include: the inner liner, the beads, the body plies, the steel belts, 
the tread, and the rubber sidewalls.
    Tire design and production involves sophisticated engineering in 
product design, testing, manufacturing, and analysis. Designing and 
building today's complex tires is no simple task. Producing a tire 
involves a combination of chemistry, physics, and engineering plus more 
than 200 raw materials including natural and synthetic rubbers, metals, 
fabrics, oils, pigments, and other chemicals.
    Tire and cars are an integrated system. Tires are particularized 
and are tested for performance to the specifications of the original 
equipment manufacturer on a certain class of vehicle and type of 
service. For tires to perform properly, a delicate balance must be 
maintained with all characteristics such as wet and dry traction, 
handling, smooth ride, and noise.
    RMA's tire manufacturer members invest time, effort and resources 
to produce safe tires. Nearly 1 billion tires are on U.S. passenger 
vehicles today and by any measurement, tire performance is superior 
despite, in many circumstances, operating under-inflated and overloaded 
in high-speed conditions and in a variety of road and environmental 
conditions.
    RMA has long sought to help consumers understand the importance of 
tire maintenance. RMA's tire care and safety education efforts were 
reinvigorated in 2000 with the launching of the Be Tire Smart--Play 
Your PART program to help drivers learn the simple steps they can take 
to ensure that their tires are in good working condition. The term 
``PART'' is an acronym that stands for Pressure, Alignment, Rotation 
and Tread--the four key elements of tire care. RMA's website, 
www.betiresmart.org, offers valuable tire safety information for 
consumers and includes a downloadable brochure in both English and 
Spanish. In the past three years, RMA has distributed over 6 million 
printed copies of the industry's Be Tire Smart brochure. This year, 
RMA's brochures will be available in over 6,000 tire retail outlets.
    In 2002, RMA launched National Tire Safety Week to give the tire 
industry an opportunity to focus on tire safety education. This year, 
National Tire Safety Week will take place April 25-May 1. Since the 
launch of the program, RMA has held Tire Safety Days in over 20 cities 
in which RMA coordinated with industry partners like AAA and local tire 
dealers to help educate motorists about tire safety.
    RMA's Be Tire Smart program both compliments and reinforces other 
tire care and maintenance efforts by RMA member companies and NHTSA's 
Tire Safety: Everything Rides On It program. RMA also is encouraging 
its members to promote seatbelt use by employing such messaging in the 
Be Tire Smart brochures and supporting passage of primary seatbelt 
enforcement legislation.
    RMA and its members have worked extensively with NHTSA on issues of 
tire safety, tire performance reporting, and consumer information. 
While work on most of the issues mandated by the TREAD Act has been 
completed, RMA believes that there are significant challenges facing 
the agency and the industry. However, NHTSA's program of work should be 
guided by three principles:

 Motorist safety;
 Sound science and data; and
 Cost effectiveness.

                    IMPLEMENTATION OF THE TREAD ACT

    RMA worked with this committee and supported passage of the 
Transportation, Recall, Enhancement, Accountability and Documentation 
(TREAD) Act that was signed into law on November 1, 2000. The TREAD Act 
required twelve separate rulemakings. To date all of the rulemakings 
impacting tires have been completed except tire pressure monitoring and 
new testing requirements for commercial truck tires. New programs have 
been instituted and performance requirements for tires have been 
increased.

Tire Labeling for Light Vehicle Tires--FMVSS 139
    The final rule for labeling of light vehicle tires was announced 
November 18, 2002. This rule has a phased-in compliance schedule 
requiring forty percent of the tires manufactured on or after September 
1, 2004 and before September 2005 to comply with the rule. Seventy 
percent of the tires manufactured on or after September 1, 2005 and 
before September 1, 2006 must comply and all tires manufactured after 
September 2006 must comply.
    NHTSA's final rule requires the full tire identification number 
(TIN) to be on the intended outboard sidewall, if there is one, with a 
partial TIN on the opposite sidewall. RMA supports the new requirement 
to add a partial TIN to the opposite side from the full TIN. However, 
the new mandate to place the full TIN on the intended outboard side 
will not only force huge compliance costs on the industry, but will 
also expose tire industry employees to workplace safety hazards and 
significant risks of injury.
    The final rule would require workers to change the date code of the 
TIN on a weekly basis in a hot (300+) mold in mass production. Since 
the intended outboard sidewall is usually in the top half of the tire 
mold this change requires workers to climb or lean into the mold. The 
only way to comply with the rule and still eliminate the worker safety 
issue is either (a) to flip the molds over in the press or (b) to 
replace an existing mold with a new mold with the intended outboard 
sidewall in the bottom of the mold rather than the top. RMA member 
companies work with approximately 100,000 molds. The complexity of 
flipping a mold over in the press varies according to the type of mold 
and its configuration. It is not as simple as removing the mold from 
the press and reinstalling it upside down. In many, if not most cases, 
flipping the mold over is not possible, and consequently the mold would 
have to be replaced. RMA estimates that the compliance costs for these 
alternatives exceeds $220 million.
    RMA filed a timely petition for reconsideration on tire labeling on 
January 2, 2003. The agency has not responded to that petition. In that 
petition for reconsideration, RMA recommended that the full TIN be 
placed on one side of the tire with the partial TIN on the other tire 
sidewall. Using NHTSA's own estimates the RMA recommendation would 
allow a consumer to identify the family of tires that might be subject 
to a recall 87% of the time. The RMA recommendation has the added value 
of minimizing the adverse economic impact and eliminating the worker 
safety concerns.

Tire Testing for Light Vehicle Tires--FMVSS 139
    Existing tire testing regulations (FMVSS 109) were promulgated in 
1968. At that time nearly all of the passenger car tires in the world 
were of bias or bias-ply construction. Tires have vastly improved since 
the 1968 regulations were promulgated. In January 1999 RMA petitioned 
NHTSA to update those standards. With the passage of the TREAD Act, 
NHTSA was required to promulgate new tire testing standards (FMVSS 
139).
    The final rule for light vehicle tire testing was announced on June 
26, 2003 with a compliance date for all tires by June 1, 2007. The new 
test standard applies to new radial tires used on powered motor 
vehicles with gross vehicle weight rating of 10,000 pounds or less. 
NHTSA did exempt certain specialty tires from the new requirements 
including trailer tires, farm tires, temporary spares, and all bias 
light tires for highway use. Snow tires are required to meet the new 
standards.
    The regulatory requirements include:

 Low pressure performance test--new
     Tires run at approximately 40 percent below maximum inflation 
            pressure.
 High speed test--upgraded
     Maximum test speed raised from 85 mph to 99 mph
     Light truck tires are now required to be tested for high speed 
            and must meet the same minimum speed
 Endurance test--upgraded
     Speed raised from 50 mph to 75 mph
     Test time increased from 34 hours to 40 hours
    RMA supported these revised testing standards, which are now the 
most stringent in the world.
    Two significant test method issues remain in the testing of light 
vehicle tires: testing tire pressure and chunking.

Testing Tire Pressure
    In a petition for reconsideration filed with the agency RMA 
recommended that tire pressure should be measured at least 15 minutes 
after completion of the tests. RMA also recommended allowing a five 
percent pressure reduction at test completion. This is needed because 
when a tire's pressure is checked, the following occurs:

 Some small amount of air is required to activate the tire gauge;
 Some small amount of air may escape in the process of checking;
 Some differential because of inelastic growth due to heat during 
        testing;
 Some differential because of diffusion; and
 Some variation caused by level of gauge repeatability.
    RMA urges NHTSA to accept this recommendation.

Chunking
    As promulgated, the final rule for FMVSS 139 will cause abnormal 
parasitic tread chunking for a significant number of existing light 
vehicle tires, particularly some deep tread, winter type snow tires and 
light truck (LT) tires. Tread chunking is the result of the cumulative 
affect of laboratory road-wheel curvature and test conditions, and is 
not indicative of real-world performance for these tire types. Tires on 
the road do not fail because of this type of tread chunking. Because of 
laboratory induced chunking some of the best performing snow tires and 
LT tires will have to be redesigned solely to pass the new endurance 
and low-pressure tests and may not perform as well for their primary 
function. Contrary to the intent of Congress and the TREAD Act, these 
design changes will not improve but rather will reduce snow traction as 
well as on- and off-road traction performance. RMA has recommended a 
series of alternatives to the agency to exempt chunking as a failure 
mode for the new testing regime. RMA urges the agency to accept one of 
these alternatives.

Early Warning Reporting
    The final rule for light vehicle tires, motor vehicles, child 
seats, and motor vehicles parts was announced on July 10, 2002. The 
rule requires the tire industry to report claims of injuries and 
fatalities, lawsuits, warranty adjustments, property damage claims, and 
consumer advisories and campaigns to NHTSA on a quarterly basis for all 
tires with an annual U.S. production exceeding 15,000. The first 
quarterly report was filed on December 1, 2003 for the third quarter of 
2003 with a one-time historical report filed on January 15, 2004. The 
quarterly report for the fourth quarter of 2003 was filed on March 1, 
2004. This data must be recognized as early warning data and not 
substantiated root cause analysis. The reliability of this data is 
limited to early warning.

Tire Pressure Reserve
    NHTSA stated in the notice accompanying the final tire pressure 
monitoring rule, ``(m)any vehicles have significantly under-inflated 
tires, primarily because drivers infrequently check their vehicle's 
tire pressure.'' 67 Fed Reg. at 38713-38714. The agency also recognized 
that ``a significant majority of drivers would be less concerned, to 
either a great extent or very great extent, with routinely maintaining 
the pressure of their tires if their vehicle were equipped with a 
TPMS.'' 67 Fed. Reg. at 38706.
    The decision of the U.S. Court of Appeals for the 2nd Circuit in 
Public Citizen v. Norman Mineta vacated and remanded the rule for 
further consideration. RMA has asserted repeatedly that tires will take 
an indeterminate, but not indefinite, amount of abuse. The agency has 
failed to be guided by this basic tire engineering principle. Under-
inflation of tires and overloading of vehicles will have an effect on 
tire performance and may cause a tire to fail. If tire pressure 
monitoring systems cannot be designed to alert the driver when a 
vehicle is overloaded, NHTSA must ensure that tires are not under-
inflated.
    RMA petitioned NHTSA on July 22, 2002 to establish a pressure 
reserve based on the minimum pressure required to carry the vehicle 
maximum load and the activation pressure of the selected TPMS. A survey 
sponsored by RMA and presented to NHTSA found that the frequency of 
U.S. motorists checking tire pressure will likely drop by nearly 25 
percent in vehicles equipped with tire pressure monitoring systems. 
Even motorists who exhibit the most responsible tire pressure checking 
behavior--checking tire pressure at least once a month--would likely 
show a significant decline in tire maintenance.
    The RMA proposed solution to assure all in-service light vehicle 
tires, including spares, have sufficient pressure under all reasonable 
operating conditions, including at or near maximum load, is for NHTSA 
to require TPMS telltale activation before the tire load/pressure 
limits are exceeded. This can be accomplished in the following three 
ways, used either separately or in combination depending on individual 
vehicle circumstances: 1) raise the placard recommended tire inflation 
pressure, 2) increase the tire size, or 3) fit the vehicle with a more 
accurate TPMS device.
    The agency has not responded to this petition. RMA urges NHTSA to 
grant this petition forthwith so that all interested parties can 
register their views with the agency.

                 ENFORCEMENT, COMPLIANCE, AND AUDITING

    In the TREAD Act, Congress required NHTSA and the industry to work 
harder and faster to promote motor vehicle safety. These efforts will 
not be completely effective unless compliance can be insured. A 
complete enforcement, compliance, and auditing program are necessary in 
order to ensure that the TREAD Act will work. The 2003 Tire Guide 
indicates over 80 manufacturers of passenger car tires alone. Many of 
these are private brand labels of major manufacturers of tires already 
in compliance with NHTSA regulations. However, without a vigorous 
enforcement, compliance, and auditing program, NHTSA will not be able 
to ensure that all of the manufacturers comply with the federal law.
    RMA urges Congress to set aside sufficient funding for compliance 
and auditing work on early warning reporting and tire testing. The 
agency has begun compliance work on early warning reporting by sending 
out 8,000 letters to manufacturers that did not file early warning 
reports for the third quarter of 2003. However, NHTSA needs sufficient 
resources to follow up with non-filers. As more and more tires are 
manufactured overseas by manufacturers without a significant U.S. 
presence, and imported into the United States, this may require 
coordination with Customs and other governmental agencies. These 
efforts will ensure a level marketplace and compliance with the TREAD 
requirements.
    The highway tire test standards in the United States allow the tire 
manufacturer to certify compliance with the regulation by stamping DOT 
on the tire. This system works well. However, this system depends on a 
vigilant audit and testing system. Funding must be established for this 
effort. RMA would welcome the opportunity to work with this Committee 
and NHTSA to establish an appropriate and cost-effective program of 
enforcement and auditing.

                            NEW INITIATIVES

    During consideration of NHTSA reauthorization, the Senate included 
a number of mandated rulemakings pertaining to tire testing. Included 
are mandates for new safety performance criteria for strength and road 
hazard protection, bead unseating, and aging. In addition, the 
legislation would require the agency to reconsider the use of 
shearography analysis for regulatory compliance. RMA does not support 
the tire related provisions in the Senate bill.
    Tire manufacturers, automobile manufacturers, and NHTSA are 
currently working on tire age endurance testing method. A regulation 
will follow and a Congressional mandate is not necessary.
    Current light vehicle tire testing requirements contain strength 
and bead unseating tests. These requirements were designed for bias ply 
tires and do not provide any assistance in analyzing a radial tire's 
durability. Although NHTSA attempted to establish new testing regimes 
for strength and bead unseating in the new testing requirements, these 
proposed tests were not repeatable or cost effective, thereby making 
them inappropriate test requirements. In the final rule NHTSA decided 
to postpone implementation of these proposals. The high speed, 
endurance, and low pressure tests required under FMVSS 139 provide 
sufficient and appropriate test requirements for today's radial tires. 
New strength or bead unseating tests will not assist the agency or the 
public in assessing radial tire performance.

Accelerated Tire Age Endurance
    Congress explicitly stated the need for some type of aging test on 
light vehicle tires in the TREAD Act. RMA supports this requirement but 
does not believe a new Congressional mandate is necessary. An 
accelerated tire age test does not currently exist and there is no 
industry-wide recommended practice for accelerating the aging of tires. 
Under the Final Rule for Federal Motor Vehicle Safety Standard Part 139 
(``FMVSS 139''), the National Highway Traffic Safety Administration 
(``NHTSA'') decided to defer the development of an aging test for 
approximately two years. Fed. Reg., Vol. 68 No. 123, at p. 38139. In 
developing the test, the agency will consider recommendations pursuant 
to refining the static and dynamic components of the test. 
Concurrently, NHTSA will assess the performance of test tires and tires 
in the field to assure that the test and field data correlate.
    The American Society for Testing and Materials (`ASTM'') 
International Committee F09 on Tires has spent the past year developing 
an accelerated aging design of experiment (``DOE''). The task group is 
made up of various representatives from tire and automotive 
manufacturers and test laboratories. Also, NHTSA staff has attended 
task group meetings as observers. The ultimate objective of the ASTM 
task group is to develop a scientifically valid, short duration tire 
aging endurance test standard, which correlates to field behavior, for 
light vehicle tires. The test standard development is broken into two 
projects: 1) laboratory accelerated aging DOE and 2) validation of the 
DOE. Data from real-world aged tires will be used to establish 
correlation with laboratory aging characteristics. Care will be taken 
to avoid laboratory-induced failure characteristics, such as road-wheel 
induced tread chunking, which does not occur in real-world driving 
conditions.
    Ultimately this activity, which will include static and dynamic 
test components, will result in an industry-wide recommended test 
standard for evaluating tire age and can serve as a common means of 
evaluation by tire manufacturers, vehicle manufacturers and testing 
organizations. The ASTM F09 Committee also plans to formally submit the 
resulting test standard and pertinent data to NHTSA for consideration 
in defining an aged tire standard upgrade to FMVSS 139. NHTSA has 
indicated publicly that they are pleased with the cooperative effort 
between government and industry on developing this test method. The 
tire industry fully supports the efforts of the ASTM task group on 
aging. RMA has pledged considerable funding so that the first phase of 
the DOE project can commence very shortly. It is anticipated that the 
work of ASTM will be completed by August of 2005.

Tire Service Life for Light Vehicle Tires
    Tires are composed of various types of material and rubber 
compounds, which have performance properties essential to the proper 
functionality of a tire as it relates to its specified application. The 
serviceability of a tire over time is a function of the storage and 
service conditions (load, speed, inflation pressure, road hazard 
injury, environmental exposure, etc.) to which a tire is subjected 
throughout its lifetime. Furthermore, there are several characteristics 
that, if present, are cause for service removal such as \2/32\ of an 
inch or less tread depth, non-repairable road hazard injuries, signs of 
damage (cuts, cracks, bulges), or signs of abuse (underinflation, 
overloading, etc.) Since service conditions vary widely, accurately 
predicting the serviceable life of a tire in advance is not possible 
simply based on its calendar age. The same reasoning applies to predict 
the service life of an automobile that is subject to varying service 
conditions.
    The tire industry has long supported the consumers' role in the 
regular care and maintenance of their tires. The monthly maintenance 
inspection for proper inflation pressure and tread wear is supplemented 
by recurring rotation, balancing and alignment services. Periodically, 
the condition of a tire should be assessed to determine if there are 
any tactile, or visual signs that replacement is necessary.
    The industry is currently engaged in dialogue with our counterparts 
in Europe and Asia on the subject of tire service life for light 
vehicle tires. Our hope is to achieve a global tire industry advisory 
regarding tire service life within the next few months.

Rolling Resistance
    The term ``rolling resistance'' refers to the force generated by 
tires that hinders the forward movement of a vehicle. The rolling 
resistance of a tire is influenced by many factors including tire 
inflation pressure, load and speed of the vehicle, tire condition, road 
conditions, and tire design. Lower rolling resistance is associated 
with higher fuel savings although any fuel saving is dependent on many 
factors.
    According to the federal government, only about 15 percent of the 
energy in the fuel that goes into a car's gas tank is used to move a 
car down the road or for other components, like power steering. The 
largest cost to fuel energy, 62 percent, is lost to engine friction, 
and other related engine losses. Just idling at stop lights or in heavy 
traffic, loses 17 percent. In contrast, just over four percent is lost 
to rolling resistance.
    Not unlike many consumer products, tires cannot be all things to 
all people. Design trends illustrate that when a tire is produced to 
maximize lower rolling resistance, the performance of wet and dry 
traction increases. When a tire is designed to maximize traction, 
optimal rolling resistance goes down. Tread wear is reduced when 
rolling resistance is reduced. Simply put, there is a fundamental 
relationship between rolling resistance, traction, and tread wear. One 
characteristic cannot be maximized without affecting the others.
    Great strides have been made in rolling resistance. However, there 
is no one test to measure rolling resistance performance. Therefore, 
there is a lack of collective data regarding rolling resistance on 
replacement tires and its impact on vehicle fuel efficiency. This does 
not suggest that low rolling resistance does not exist in the 
replacement tire market, it only implies that the exact measurements 
and calibration of the replacement tire market is not industry specific 
and varies from company to company. The data variations in the 
replacement tire market simply reveal that no standard, industry-wide 
information exists.
    As the National Academy of Sciences recognized in the 2003 report 
Effectiveness and Impact of Corporate Average Fuel Economy (CAFE) 
Standards, ``Continued advances in tire and wheel technologies are 
directed toward reducing rolling resistance without compromising 
handling, comfort, or braking. Improvements of about 1 to 1.5 percent 
are considered possible. The impacts on performance, comfort, 
durability, and safety must be evaluated, however.'' NAS at p. 39.
    Congress required the Secretary of Transportation through the 
National Academy of Sciences to develop and perform a national tire 
fuel efficiency study and literature review to consider the 
relationship that low rolling resistance replacement tires designed for 
use on passenger cars and light trucks have on fuel consumption and 
tire wear. However, Congress did not provide additional funding for 
this effort. RMA urges Congress to add $500,000 to the Transportation, 
Treasury and Independent Agencies FY 2005 appropriations for this 
study.

                               CONCLUSION

    NHTSA has met many of the challenges it faced with the passage of 
the TREAD Act. Now is the time for Congress to provide clear guidance 
to the agency and the industry for completion of the tasks and for the 
next steps. With this guidance the agency will need sufficient 
resources to complete their tasks. RMA looks forward to working with 
this committee and NHTSA on these issues to promote safety.

    Mr. Stearns. Thank you.
    Mr. Strassberger.

                STATEMENT OF ROBERT STRASSBERGER

    Mr. Strassberger. Thank you, Mr. Chairman. Today we can be 
proud that consumers are benefiting from the greatest array of 
vehicle safety features in history in stark contrast to 40 
years ago when the Safety Act was first passed. Consumers care 
more about safety and there now exists a tremendous market 
demand for ever safer vehicles.
    We've already heard this morning my favorite J.D. Powers 
statistic, that 9 out of 10 vehicles or 9 out of 10 features 
most desired by consumers in their next new vehicle are 
designed to enhance safety. But it's not just a statistic. 
Manufacturers are responding to this increased demand across 
their entire product lines. For example, among 2004 models, 99 
percent are available with antilock breaks; 74 percent are 
equipped with safety belt pretensioners; 57 percent are 
equipped with rear center lap shoulder belts; 52 percent are 
available with side airbags with head protection; and 46 
percent are available with electronic stability control. These 
safety devices and others will continue to spread through the 
new vehicle fleet and none of these features are required by 
regulation.
    Auto makers are also looking to the future. Last year, the 
NHTSA Administrator challenged us to address the crash 
compatibility issue quickly and we did. Alliance members have 
already begun to implement a multi-phase plan for enhancing the 
crash compatibility of passenger cars and light trucks. This 
plan developed by an international group of safety experts will 
lead to significant improvements in vehicle occupant 
protection. It will be fully implemented by 2009.
    But despite these efforts, in 2002, 59 percent of vehicle 
occupants killed were not restrained by safety belts or a child 
safety seat. The single most effective way to reduce traffic 
fatalities and serious injuries immediately is to increase the 
use of safety belts and child safety seats. Primary enforcement 
of safety belt laws results in more people buckling up. States 
with primary laws have average usage rates approximately 11 
percentage points higher than States having secondary 
enforcement laws.
    Currently, only 20 States and the District of Columbia have 
primary laws. The Administration has requested significant 
funding for incentives to encourage States to pass primary 
laws. Congress should approve this proposal.
    Impaired driving is also a significant safety problem 
accounting for 41 percent of all fatalities in 2002 and one 
that is getting worse. While there was progress in the last two 
decades, impaired driving is once again on the rise. Repeat 
offenders are disproportionately involved in fatal crashes. 
Congress should provide funding beyond the level proposed by 
the Administration to enable States to address this deadly 
problem.
    The Alliance believes that if we are to continue to make 
progress in reducing traffic fatalities and injuries, it is 
critical that future public policy decisions be data driven, 
supported by scientifically sound evidence and demonstrate the 
potential for effective safety benefits without adverse 
consequences.
    NHTSA's two key crash data base programs, NASS and FARS, 
provide crucial information to safety planners and vehicle 
design engineers. The NASS program, in particular, has been 
chronically under funded. Additional funds for NASS should be 
provided.
    In addition to adequate funding for NASS and FARS, the 
Alliance believes it is important for NHTSA to have the 
resources necessary to conduct a comprehensive study of crash 
causation, similar to the multi-year Indiana Tri-Level Study 
that was completed 25 years ago. Funding for this program 
should continue.
    Now let me turn to the Senate passed bill for just a 
moment. The NHTSA reauthorization provisions in this bill would 
mandate more than 10 new major rulemakings that must be issued 
over the next 2 to 4 years. Each rulemaking must comply with a 
rigid, predetermined schedule for the NPRM and must end in a 
final rule. The Alliance strongly opposes the overly 
prescriptive mandated rulemakings. They will override the 
safety priorities recently established by NHTSA through an open 
public process. They will delay or interfere with on-going 
safety initiatives being pursued by auto makers. They prejudge 
the outcome of the rulemaking process and finally, they set 
unrealistic deadlines both in terms of the Safety Act's 
requirements for objective, practicable standards that meet the 
need for motor vehicle safety and in terms of an auto makers 
ability to have adequate lead time to redesign vehicles to meet 
the new requirements.
    We don't oppose open, transparent rulemakings. We do oppose 
rulemakings where the opportunity for public comment is 
rendered meaningless by pre-ordained conclusions.
    Mr. Chairman, that completes my statement.
    [The prepared statement of Robert Strassburger follows:]

 Prepared Statement of Robert Strassburger, Vice President of Safety, 
                  Alliance of Automobile Manufacturers

    Thank you Mr. Chairman. My name is Robert Strassburger and I am 
Vice President of Safety at the Alliance of Automobile Manufacturers. I 
am pleased to be afforded the opportunity to offer the views of the 
Alliance at this important hearing. The Alliance of Automobile 
Manufacturers (Alliance) is a trade association of nine car and light 
truck manufacturers including BMW Group, DaimlerChrysler, Ford Motor 
Company, General Motors, Mazda, Mitsubishi Motors, Porsche, Toyota and 
Volkswagen. One out of every 10 jobs in the U.S. is dependent on the 
automotive industry.

 SIGNIFICANT PROGRESS HAS BEEN MADE TO REDUCE FATALITIES AND INJURIES 
           FROM MOTOR VEHICLE CRASHES, BUT CHALLENGES REMAIN

    Over the past 20 years, significant progress has been made in 
reducing the traffic fatality rate. In 1981, the number of fatalities 
per 100 million vehicle miles traveled stood at 3.17. By 2002, this 
rate had been driven down by 52 percent to 1.51 fatalities per 100 
million vehicle miles traveled. The level of competitiveness among 
automakers, which key industry observers have described as ``brutal,'' 
has helped to accelerate the introduction of safety features ahead of 
regulation further aiding in the progress made.
    Product safety is now an area in which manufacturers compete and 
seek competitive advantage. Safety ``sells'' and manufacturers are 
leveraging their safety performance and contenting in efforts to 
distinguish their products from competitors. According to the J. D. 
Power and Associates 2002 U.S. Automotive Emerging Technologies study, 
nine of the top 10 features most desired by consumers in their next new 
vehicle are designed to enhance vehicle or occupant safety and 
manufacturers are responding to this increased consumer demand for 
safety across their entire product line.
    Despite the progress made, however, data show that 42,815 people 
lost their lives on U.S. highways in 2002 and almost 3 million were 
injured. Tragically, 59 percent of vehicle occupants killed in crashes 
were not restrained by safety belts or child safety seats. Alcohol-
related fatalities increased for the third consecutive year and were a 
factor in 42 percent of all fatalities. This is unacceptable. As a 
nation, we simply must do better.
    The Alliance and our members are constantly striving to enhance 
motor vehicle safety. And, we continue to make progress. Each new model 
year brings safety improvements in vehicles of all sizes and types. 
But, as the General Accounting Office reaffirmed, vehicle factors 
contribute less often to crashes and their subsequent injuries than do 
human or roadway environmental factors <SUP>1</SUP>. We will never 
fully realize the potential benefits of vehicle safety technologies 
until we get vehicle occupants properly restrained and impaired drivers 
off the road.
---------------------------------------------------------------------------
    \1\ ``Highway Safety--Research Continues on a Variety of Factors 
That Contribute to Motor Vehicle Crashes.'' United States General 
Accounting Office, GAO-03-436, March 2003.
---------------------------------------------------------------------------
INCREASED SAFETY BELT USAGE AND PREVENTING IMPAIRED DRIVING ARE NEEDED 
           TODAY TO PREVENT NEEDLESS FATALITIES AND INJURIES

    The single most effective way to reduce traffic fatalities and 
serious injuries in the short term is to increase the use of occupant 
restraint systems, safety belts and child safety seats. If the United 
States could increase its safety belt usage rate from the current 79 
percent to 92 percent (the same usage rate as in Canada) it is 
estimated that another 3,250 lives would be saved and countless 
injuries would be avoided. Members of the Alliance have a long and 
proud record in supporting increased safety belt usage beginning in the 
mid 1980's with funding for Traffic Safety Now, a safety belt advocacy 
group lobbying state governments for the passage of mandatory safety 
belt use laws, to participation in and funding of the Air Bag & Seat 
Belt Safety Campaign (Campaign). The Campaign is housed in the National 
Safety Council and principally funded by the voluntary contributions of 
motor vehicle manufacturers. The effectiveness of the Campaign is 
reflected in the increase in belt use from 61 percent, when the 
Campaign was formed in 1996, to today, with belt use now at 79 percent.
    This 18-percentage point increase in belt use is largely due to 
high visibility enforcement Mobilizations coordinated by the Campaign 
in cooperation with The National Highway Traffic Safety Administration 
(NHTSA), state highway safety offices and law enforcement agencies in 
all fifty states. Recently, the largest Mobilization ever was conducted 
with more than 12,500 law enforcement agencies providing stepped up 
enforcement and close to $25 million in paid advertising to augment the 
enforcement effort. Funding for the enforcement ads, both national and 
state, comes from funds earmarked by Congress for this purpose. High 
visibility enforcement of safety belt laws has been extensively tested 
in more than twenty states. It has consistently achieved dramatic 
increases in safety belt use. The Administration has requested $20 
million for the paid advertising that has proven to be a vital 
component of this effective program; we believe that it is important 
for Congress to continue to provide this funding.
    Primary enforcement safety belt use laws are significantly 
correlated with higher safety belt usage levels. States with primary 
enforcement laws have average safety belt usage rates approximately 11 
percentage points higher than states having secondary enforcement laws. 
Currently, only 20 states and the District of Columbia have primary 
safety belt laws. While the Campaign, through its lobbying efforts, has 
contributed to getting primary enforcement legislation enacted in 
several states, progress has been difficult to achieve. The 
Administration has requested significant funding for incentives to 
states passing primary enforcement laws. This proposal has merit and 
should be approved by Congress.
    Impaired driving is also a significant highway safety problem and 
one that is getting worse. While substantial progress in reducing 
impaired driving was made in the last two decades, impaired driving is 
once again on the rise. Repeat offenders are disproportionately 
involved in fatal crashes. Congress should provide funding beyond the 
level proposed by the Administration to enable states to address this 
deadly problem.
    In addition to the priority areas of increasing safety belt use and 
reducing impaired driving, Congress needs to provide adequate funding 
for the Section 402 State and Community Highway Safety Program.

    ALLIANCE MEMBERS ARE AGGRESSIVELY PURSUING SAFETY ADVANCEMENTS, 
                     COLLECTIVELY AND INDIVIDUALLY

    Advancing motor vehicle safety remains a significant public health 
challenge--one that automakers are addressing daily, both individually 
and collectively. Alliance members make huge investments in safer 
vehicle design and technology. Manufacturers not only meet, but exceed 
motor vehicle safety standards in every global market in which vehicles 
are sold. Many safety features currently available on motor vehicles in 
the U.S. were implemented ahead of regulation. A partial list of 
voluntarily installed advanced safety devices without or prior to 
regulation is attached. See Attachment 1.
    The Alliance is pursuing a number of initiatives to enhance safety. 
We have redoubled and unified our activities to collectively address 
light truck-to-car collision compatibility and vehicle rollover. On 
February 11-12, 2003, the Alliance and the Insurance Institute for 
Highway Safety (IIHS) sponsored an international meeting on enhancing 
vehicle-to-vehicle crash compatibility. On February 13, 2003, the 
Alliance and IIHS sent NHTSA Administrator Runge a letter summarizing 
the results of this meeting, and indicating the industry planned to 
develop recommendations that auto companies could take to enhance crash 
compatibility.
    Ten months later, on December 2, 2003, we delivered to NHTSA a 
multi-phase plan for enhancing the crash compatibility of passenger 
cars and light trucks. This plan was developed by an international 
group of safety experts. At the same time, we also delivered to NHTSA a 
commitment made on behalf of the world's automakers to begin to design 
cars and trucks according to the performance criteria specified in the 
group of experts' plan. This commitment will lead to significant 
improvements in the protection afforded to occupants in crashes. It is 
the most comprehensive voluntary safety initiative ever undertaken by 
automakers.
    For the North American market, front-to-side crashes where the 
striking vehicle is a light truck or SUV, represent a significant 
compatibility challenge. We are placing a high priority on enhancing 
the protection of occupants inside vehicles struck in the side by, 
among other things enhancing head protection of occupants in struck 
vehicles. We expect our efforts to lead to measures that auto 
manufacturers can incorporate in their vehicles. We are working on 
efforts intended to aid the development of evaluation criteria that 
will be established to drive improvements in car side structures to 
reduce side impact intrusion and provide for additional absorption of 
crash energy.
    With regard to front-to-front crashes, our initial plan focuses on 
specific recommendations to enhance alignment of front-end energy 
absorbing structures of vehicles. Manufacturers have been working to 
improve this architectural feature by modifying truck frames. The 
voluntary standard will govern structural alignment for the entire 
light-duty vehicle fleet and provide for an industry wide solution. In 
addition, through research to be undertaken, we expect to develop 
sophisticated test procedures for assessing the forces, and the 
distribution of these forces, which light trucks, may impose on cars in 
frontal crashes. These procedures should lead to more comprehensive 
approaches to measuring and controlling these forces. We also expect to 
develop state-of-the-art test procedures for measuring and controlling 
the frontal stiffness characteristics of passenger cars and light 
trucks.
    These efforts to develop voluntary standards for crash 
compatibility and rollover, when combined with an industry commitment 
to design vehicles in accordance with them, is a model for voluntary 
industry action. These programs are proven to be a very effective way 
to bring significant safety improvements into the fleet faster than has 
been historically possible through regulation. The voluntary standards 
process also has the flexibility to produce rapid modifications should 
the need arise.
    The best way to illustrate the benefits for such an approach is to 
examine the recent development of the Recommended Procedures for 
Evaluating Occupant Injury Risk From Deploying Side Airbags finalized 
in August 2000. In response to concerns about potential injury risk to 
out-of-position (OOP) women and children from deploying side airbags, 
the Alliance, the Association of International Automobile Manufacturers 
(AIAM), the Automotive Occupant Restraints Council (AORC), and IIHS 
used a joint working group to develop test procedures with injury 
criteria and limits to ensure that the risk of injury to OOP occupants 
from deploying side airbags would be very limited.
    After an intensive effort, the working group developed a draft set 
of procedures. This draft was presented in a public meeting on June 22, 
2000. Comments were collected and the finalized procedures were 
presented to NHTSA on August 8, 2000. Now, just 2 model years later, 60 
percent of Alliance member company side airbags have been designed in 
accordance with the August 8, 2000 Recommended Procedures. More 
importantly, the field performance of side air bags remains positive.
    These Procedures and public commitment were also used by Transport 
Canada as the basis for a Memorandum of Understanding (MOU) between 
automobile manufacturers and the Canadian government.
    Another Alliance initiative is assessing opportunities, which may 
further reduce the frequency and consequences of rollover. Rollovers 
represent a significant safety challenge that warrants attention and 
action. In releasing the preliminary statistics for 2002, NHTSA stated 
that, ``Fatalities in rollover crashes involving sport utility vehicles 
and pickup trucks accounted for 53 percent of the increase in traffic 
deaths.'' In addition, although not mentioned by NHTSA, an increase in 
passenger car rollover fatalities accounted for 25 percent of the 
increase in traffic fatalities. Indeed, rollover fatalities occurring 
with passenger cars, SUVs, and pickups all contributed roughly equally 
to the increase observed. In fact, the increase in number of passenger 
car rollover fatalities was nearly 8 times higher than might otherwise 
had been forecasted from the growth in the number of registered 
passenger cars in 2002, over 2001.
    Consequently, Alliance efforts to reduce the frequency and 
consequences of rollover involve passenger cars as well as SUVs, vans, 
and pickup trucks. Our efforts include--developing a handling test 
procedure or recommended practice that will focus on an assessment of 
the performance of electronic stability control systems and other 
advanced handling enhancement devices. A typical rollover is one in 
which the driver becomes inattentive or distracted, loses control of 
the vehicle, and then strikes something that trips the vehicle, causing 
it to roll. Electronic stability control systems are designed to help 
drivers to keep out of trouble in the first place. However, should a 
rollover occur, the Alliance is assessing opportunities to enhance 
rollover occupant protection. We are assessing the current state of 
knowledge on injury causation during rollover crashes, and we are also 
working to determine the feasibility of developing test procedures to 
assess the performance of countermeasures designed to further reduce 
the risk of occupant ejection in rollover crashes.
    Alliance members are also individually pursuing initiatives to 
enhance motor vehicle safety. One such initiative that has received 
widespread support is the installation of vehicle-based technologies to 
encourage safety belt usage. Preliminary research on one system 
deployed in the United States by one Alliance member found a 
statistically significant 7 percent increase in safety belt use for 
drivers of vehicles equipped with that system compared with drivers of 
unequipped vehicles. NHTSA estimates that a single percentage point 
increase in safety belt use would result in an estimated 250 lives 
saved per year. Beginning in model year 2004, all members of the 
Alliance began deploying various vehicle-based technologies to increase 
safety belt use. The rollout of these technologies will continue over 
the next few model years. These actions--in addition to saving lives--
will provide valuable field experience concerning the absolute and 
differential effectiveness and acceptability of a range of safety belt 
use inducing systems. The experience gained will ultimately lead to 
future systems with enhanced effectiveness.

  COMPREHENSIVE AND CURRENT DATA IS NECESSARY TO MAKE INSIGHTFUL AND 
                     SOUND PUBLIC POLICY DECISIONS

    NHTSA's two key traffic crash database programs, the National 
Automotive Sampling System (NASS) and the Fatality Analysis Reporting 
System (FARS) provide crucial information to safety planners and 
vehicle design engineers. The NASS program, in particular, has been 
chronically under-funded. On October 17, 2002, the Alliance and various 
other safety groups sent a letter to NHTSA Administrator Dr. Jeffrey 
Runge outlining the importance of sound crash and injury data. The 
Alliance emphasized the need for additional funds for NASS in order to 
evaluate the effectiveness of both behavioral and vehicular safety 
measures. See Attachment 2.
    The Administration has proposed substantial funding to upgrade 
state traffic records systems. Improved state record systems can help 
improve the quality of FARS data and assist states in establishing 
safety program priorities. The Alliance strongly supports upgrading 
state and federal crash data systems and urges Congress to provide 
appropriate levels of funding for them. The Alliance believes this 
funding is critical because future NHTSA rulemakings should be data-
driven, supported by scientifically sound evidence, and demonstrate the 
potential for effective safety benefits without undesired side effects.
    The Alliance also sponsors a significant amount of safety research 
that is shared with the safety community. The Alliance is sponsoring a 
program to collect-real world crash data on the performance of 
depowered and advanced air bags at three sites around the U.S. (Dade 
County, Florida, Dallas County, Texas, and Chilton, Coosa, St. Clair, 
Talledega, and Shelby Counties in Alabama). This program adds valuable 
information about air bag performance to the extensive crash data 
already being collected by NHTSA through NASS. The Alliance is 
committed to funding this program that will run through 2005. The 
current Alliance commitment for the advanced air bag research is $4.5 
million over 4 years. The Alliance project will observe all the NASS 
data collection protocols so that the Alliance funded cases can be 
compared with, and evaluated consistently with, other cases in the NASS 
dataset.
    In addition to adequate funding for NASS, the Alliance believes it 
important for NHTSA to have the resources necessary to conduct a 
comprehensive study of crash causation similar to the multi year 
``Indiana Tri-Level Study'' that was completed 25 years ago. 
Researchers at Indiana University Bloomington's Institute for Research 
in Public Safety conducted the Tri-Level Study of the Causes of Traffic 
Accidents from 1972 through 1977. According to NHTSA officials, the 
Indiana Tri-Level Study has been the only study in the last 30 years to 
collect in-depth, on-scene crash causation data. NHTSA relies on it 
today because other NHTSA data is collected from police crash reports 
or collected days or weeks after the crash, making it difficult to 
obtain causation data. Significant advancements in vehicle safety 
technology and design have occurred since then, making this study 
rather obsolete as a baseline on which to base substantial regulatory 
decisions.
    Therefore, the Alliance strongly supported the National Highway 
Traffic Safety Administration's FY 2004 budget request for $7 million 
and supports the FY 2005 budget request for $10.2 million, so that 
NHTSA can effectively update their crash causation data. An updated 
study would help guide and enlighten public policy aimed at reducing 
the frequency of traffic crashes, injuries, and fatalities. This is a 
crucial step toward improving the quality of data available to inform 
sound regulatory decision-making at NHTSA.

   THE NHTSA MANDATED RULEMAKINGS IN THE SENATE PASSED HIGHWAY BILL 
                    PREJUDGE THE RULEMAKING PROCESS

    The NHTSA reauthorization provisions in the Senate passed bill 
would mandate that more than 10 new major motor vehicle safety 
rulemakings would have to be enacted over the next 2-4 years. Each 
rulemaking must comply with a rigid, predetermined schedule for the 
NPRM and promulgation of the final rule. Most of the rules would cover 
all vehicles up to 10,000 pounds GVWR (which includes a large number of 
incomplete vehicles).
    The Alliance strongly opposes the mandated rulemakings in the 
Senate bill. While we support and participate in the rulemaking 
process, we firmly believe that any final rule, if appropriate, should 
be based on sound data, public comment, consideration of economic 
consequences and provide appropriate lead-time. By requiring that rules 
must be issued on specific subjects, regardless of the public 
rulemaking record on that subject, the Senate bill's approach to 
improving safety could actually result in less safety by forcing NHTSA 
and the industry to forego rulemaking and products decisions on higher 
priority items.
    In addition to prejudging the outcome of the rulemaking process, 
the Senate bill also sets unrealistic deadlines, both in terms of the 
Safety Act's requirement that NHTSA promulgate objective and 
practicable standards that meet the need for motor vehicle safety and 
vehicle manufacturers' ability to redesign vehicles to meet the new 
requirements. The bill also provides little flexibility for problems or 
conflicts in setting new standards covering many aspects of future 
vehicle designs that are typically encountered in rulemaking.
    By mandating that new and far-reaching rules be issued regardless 
of the public record in the rulemaking proceeding and independent of 
data and analysis that identify future, as compared to prior, safety 
problems, the Senate bill would override the safety priorities that 
NHTSA has developed through an elaborate public process as well as the 
priorities of manufacturers in bringing new safety technology to the 
market as quickly as possible. And, by mandating that rules be issued 
regardless of the public record in the rulemaking, the potential for 
unintended consequences--which NHTSA itself has identified in testimony 
on the Senate bill increases.
    The complexity of safety rulemakings requires that careful 
attention be accorded to the inherent tradeoffs associated with 
regulations. In the past, we have seen tradeoffs among adult high-speed 
protection in frontal crashes and associated harm to children in low-
speed crashes. The March 6, 2004 Status Report, by the IIHS notes that 
the 1997 rule issued by NHTSA that allowed manufacturers to produce 
``depowered'' air bags was the right decision then and still is now. In 
designing occupant restraint systems, manufacturers must carefully 
balance high-speed and lower-speed protection, protection for belted 
vs. unbelted occupants, and protection for large adults and smaller 
adults and children. All involve safety tradeoffs. The subjects in the 
Senate bill require tradeoffs between what is known as ``self-
protection'' vs. ``partner protection'' (i.e., protection in the 
subject vehicle vs. the potential harm posed by the design of that 
vehicle when it crashes into other vehicles), whether stronger roofs 
might result in a higher rate of rollover because of added structure to 
the top of the vehicle, as well as whether window treatments to reduce 
ejections for unbelted occupants could lead to increased head and neck 
injuries to belted occupants. The ``expert'' agency established by the 
Congress to address these issues--NHTSA--should make regulatory 
decisions based on a sound public record, and not based on arbitrary 
deadlines.

THE POTENTIAL BENEFITS OF VEHICLE SAFETY TECHNOLOGIES CAN NOT BE FULLY 
 REALIZED UNTIL VEHICLE OCCUPANTS ARE PROPERLY RESTRAINED AND IMPAIRED 
                        DRIVERS ARE OFF THE ROAD

    Motor vehicle safety is a shared responsibility among government, 
consumers and vehicle manufacturers. Auto manufacturers are more 
committed than ever to developing advanced safety technologies to 
reduce fatalities and injuries resulting from motor vehicle crashes. 
But as a nation, we will never fully realize the potential benefits of 
vehicle safety technologies until we get vehicle occupants properly 
restrained and impaired drivers off the road. In this regard, Congress 
has a unique role to play by:

 Enacting incentives for states that pass primary enforcement safety 
        belt laws and ensuring high visibility enforcement of these 
        laws by providing adequate funding for paid advertising and 
        Section 402 State and Community Highway Safety Programs;
 Providing funding beyond the level proposed to address the deadly 
        problem of impaired driving; and
 Authorizing adequate funding for a modern, comprehensive study of 
        crash causation and to update state and federal crash data 
        systems.
                                 ______
                                 
                              ATTACHMENT 1

                  VOLUNTARILY INSTALLED SAFETY DEVICES

    A partial list of voluntarily installed advanced safety devices (w/
o or prior to regulation)
    Crash Avoidance Advances--Tire/suspension optimization; Automatic 
brake assist; Electronic stability controls to help drivers maintain 
vehicle control in emergency maneuvers; Anti-lock brakes; Traction 
control; Obstacle warning indicators; Active body control; Intelligent 
cruise control; Convenience controls on steering wheel to minimize 
driver distraction; Automatic obstacle detection for sliding doors on 
minivans; Head-up displays; Child-proof door locks; and Automatic 
speed-sensitive door locks.
    Vision--Automatic dimming inside mirrors to reduce headlamp glare; 
Heated exterior mirrors for quick deicing; Rear defrost systems, 
wipers; Headlamp wiper/washers; Automatic-on headlamps; Automatic-on 
headlamps when wipers are used; Infinitely variable wiper (only 2 req'd 
by regulation); Night vision enhancements; Advanced lighting systems; 
and Right side mirrors.
    Crashworthiness Advances--Side air bags for chest protection; Side 
air bags for head protection that reduce ejection; Rollover triggered 
side/curtain air bags; Advanced air bags (e.g. dual stage inflators) 
several years in advance of regulatory requirements; Safety belt pre-
tensioners; Rear center seat lap/shoulder belts; Load-limiting safety 
belts to reduce chest injuries; Improved belt warning indicators; Rear 
seat head restraints; Integrated child seats; Anti-whiplash seats; and 
Breakaway mirrors for pedestrian protection.
    Post Crash--Automatic notification to emergency providers during 
air bag deployment.


                              ATTACHMENT 2
                                                   October 17, 2002
The Honorable Jeffrey W. Runge, M.D.
Administrator
National Highway Traffic Safety Administration
400 Seventh Street, S.W.
Washington, D.C. 20590

RE: National Automotive Sampling System: Increased Funding

    Dear Dr. Runge: Sound crash and injury data are critical components 
needed for advanced vehicle safety design and for both initiating and 
evaluating countermeasures for improving highway safety. The National 
Highway Traffic Safety Administration's (NHTSA) Fatality Analysis 
Reporting System provides comprehensive data on people dying in motor 
vehicle crashes throughout the United States. These data have enjoyed 
widespread use in the evaluation of many motor vehicle safety 
countermeasures and their effectiveness in reducing motor vehicle 
death. NHTSA's National Automotive Sampling System Crashworthiness Data 
System (NASS/CDS) is an essential resource that provides the agency, 
researchers, vehicle manufacturers--indeed the entire safety 
community--with a detailed crash and injury causation database suitable 
for identifying traffic safety issues, establishing priorities, 
assisting in the design of future countermeasures and for evaluating 
existing countermeasures.
    The NASS/CDS provides in-depth crash investigations of a 
representative sample of police-reported tow-away crashes throughout 
the United States, so data can be weighted to provide a nationwide 
estimate of crashes of all severities according to the severity of 
injuries. Furthermore, researchers can examine the detailed crash 
investigations in depth to learn about crash characteristics and injury 
causation focusing on subsets of the data. For example, such 
investigations have proven to be of critical importance in the 
understanding of airbag performance--the conditions under which airbags 
save lives, but also when they contribute to occupant injury.
    The application of sound science to improve traffic safety requires 
that real world data or field data be used wherever possible. The 
continuation of vehicle and highway safety improvements requires a 
solid factual basis. However, the essence of such investigations is 
timeliness. As the recent experience with frontal airbags has taught 
us, we need to understand as soon as possible how new vehicle 
technologies, such as airbags, are performing in the real world. And 
with new technologies being introduced at such a fast pace, it is now 
more important than ever to understand how these technologies are 
performing in the real world.
    The agency's NASS/CDS database is one of the most comprehensive 
databases in the world to look in depth at the causes of motor vehicle 
injury. However, we are concerned that the budget for NASS has not kept 
pace with either the agency's informational needs or inflation. The 
NASS program has been constrained by either flat or reduced funding at 
a time when technological developments (e.g., advanced frontal and side 
air bags, telematics) and occupant behavior (from increased seat belt 
use to booster seat installations) are changing. We believe it is 
important to ensure that NHTSA continues to have the ability to 
evaluate actual field performance on a national basis.
    Therefore, NASS must have the resources necessary to collect high-
quality, real-world data by conducting investigations at the full 
complement of sites that will provide statistically valid, nationally 
representative data on a timely basis. The NASS reorganization of the 
mid 1980's called for 36 Primary Sampling Units. Currently, NASS has 
the resources to conduct investigations at only 24 sites. The 
effectiveness of NASS has also been subject to inflationary increases 
in operating costs of about 3-5 percent per year, which have been 
offset by reducing field staff. This has resulted in fewer cases 
reported from the 24 sites.
    From the original projections of 7000 cases annually, NASS has been 
reduced to providing only about 4500 cases annually across the spectrum 
of crash types and severities. The result is that there are often too 
few cases of serious injury to make an informed decision about the 
sources and mechanisms of injury in motor vehicle crashes (for example, 
in side impacts, or in crashes involving children) without having to 
include data from many years of data collection. This blunts our 
ability to look at current issues in real time. We believe NASS should 
be funded at a level that will restore NASS to its design scope to 
ensure critical ``real-world'' data can be collected at a sufficient 
number of sites to produce the statistically valid, nationally 
representative sample originally intended. Initially, the NASS design 
called for 50 active sites.
    Thus, we believe it is critical that the proposed NHTSA fiscal year 
2004 budget include a request to fully fund NASS, so that our ability 
to evaluate the effectiveness of both behavioral and vehicular safety 
measures is enhanced. We stand ready to support you in this most 
important endeavor.
            Sincerely,
                    Josephine S. Cooper, President and CEO,
                         Alliance of Automobile Manufacturers, Inc.
                                 Phil Haseltine, President,
                            Automotive Coalition for Traffic Safety
                    Timothy C. MacCarthy, President and CEO
        Association of International Automobile Manufacturers, Inc.
                                  Yvonne McBride, President
                               Governors Highway Safety Association
                           Heather Paul, Executive Director
                                                 National Safe Kids
     Susan G. Pikrallidas, Vice President of Public Affairs
                                    American Automobile Association
             Charles A. Hurley, Transportation Safety Group
                                            National Safety Council
            Susan Ferguson, Senior Vice President, Research
                             Insurance Institute for Highway Safety

    Mr. Stearns. I thank the gentleman.
    Mr. Pittle, welcome.

                  STATEMENT OF R. DAVID PITTLE

    Mr. Pittle. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, good morning. My name is David 
Pittle. I'm Senior Vice President for Technical Policy at 
Consumers Union, the publisher of Consumer Reports. With me 
this morning is Sally Greenberg, CU's Senior Product Counsel 
here in Washington.
    Consumers Union greatly appreciates the opportunity to be 
here this morning to express our views on this reauthorization 
bill. Consumer Reports has been testing and rating cars since 
1936, the year our magazine was first published. We've always 
made safety a top priority in both our product tests and our 
published ratings. CU has a long history with speaking out on 
matters of auto safety and working with NHTSA and Congress to 
press for improvements on automobile safety, to identify safety 
priorities and to ensure that NHTSA is fulfilling the mandate 
on which so many consumers depend.
    To ensure the most effective reauthorization, we recommend 
that the House join the Senate in adopting safety provisions in 
S. 1072 which will first and foremost save lives and reduce 
injuries, bring about badly needed safety improvements on auto 
design and give NHTSA the mandate it needs to address serious 
safety problems that in some cases have languished within the 
Agency for many years.
    We've worked actively with Senators on both sides of the 
aisle to ensure that this is an effective bill and we look 
forward to doing the same here in the House of Representatives.
    The Department of Transportation's data has been discussed 
earlier and I won't repeat it. But this is the highest number 
of motor vehicle fatalities in over a decade, 2002. No other 
witnesses testifying before you this morning may paint the bill 
as too ambitious or too expensive or requiring too much 
research. We take serious issue with those characterizations.
    Dr. Runge himself said in a speech to the American Public 
Health Association, that there's a public health epidemic of 
highway death in this country and traffic crashes are the 
leading killer of children starting at age 2. This is what's 
killing our young people, killing our children and this is the 
third largest cause of deaths of potential life lost for all 
ages combined. And we agree with that assessment.
    The safety measures contained in S. 1072 will prevent 
thousands of deaths and injuries. Moreover, many of the issues 
addressed in the bill have been heard this morning; within 
NHTSA, sometimes for decades. NHTSA first adopted tire 
standards in 1970 and then lower side impact protection in the 
1970's. Seat belts have been required since 1968. And the means 
for getting people to use them have been studied forever.
    Roof crush has been under discussions since 1971 and the 
standard for door locks and occupant retention was adopted in 
1968, but technology has changed and injury patterns have 
changed. We desperately need improvements in these areas. In 
fact, the theme that comes through most profoundly as you read 
the safety provisions in S. 1072 is that this is a bill that is 
a serious effort to address the list of auto safety hazards 
that cost society thousands of lives each year. And as I've 
said, these problems have languished within NHTSA far too long 
and we need Congress to press the agency into action.
    This is not an extreme bill. Indeed, Senators McCain, 
Hollings, Snowe and DeWine each have championed safety 
provisions in this legislation and the bill passed the 
Republican Majority Senate Energy and Commerce Committee 
unanimously. Four years ago, this committee held extensive 
hearings on the Ford Firestone related fatalities and out of 
those hearings, Congress enacted the landmark auto safety 
legislation known as TREAD. And TREAD directed NHTSA to address 
many important safety issues that had been put off for too 
long. They mandated dynamic rollover testing for consumer 
information program, upgrading Federal tire standards, 
requiring tire pressure monitors and developing an early 
warning system to flag safety defects before they became 
crises.
    To NHTSA's credit, 4 years later, the agency has completed 
most of TREAD's ambitious list, though some rulemakings were 
unnecessarily weakened, but the major vehicle safety issues, 
SUV rollover, crash protection, roof crush, ejection and so on 
that actually caused those Ford Firestone deaths and injuries 
remain unaddressed. In short, there's much more to be done and 
S. 1072 tackles many of those issues head on.
    Our written statement contains the details of why we 
support the various provisions. I would like to move now to 
taking a somewhat larger view of these provisions. They attempt 
to treat the current auto safety problems as an integrated 
whole. Roof crush, for example, is related to ejection and 
rollover crashworthiness, glazing, roof strength, head airbags. 
They're all interdependent and therefore we believe that NHTSA 
needs to address them as a whole. Otherwise, we have a change 
here or a change there that might preclude a safety fix in 
another related hazard.
    S. 1072 directs NHTSA to take such a comprehensive 
approach.
    I'd like to end my remarks with one final thought which I 
shared with the Senate Commerce Committee as well. Stepping 
back and looking at the bigger picture, we seriously question 
the wisdom of NHTSA's reliance on industry to self-regulate by 
setting its own voluntary commitments on some of these critical 
and lifesaving issues. While we recognize some past benefits of 
voluntary programs, in this case, we believe it would be 
misguided and inappropriate and worse, not likely to bring 
about the level of change needed to reduce the hazards in a 
timely manner.
    Solving broad and serious safety problems is the 
fundamental reason why NHTSA exists in the first place. This is 
one of its core responsibilities. We all must be very cautious 
before we agree to let this key safety agency simply step aside 
and defer responsibility to the industry. NHTSA should act 
boldly to improve auto safety and do so in a manner that is 
accountable to the Congress, to the Courts and to consumers.
    Mr. Chairman, Dr. Runge and the NHTSA staff need from you 
and this committee a reasonable, but firm and unambiguous 
message about the importance of its consumer safety mission and 
your intention to vigorously oversee their progress. You did 
exactly that in the Ford Firestone safety crisis and it was a 
success. Lives were saved as a result of your decisive action. 
Here, in light of the serious on-going and rapidly increasing 
pattern of death and injury, we call upon you for action once 
again.
    We urge this committee to reject NHTSA's relying heavily on 
voluntary action by the industry. We urge you instead to direct 
NHTSA to step up to the plate and take the lead to act 
decisively and promptly to protect the public from these 
preventable risks.
    [The prepared statement of R. David Pittle follows:]

Prepared Statement of R. David Pittle, Senior Vice-President, Technical 
                        Policy, Consumers Union

    Members of the Subcommittee, Good Morning, my name is David Pittle, 
I am Senior Vice-President for Technical Policy at Consumers Union 
(CU), the publisher of Consumer Reports. With me this morning is Sally 
Greenberg, CU's Senior Product Safety Counsel here in Washington. 
Consumers Union greatly appreciates the opportunity to be with you here 
this morning to express our views on the reauthorization of the 
National Highway Traffic Safety Administration (NHTSA).
    Consumer Reports has been testing and rating cars since 1936, the 
year our magazine was first published. We have always made safety a top 
priority in our product ratings, and the safety of automobiles is no 
exception. CU has a long history of working with NHTSA and Congress to 
press for improvements in automobile safety to identify safety 
priorities and insure that NHTSA is fulfilling its mandate.
    Each year, CU conducts comprehensive tests of some 40 to 50 new 
vehicles that we buy anonymously at retail, and we provide consumers 
with ratings about performance, routine handling, fuel efficiency, 
reliability, comfort, braking, emergency handling, and safety features 
of these vehicles. CU also tests tires each year for their performance 
in braking, handling, cornering, and traction characteristics on dry, 
wet, snow-covered, and ice-covered surfaces. Each month, an estimated 
17 million consumers read and consider our published test reports, 
product ratings, and buying advice as they ponder their choices.
    The topic before the Subcommittee this morning is what form the 
NHTSA reauthorization legislation will ultimately take. The Senate 
bill, S. 1072, Safe, Accountable, Flexible, and Efficient 
Transportation Equity Act of 2003 (SAFETEA), includes a number of 
important provisions that we think will bring needed improvements in 
the way cars are designed, and save lives in a cost-effective manner. 
This legislation will give NHTSA the kind of guidance we believe it 
needs to proceed with rulemaking in these areas. We have worked 
actively with Senators on both sides of the aisle to insure that this 
is a balanced bill that makes the most of this opportunity to 
reauthorize NHTSA for the next six years. We urge the members of the 
Subcommittee to support this proposal.

Auto Safety Statistics and Funding
    The U.S. Department of Transportation (DOT) data on traffic 
fatalities for the year 2002 was not encouraging. Overall, there were 
42,815 deaths in 2002 compared to 42,196 in 2001, an increase of 619 
deaths. This is the highest number of motor vehicle fatalities in over 
a decade. And although nearly 95 percent of all transportation-related 
fatalities are the result of motor vehicle crashes, NHTSA's budget is 
less than one percent of the entire DOT budget.
    The current authorization funding level for NHTSA's entire motor 
vehicle safety and consumer information programs is only $107.9 
million. Since 1980, the agency has been playing a game of catch-up. 
Today, funding levels for motor vehicle safety and traffic safety 
programs are not much higher than 1980 funding levels in current 
dollars.

Theme of Legislation
    Though some may paint S. 1072 as too ambitious, too expensive, 
requiring too much research, we take issue with those 
characterizations. Dr. Runge himself said in a speech to the American 
Public Health Association last November, ``There is a public health 
epidemic of highway death in this country,'' and ``Traffic crashes are 
the leading killer of children starting at age 2. This is what is 
killing our young people, killing our children, this is the 3rd leading 
cause of years of potential life lost for all ages combined.''
    The safety measures addressed in S. 1072 will save thousands of 
lives and serious injuries. Moreover, many of the issues addressed in 
this bill have been under study and discussion within NHTSA for a 
decade or longer. NHTSA first adopted tire standards in 1970, lower 
side impact protection in the 1970s, seatbelts have been required in 
cars since 1968 and the means for getting more people to use them has 
been studied throughout, roof crush has been under discussion since 
1971, a standard for door lock and occupant retention was adopted in 
1968. In fact, the theme that comes through most profoundly as you read 
the safety provisions in S. 1072 is that this bill is a serious effort 
to complete the long unfinished auto safety agenda that takes thousands 
of lives needlessly each year. This is not an extreme bill. Indeed, 
Senators McCain (R-AZ), Hollings (D-SC) Snowe (R-ME), and DeWine (R-OH) 
each have championed safety provisions in this legislation, and the 
bill passed the Republican-majority Senate Energy and Commerce 
Committee unanimously and has now passed the full Senate.

Congressional Mandates are Most Effective in Generating NHTSA Action
    Four years ago this Committee held extensive hearings on the Ford-
Firestone highway safety crisis: hundreds of people had been injured 
and or were killed when the Firestone tires on their Ford Explorers 
peeled away at highway speeds. This bill that this Committee developed 
paved the way to enactment of landmark auto safety legislation, the 
Transportation Recall Enhancement, Accountability, and Documentation 
Act of 2000 (TREAD). TREAD directed NHTSA to address many important 
safety issues that the agency had put off for too long, including 
dynamic rollover testing, upgrading tire standards, and development of 
an early warning system to flag safety defects before they become 
crises.
    To NHTSA's credit, four years later the agency has completed 
TREAD's ambitious list of Congressional mandates. (The one exception is 
the tire pressure monitoring rulemaking, which NHTSA did complete but 
which was subject to a lawsuit brought by several safety groups, not 
including Consumers Union, and the agency is currently revising the 
rule.)
    The lesson here is that NHTSA, with many safety issues on its 
agenda, does its work most effectively and efficiently when it has a 
Congressional mandate to move forward with the rulemaking process, 
enlist the public's input, and ultimately to publish a final rule that 
will save lives in a cost-effective manner. History shows that when 
Congress does not direct the agency to address a specific problem, as 
was the case in four important safety regulatory areas described in one 
of this bill's predecessor, the Intermodal Surface Transportation 
Efficiency Act of 1991, (ISTEA), the result is either no final rule or 
only a weak final rule. The examples from ISTEA are listed below:

 Congress did not require a final rule adopting a rollover standard; 
        NHTSA issued an Advance Notice of Proposed Rulemaking (ANPRM) 
        but withdrew it;
 Congress did not require an upgraded rule for improved safety belt 
        design--NHTSA issued a rule requiring adjustable anchorages but 
        only in front outboard seating;
 Congress did not require NHTSA to adopt a 10-year old test dummy in 
        the federal regulations; NHTSA didn't act, though a subsequent 
        law passed by this Committee, Anton's Law, now says it must 
        initiate rulemaking by December 2005.
 With Congressional guidance and direction, however, NHTSA is quite 
        capable of developing standards that help save lives, and make 
        our cars and roadways safer. I'd like to direct your attention 
        to the various safety provisions in S. 1072 and explain why CU 
        urges your support for them.
SEC. 4156--IMPROVED CRASHWORTHINESS

Roof Crush Standard
    The 33-year old standard for roof strength is woefully out of date 
and does not provide basic crashworthiness protections for occupants in 
vehicles that roll over. The auto industry and government have known 
about the deadly consequences of vehicle roof crush since 1960s, yet 
have never upgraded the 1971 standard nor extended it to vehicles 
weighing more than 6,000 lbs. Further, roof crush injuries occur often 
to those who have followed the rules and buckled their seatbelts. 
Drivers who experience a rollover often sustain grave injuries despite 
being belted because of the vehicle's poor roof integrity. NHTSA's 
failure to upgrade the roof crush standard allows these injuries to 
mount year after year.
    The Detroit News in a 2003 series ``Deadly Driving'' highlighted 
the failure of NHTSA to upgrade its roof strength standard and noted 
that 1,400 deaths and 2,300 serious injuries could be prevented each 
year if the standard were more rigorous.
    NHTSA itself has estimated that 1,339 serious or fatal injuries 
caused by roof crush intrusion are suffered by belted occupants each 
year. While the agency has put out a notice and request for comment on 
roof crush resistance, no proposal for rulemaking for an upgraded 
standard has been issued. NHTSA lists a proposed rule to upgrade roof 
crush resistance as a possible 2004 action, and final rule as a 
possible 2005 action, in Vehicle Safety Rulemaking Priorities and 
Supporting Research 2003-2006, with little description of a rule's 
possible contents. We recommend speeding up this process and therefore 
support S. 1072's provisions to upgrade the roof crush standard.
S. 1072:

Sec. 4156--Improved Crashworthiness :
 Requires NHTSA to issue a rollover crashworthiness standard and 
        requires the Secretary to consider a roof strength standard 
        based on a dynamic test, and to consider improved seat 
        structure and safety belt design (including seat belt 
        pretensioners and load limiters), side impact head protection 
        airbags, and roof injury protection measures.
Vehicle Crash Ejection Prevention
    According to NHTSA about 7,300 people are killed each year and tens 
of thousands are injured, nearly 8,000 suffering severe injuries, 
because of partial or complete ejection through passenger vehicle 
doors, windows, and even moon roofs.
    NHTSA researched anti-ejection glazing for years, estimating that 
up to 1,300 lives could be could be saved each year by anti-penetration 
side window glazing, yet suddenly decided that there were insufficient 
benefits from the use of anti-ejection glazing and discontinued the 
rulemaking.
    The agency also has not acted to upgrade the outdated standard for 
door latches and locks that has remained unchanged since NHTSA first 
adopted an industry standard in the 1960s. Many doors still fly open in 
front, side, rear, and rollover crashes. In recent years, about 2,500 
deaths and nearly 2,000 serious injuries occurred annually due to door 
ejections. Side door ejections are the second leading cause of 
ejections in all types of crashes, exceeded only by ejections through 
fixed glazing.

S. 1072:
 Requires NHTSA to issue a rule to reduce complete and partial 
        occupant ejection from passenger vehicles;
 Agency to consider ejection mitigation capabilities of safety 
        technologies such as advanced side glazing, side curtains, and 
        side impact air bags;
 Requires NHTSA to issue a rule to address improvements in door locks, 
        latches and other ejection reducing components;
 Notice of Proposed Rulemaking (NPRM) to issue by June 30, 2006, final 
        rule due 18 months later (Dec. 30, 2007).

Vehicle Rollover
    Rollover crashes result in a tragedy of massive proportions, with 
more than 10,000 deaths and hundreds of thousands of serious or 
crippling injuries to Americans each year. Rollover crashes represent 
only 3 percent of all collisions but account for 32 percent of all 
occupant fatalities. Light trucks, because they are higher and thinner 
vehicles, have a higher center of gravity and are more prone to rolling 
over in emergency situations.
    The proliferation of SUVs on our roads since the start of the 
1990s, with their numbers actually more than doubling during this 
period, has been accompanied by a doubling of fatal rollover crashes.
    The results of NHTSA's annual Fatal Analysis Reporting System 
(FARS) for 2002 showed an increase in deaths and injuries due to 
rollover crashes--from 10,130 in 2001 to 10,666 in 2002--with almost 
half of them due to an increase in fatal rollover crashes by SUVs and 
pickup trucks. In fact, from 2001 to 2002, our nation suffered an 
astounding 10 percent increase in SUV rollover deaths alone in just one 
year. There was also from 2001 to 2002 a considerable increase in 
passenger vehicle rollover deaths overall--78 percent of that increase 
occurred in crashes involving SUVs and pickup trucks.
    Six of every 10 deaths in SUVs in 2002 occurred in rollover 
crashes. No other passenger vehicle has the majority of its deaths take 
place in rollovers. By contrast, the great majority of deaths in 
passenger cars--more than 75 percent--occur in other crash modes.

CU's History in Rollover Prevention Efforts
    Nowhere has CU's experience with NHTSA inaction and ineffectiveness 
been more vivid than with the issue of rollover prevention. In 1973, 
NHTSA announced its intention to consider a standard ``that would 
specify minimum performance requirements for the resistance of vehicles 
to roll over in simulations of extreme driving conditions encountered 
in attempting to avoid accidents.'' The agency never set such a 
standard, despite considering the rollover issue for the next 31 years.
    In 1988, NHTSA granted a CU petition in which we urged the adoption 
of a minimum stability standard to protect against unreasonable risk of 
rollover in all vehicles. The agency said at the time that the petition 
was ``consistent with the Agency's steps to address the rollover 
problem.'' But NHTSA backed away from setting a standard. In fact, in 
1994 NHTSA halted rulemaking on a universal minimum-stability standard, 
concluding that a standard applicable to all vehicles would require the 
redesign of nearly all SUVs, vans and pick-up trucks--at an 
unacceptably high cost.
    In 1996, Consumers Union once again petitioned NHTSA, asking for 
the development of a consumer information program that would produce 
meaningful, comparative data on the rollover characteristics of 
different makes and models of SUVs. We asked that this information be 
made available to consumers. NHTSA granted CU's petition for a consumer 
information program, calling CU a ``welcome partner'' in the quest for 
improved rollover safety.
    The end of this long three decade-plus saga is that not until 
Congress mandated in TREAD that NHTSA develop a dynamic test for a 
rollover consumer information rating program did NHTSA to develop such 
a test. Today NHTSA uses a ``fishhook'' maneuver to evaluate vehicle 
rollover resistance. That test is now combined with another measure, 
the Static Stability Factor, to arrive at rollover consumer information 
ratings, which are available to consumers on NHTSA's website and 
published in Consumer Reports magazine as well as 
ConsumerReportsOnline.org. As noted above, Consumers Union has 
supported a standard for rollover resistance. There is currently no 
standard. What we have today, instead, is a consumer information 
program that involves testing vehicles and publishing comparative 
vehicle rollover resistance ratings. But there is public support for a 
rollover resistance standard. According to a Louis Harris poll 
commissioned by Advocates for Highway and Auto Safety, 85 percent of 
Americans support a federal minimum standard for rollover prevention.
    CU believes that setting a rollover resistance standard is far more 
easily accomplished today than it might have been even three years ago. 
NHTSA has done the hard work of developing a repeatable dynamic 
rollover resistance maneuver. The fishhook test that NHTSA is currently 
using is tough and rigorous, and could be the basis for a rollover 
standard that has consistently eluded the agency. Our engineers have 
also found in our testing that vehicles with aggressive electronic 
stability control systems (ESC) (also called vehicle stability control 
systems or VSC), have better emergency handling characteristics and are 
far less prone to rollover than vehicles without this feature, and CR 
recommends that ESC be standard equipment in all light trucks. However, 
NHTSA has never formally tested and evaluated this relatively new 
technology that is finding its way into more and more vehicles. We 
support S. 1072's direction to NHTSA to report on electronic stability 
control systems as warranted and sensible.
    Finally, CU believes that any vehicle that tips up in NHTSA's 
fishhook maneuver testing should be regarded as falling below the 
minimum standard for rollover resistance. In NHTSA's testing, only two 
vehicles tipped up. Consumer Reports will not recommend any vehicle 
that tips up in NHTSA's fishhook test.

S. 1072:
Sec. 4156--Improved Crashworthiness :
 Requires issuance of a rollover resistance standard that includes 
        improvements on the basic design characteristics of passenger 
        vehicles to reduce rollover, and requires NHTSA to consider 
        additional technologies to improve vehicle handling including 
        electronic stability control systems;

Aggressivity and Vehicle Compatibility
    NHTSA has been looking at the issue of vehicle compatibility for 30 
years; outside groups and researchers have identified vehicle 
compatibility as a serious safety issue as well.

 In 1974, NHTSA presented a paper on aggressivity calling for safer 
        bumpers for heavy cars.
 In June 1998, NHTSA Administrator Dr. Ricardo Martinez announced that 
        NHTSA research and crash tests showed that vehicle mismatch 
        between cars and lights trucks was causing as many as 2,000 
        additional deaths each year on American roads. In response, the 
        auto industry, including Ford Motor Company, promised Dr. 
        Martinez that it would make modifications to achieve safer 
        designs, mainly by adjusting vehicle suspension.
 In 1999, an Insurance Institute for Highway Safety study found that 
        for every million registered cars weighing between 3,500 and 
        3,900 pounds, 45 deaths occur in vehicles struck by these cars 
        while 76 deaths occur in vehicles struck by SUVs in the same 
        weight class. While occupants of a car hit in the side by 
        another car are seven times more likely to die than people 
        inside the striking car, the fatality rate of car occupants is 
        twenty-six times higher when the car is broadsided by an SUV or 
        pickup truck. IIHS concluded that changing vehicle geometry and 
        design can improve compatibility.
 In March of 2002, aggressivity research done by Marc Ross, of the 
        University of Michigan, and Tom Wenzel, of Lawrence Berkeley 
        National Laboratory for the Department of Energy, showed that 
        vehicle design played a large role in the amount of risk a 
        vehicle imposes on other vehicles on the road and charted make/
        model differences using real-world crash data.
 In 2002, NHTSA research contractor Hans Joksch published a report, 
        Vehicle Design versus Aggressivity, showing that more than 445 
        people died in 1996 in collisions with light trucks who would 
        not have died if the other vehicle in the collision was a car 
        of the same weight.
 Last year, NHTSA released its ``2002 Annual Assessment of Motor 
        Vehicle Crashes'' and noted that between 2001 and 2002, the 
        number of car occupants who died in two-vehicle crashes with a 
        light truck (SUV, van or pickup) increased (to 4,465) while the 
        number of fatalities in the light trucks decreased (to 1,125). 
        NHTSA also found that in two-vehicle crashes between cars and 
        light trucks the car occupants were 3.3 times more likely to be 
        killed in a head-on collision and 20.8 times more likely to die 
        in a side impact (with the LTV hitting the side of the car).
    Last December, the Alliance of Automobile Manufacturers, at the 
urging of the NHTSA Administrator, announced a voluntary program to 
address SUV aggressivity issues. The program proposed to phase in side 
air bags by 2007, as well as phasing in lower light truck bumper 
heights and perhaps lower frame-rail heights for the tallest pickups 
and sport-utility vehicles. The plan failed to address light truck 
design problems, however, such as the steel bars and frame-on-rail 
construction, which make light trucks vehicles more damaging to 
vehicles they strike in crashes than if they had a unibody 
construction.

Cautionary Note on Voluntary Industry ``Commitments'' and Auto Safety
    A cautionary note is warranted here on voluntary commitments and 
auto safety regulations. As with any voluntary effort, there is no 
requirement that all vehicles comply, nor is there an outside body, 
like NHTSA, to verify vehicle adherence. Further, consumer groups, 
educators, independent experts, and others have no regular input into 
the development of the voluntary agreement, nor can the public offer 
comments on such a voluntary effort, as they would with a federal 
mandatory rule. The voluntary plan on vehicle compatibility offers no 
procedural or judicial oversight, no mechanisms for accountability, and 
no baseline for safety. Voluntary commitments, because they are 
developed by a consensus within the industry, also suffer the real 
possibility of being adjusted downward to ensure that all members in 
the industry can still conform.
    We argued last year before the Senate Commerce Committee, when the 
industry embarked on the voluntary effort for compatibility, that if 
NHTSA were going to recommend action on vehicle compatibility, it 
should do so through it's statutorily granted regulatory powers, 
developing a mandatory standard to which all vehicles must comply. I 
know, for example, that IIHS's director, Brian O'Neill, whom I respect 
and consider a friend and colleague, was instrumental in formulating 
the voluntary program with the Alliance of Automobile Manufacturers. He 
and I will simply have to disagree. The argument in favor of voluntary 
programs is that they achieve the desired results more quickly than can 
mandatory standards. We hasten to point out, however, that the 2003 
voluntary compatibility document agreed to by the automakers for head 
injury and for less aggressive bumper designs do not call for 100% 
automaker conformity until 2010. That means that automakers have 7 
years to bring their vehicles into conformance. We would hardly call 
that a ``fast track.'' And, unless the agency commits the resources to 
developing in-depth expertise and research, it cannot properly and 
independently evaluate the effectiveness of the voluntary program.
    Moreover, what is lost in the process? Vehicle compatibility is 
simply too important an issue to be left to a voluntary effort. CU 
believes that the public's substantive and procedural rights to 
participate in regulatory matters that affect its safety are absent 
when automakers set their own agreements, and the democratic process is 
the worse for it.

S. 1072:
Sec. 4155--Aggressivity and Incompatibility Reduction Standard
 Requires NHTSA to issue a safety standard to reduce vehicle 
        incompatibility/aggressivity which shall consider factors such 
        as bumper height, weight, and design characteristics to manage 
        crash forces in frontal and side impacts;
 Requires development of a standard metric to evaluate and rate 
        comparative incompatibility/aggressivity among different 
        vehicles;
 Requires development of a public information program including 
        ratings based on risk to vehicle occupant and risk to occupants 
        of other vehicles;
 NPRM to be issued by Jan. 31, 2007, final rule due 18 months later 
        (July 31, 2008).

Sec. 4173--Child Safety
    Power Windows: In the past two years, six children have died when 
power windows closed on their necks, strangling them, according to the 
nonprofit safety group, Kids and Cars, the only source for data on this 
problem. I'd like to submit for the record Consumer Reports' (CR) 
article on power windows from our August 2003 issue. CR found that the 
vast majority of European and Japanese vehicles have a safe power 
window switch design that prevents a child from accidentally closing 
the window on his or her neck, and have featured that design for a 
number of years. A number of cars have an added safety feature in their 
power windows, an auto-reverse or ``pinch-proof'' device that uses 
sensor technology that reverses the window if it meets with minimal 
resistance. Unfortunately, the American automakers have lagged behind, 
with many continuing to feature a window switch that can be 
inadvertently operated by a child leaning out the window with her or 
his knee pressed against the switch. Indeed, the 2004 Ford Explorer, 
which is marketed as a family vehicle, and other 2004 models have the 
old-fashioned design. NHTSA, for its part, has failed to upgrade its 
1991 standard on power windows, proposing a change in 1996 but failing 
to complete the rulemaking to this day.
    We noted NHTSA Administrator Jeff Runge's comment in The Washington 
Post on Tuesday of this week (March 16, 2004) relating to the power 
window problem. ``It's ripe for regulation or voluntary action,'' he 
said. ``I think this problem will resolve itself.''
    This statement left us dumbfounded. The safer power window designs 
have been around and in widespread use for over a decade. The American 
automakers have failed to incorporate them across their fleet of 
vehicles. Even with the increased publicity about the dangers of power 
windows on such prime time news programs as NBC's Today Show and ABC's 
Good Morning America, a number of 2004 American automaker's cars 
feature the old designs that pose a hazard to children. This is a 
matter that obviously cannot and must not be left to a voluntary 
standard. CU believes NHTSA can and should put a standard in place to 
fix this safety hazard(and should do so quickly. The numbers of deaths 
may be small, but they should be zero. Moreover, the death of a child 
scars a family for eternity. We have the technology to prevent these 
predictable, yet preventable tragedies--and we should use it.

S. 1072:
Sec. 4173--Child Safety
 Requires report to Congress on technologies that reduce injuries from 
        power windows to unattended children left inside motor 
        vehicles;
 Requires completion of pending rule on design of power window 
        switches and issuance of performance-based regulations to 
        reduce accidental closing of power windows by children within 
        180 days of enactment, with regulation to take effect not later 
        than Sept. 1, 2006;

Backover warning devices research
    Last year, at least 72 children, more than one every week, 
according to Kids and Cars, were backed over and killed, often by a 
parent or caregiver and often in their own driveway. In 2002 that 
number was 58. Parents involved in these tragedies say they looked as 
they backed up but because the child was in the vehicle's blindspot, it 
was impossible to see them. Consumers Reports has begun measuring 
blindspots for every vehicle we test and reporting on its the width and 
length. I'd like to submit for the record CR's April 2003 article on 
blindspots. We were shocked to learn that for a woman at 5'1'', the 
blindspot in a Chevrolet Avalanche, a pickup truck was 51 feet in 
length. For 51 feet behind her, the driver could literally not see 
anything 28 inches or shorter. This problem is sure to become more 
serious as the fleet becomes dominated by larger, longer and higher 
light trucks.
    Consumer Reports also tested backup warning devices and cameras, 
and found some were more effective than others in detecting objects 
behind vehicles. I'd like to submit for the record our October 2003 
ratings of these devices.
    We have already seen an increase in backover deaths to children 
from 2002 to 2003. We need to give parents the technology they need to 
do what they want to do anyway--there is no behavioral problem to 
change in saving lives in this instance--avoid hitting a child they 
cannot see behind them. CU supports making backup warning devices 
standard equipment in all larger vehicles, and we'd like to see these 
devices in all vehicles eventually. As we said above in relation to 
power windows, the numbers of deaths may not be spectacular, but they 
should be much closer to zero. Again, we should use technology to 
prevent these predictable, yet preventable tragedies.

S. 1072:
Sec. 4153--Vehicle Backover Avoidance Technology Study
 Requires NHTSA to study methods to reduce death and injuries 
        resulting from vehicles backing into pedestrians expecially 
        children;
 Requires the study to analyze and compare backover prevention 
        technologies, and provide estimated cost benefits of reduction 
        in deaths, injuries, and vehicle damage;
 Study to be submitted to Congress one year from enactment

Data Collection for Non-Crash, Non-Traffic Automotive Events
    NHTSA has the authority to gather data for non-traffic, non-crash 
events--injuries in vehicles in parking lots, on a highway shoulder or 
in a driveway, like backover or power window incidents-- but has 
consistently declined to do so. The only source for data about injuries 
to children in and around cars comes from the children's safety 
advocacy group, Kids and Cars. Janette Fennell, founder and president 
of the organization, has collected incident data involving children 
injured or killed in and around cars for seven years, and has done so 
at no cost to the government. Nevertheless, NHTSA has resisted 
collecting these data and adding them to its renown Fatality Analysis 
Reporting System (FARS), arguing that doing so would cost too much.
    We are chagrined that our federal highway and auto safety agency, 
rather than working with groups like Kids and Cars to better understand 
safety hazards, instead question the validity of such group's data. A 
Washington Post article Tuesday, March 16, 2004, quoted a NHTSA 
official as saying, ``But officials said Fennell's figures are probably 
overstated.'' Fennell's database consists of actual news accounts of 
accidents and is open to any who wants to see it. Such remarks by a 
federal safety regulator is a disservice to the concerned citizen who 
tries to fill an obviously gaping hole in the federal safety net.
    Omitting information about deaths and injuries from the federal 
database, and keeping fatalities in non-crash, non-traffic events out 
of FARS data, deprives regulators of information they need to make 
regulatory and recall decisions. We support the provisions in S. 1072 
to direct NHTSA to begin to collect these data.

S. 1072:
Sec. 4154 ``Vehicle Backover Data Collection (Deaths and Injuries In 
        Non-Traffic Non-Accident Incidents)
 Authorizes NHTSA to establish a method to collect and maintain data 
        on the number and types of injuries and deaths involving motor 
        vehicles in non-traffic, non-accident incidents.

Sec 4173 -Child Safety
 Requires new database to collect data on injuries and deaths from 
        non-traffic, non-crash events involving motor vehicles, and 
        specifies that the database will be available to the public.

Side Impact Protection
    About 10,000 people die each year in both single- and multiple-
vehicle collisions involving side impacts, even though many of these 
deaths could be prevented by improved side impact safety standards. 
Side impact crashes have increased in both severity and the number of 
deaths over the past decade due to the explosive growth in the number 
of light trucks on the roadways. We are concerned that too many light 
trucks were designed without much regard for the damage they will 
inflict smaller or lighter vehicle, in a collision.
    The National Highway Traffic Safety Administration has made little 
progress towards improving side impact occupant protection, despite 
proven technologies such as side air bags. Improvements for both lower 
and upper side impact collisions are necessary to provide the 
protection occupants need in these crashes. Unfortunately, NHTSA has 
not acted when it has had the opportunity to strengthen both side 
impact safety regulations, Standards No. 201 (upper interior head 
impact protection) and 214 (lower interior side impact protection). The 
agency adopted a weak lower interior side impact standard, No. 214, in 
1995 that only extended the requirements for a dynamic test to light 
trucks and vans 6,000 pounds or less gross vehicle weight rating. It 
also adopted a moving barrier test for hitting SUVs, pickup trucks, and 
vans in their sides that was only equal to the weight and size of a 
mid-size car, even though NHTSA made it clear in Federal Register 
notices that it actually favored using a taller, stiffer, heavier 
barrier perhaps weighing as much as 3,600 to 4,000 pounds.
    As for Standard No. 201 governing upper interior head impact 
protection, the agency recognized in the late 1990s that side impact 
air bags were being used by the vehicle manufacturing industry to 
protect occupants from lethal head injuries, but it only adopted an 
optional test for using this crucially important safety technology. In 
the case of both standards, manufacturers can often meet the weak 
compliance requirements with little or no changes to how they already 
are making passenger vehicles or by using inexpensive foam padding 
added to both the upper and lower sides of vehicle interiors. Most 
importantly, no side impact air bags are required by the agency or even 
fostered by the weak compliance requirements of both standards. 
However, S.1072 addresses the deficiencies of both standards.

S. 1072:
Upper Interior Side Impact Head Protection (FMVSS No. 201):
 Requires the evaluation of additional barriers and measurements of 
        head and neck injuries, consideration of the need for new 
        dummies for full range of occupants and a review of Insurance 
        Institute for Highway and Safety criteria.
15-Passenger Vans
    Senator Olympia Snowe (R-ME) championed this issue in the Senate 
Commerce Committee after a terrible crash in her state, stating that 
``I quickly learned that this was the latest in a long line of deadly 
crashes involving the popular vans, which were initially designed to 
carry cargo rather than passengers and are highly prone to rollovers, 
especially when fully loaded.'' Senator Snowe introduced legislation to 
require NHTSA to include 15-passenger vans in their New Car Assessment 
Program (NCAP) rollover resistance ratings, and to test vans at various 
load conditions.
    15-passenger vans currently fall into a regulatory black hole. 
Because they carry over 10 passengers, they are categorized as a bus, 
but they are far smaller than motor coaches, which are lightly 
regulated for safety purposes. Fifteen-passenger vans also need not 
meet small school bus standards, which are far stronger. Furthermore, 
because they are not passenger cars or multipurpose passenger vehicles, 
15-passenger vans are exempt from a number of federal motor vehicle 
safety standards (FMVSS), including the following:

FMVSS 201: interior impact;
FMVSS 202: head restraints for rear seats;
FMVSS 206: for door locks and retention;
FMVSS 214: for side impact dynamic testing; and
FMVSS 216: for roof crush resistance.
    Their lack of crash protection under key standards is particularly 
hazardous because 15-passenger vans are highly prone to devastating 
rollover crashes, and often carry school sports teams, van pools, 
church groups and pre-school and school-age children. In a November 
2002 letter, Public Citizen asked NHTSA close this safety gap by 
applying crash protection standards to these vehicles. To date, the 
agency has taken no remedial action in response to that letter.
    NHTSA has sent out letters over the past decade to National 
Automobile Dealers Association, state directors of pupil 
transportation, and independent education groups outlining the Federal 
requirements for school bus safety and NHTSA's policy that pre-school 
and school aged children not being transported in 15-passenger vans due 
to safety concerns. NHTSA also released a Research Note on the rollover 
propensity of 15-passenger vans finding that, for example, a fully 
loaded 15-passenger van had 6 times the rollover risk, in a single 
vehicle accident, than the same van with only 5 passengers and issued a 
Consumer Advisory warning consumers about the risks of 15-passenger 
vans, but NHTSA has declined to impose regulations on these vans.
    The prevalence of 15-passenger vans, their propensity to roll over 
when carrying heavy loads, and their use as transportation for children 
and students demand that we close the loopholes and bring these popular 
people-movers under all appropriate federal safety regulations.

S. 1072:
Sec. 4157--15-Passenger Vans
 Requires NHTSA to issue a final rule by Sept. 31 [sic], 2005, 
        requiring15-passenger vans to meet all existing and prospective 
        safety standards for occupant protection and crash avoidance 
        relevant to such vehicles;
 Requires NHTSA to issue a final rule by Sept. 31 [sic], 2005, to 
        include 15-passenger vans in the New Car Assessment Program 
        (NCAP) rollover resistance program;
 Requires evaluation of technology that would improve driver control 
        of 15-passenger vans.

Sections throughout the bill:
 Require that new safety standards for ejection, rollover prevention 
        and rollover crashworthiness are applicable to vehicles 
        weighing up to 10,000 lbs.

Tire Safety Standards
    Mandated to do so under TREAD, NHTSA issued a final rule in June 
2003 to improve tire safety, concentrating on tire endurance and speed 
performance to reduce failure and extend the standard to tires used by 
light trucks and vans. However, the agency left areas of the proposed 
standard unfinished, including important safety issues such as reducing 
failure from tire impacts with road hazards, improving tire resistance 
to unbeading, and controlling tire failure because of gradual 
deterioration during tire service life. The agency also has not 
addressed the issue of wet weather anti-skidding performance, an issue 
specifically directed by Congress in separate legislation.
    CU supports efforts to complete the process of setting effective 
standards for tires. For example, on modern low profile tires, the 
plunger and unseating tests are not effective. The current tire 
strength and bead unseating tests do a poor job of evaluating low 
profile radial tires-radial tires; these tires too easily pass these 
tests. In fact, tire strength and bead unseating tests were designed 
around bias tire technology common in the sixties. Consumers Union 
supports new testing methods that will set an effective minimum 
standard for radial tires. We also support a tire aging test. This test 
is not a sell-by-date requirement; rather it is a laboratory method of 
rapidly aging the tire using heat or some other means (e.g., ``cook'' 
the tire in an oven) and then evaluating belt adhesion using a tensile 
pull test or wheel test. We understand that Ford Motor Co. has been 
working on an aging test and reported recently that ``aged'' tires 
often perform better on high speed wheel tests because the rubber is 
stiffer, allowing the tire to run cooler.

S. 1072
Sec. 4158--Additional Safety Performance Criteria for Tires
 Requires NHTSA to issue a tire safety performance standard that 
        includes criteria for strength and road hazard protection, 
        resistance to bead unseating, and aging;
 Requires NHTSA to reconsider the decision not to require use of 
        shearography analysis;
    NPRMs to be issued by June 30, 2005, for strength and hazard 
protection, and by Dec. 31, 2005, for aging and bead unseating, with 
final rules due 18 months after each NPRM (Dec. 30, 2006 and June 30, 
2007, respectively).

Seat Belt Reminder Technology
    According to the U.S. Department of Transportation (DOT), seat 
belts save 13,000 lives each year, but 7,000 people die because they do 
not use seat belts. In 2001, 73 percent of restrained passengers 
involved in fatal crashes survived, compared to 44 percent of 
unrestrained occupants. More than half of all highway fatalities occur 
among people who are not wearing seat belts. The deaths and injuries 
that result from non-use of safety belts cost society an estimated $26 
billion annually in medical care, lost productivity and other injury-
related costs.
    The importance of seat belts in saving lives is indisputable. We 
should do everything possible to get people to buckle up. European 
vehicle manufacturers employ seat belt use reminder systems using 
chimes and other audible sounds, which become more insistent based on 
increasing vehicle speed or distance driven. In 2003 the National 
Academy of Sciences conducted a study of new seat belt reminder 
technologies for NHTSA, recommending, among other actions, that all new 
light-duty vehicles be equipped with an enhanced belt reminder system 
that includes an audible warning and a visual indicator for front seat 
occupants and that the current 4-8 second limitation on audible 
warnings be amended to remove the time limit. (CU's Auto Test Division 
Director, David Champion, was a member of that NAS panel.) See Buckling 
Up: Technologies to Increase Seat Belt Use, Transportation Research 
Board Special Report No. 278 (prepublication copy available online at 
http://trb.org/publications/sr/sr278.pdf.
    CU believes we need to enhance the reminders drivers and their 
passengers now receive to buckle up.

S. 1072:
Sec. 4159--Safety Belt Use Reminders
 Requires NHTSA to issue a rule to encourage driver and passenger seat 
        belt use;
 NPRM to be issued within 12 months and final rule within 24 months;
 Permits regulations that require or permit seat belt/ignition 
        interlocks and use of seat belt reminder systems with audible 
        buzzer that lasts longer than 8 seconds.

Administration's Opposition to Effective Seat Belt Legislation
    We wish to make one additional observation on improving seat belt 
usage. CU believes there is a disconnect in this Administration's 
stance on seat belts. Secretary of Transportation Norman Mineta and 
NHTSA Administrator Jeffrey Runge, who testified earlier this morning, 
have each stated that increased seat belt use is an Administration 
priority and each has acknowledged the importance of primary seat belt 
laws. In November 2003, Secretary Mineta said in a press release, ``I 
urge states to enact primary safety belt use laws because they have 
been proved effective in convincing people to buckle up. Saving lives 
is one of the Bush Administration's highest priorities.'' NHTSA's 
administrator, Dr. Jeffrey Runge, as well, has continued to stress the 
importance of getting motorists to buckle up in order to save lives. 
``It would be impossible to overstate the lifesaving and dollar saving 
impact of increases in safety belt use. It remains vitally important 
that all of our citizens buckle up,'' he said last year.
    Yet this Administration has declined to support a bipartisan effort 
to motivate states to enact primary seat belt laws. S. 1993, the 
National Highway Safety Act of 2003, introduced in February of this 
year by Senator John Warner (R-VA) and Senator Hillary Clinton (D-NY), 
is supported by over 130 national, state and local groups representing 
consumer, health, safety, medical and child advocacy organizations, the 
insurance industry, the auto industry, law enforcement, African-
American mayors and state legislators, and drunk driving victims. The 
bill aims at getting states to enact a primary enforcement seat belt 
law or raise its seat belt use rate to 90 percent. If a state fails to 
accomplish one or the other within three years, it faces the loss of 
two percent of their federal highway funding, growing to four percent 
in subsequent years. The administration apparently won't support the 
bill because it contains penalties for noncomplying states. We cannot 
understand this decision. It does not appear that the Administration is 
opposed, as a matter of principle, to sanctioning states. Indeed, the 
2002 No Child Left Behind Act, considered a landmark bill for this 
Administration, includes a number of sanctions for schools whose 
students don't meet testing standards.
    Moreover, the sanctions in S. 1993 mirror those in other highway 
safety bills. For example, federal law encouraging each of the states 
to pass a 0.08% blood alcohol level laws has a sanctions provision. 
That law has been very effective getting the states to take action. We 
believe the Administration's failure to back S. 1993, on one hand, and 
its statements about the importance and value of primary seatbelt laws, 
on the other, is inconsistent and we respectfully suggest that it 
reconsider its position and throw its weight behind S. 1993, National 
Highway Safety Act of 2003.
    This subcommittee has an important responsibility here today. Each 
of the provisions we have highlighted will help to save lives, but 
without Congressional action that ensures they become law, we are 
concerned that too little progress will be made in reducing the number 
of deaths and serious injuries that plague our nation's highways each 
year.
    Thank you for this opportunity to share our views.

    Mr. Stearns. I thank the gentleman.
    Mr. O'Neill.

                   STATEMENT OF BRIAN O'NEILL

    Mr. O'Neill. Thank you, Mr. Chairman. I would like my full 
statement to be put in the record.
    Mr. Stearns. My unanimous consent, so ordered.
    Mr. O'Neill. My name is Brian O'Neill. I'm president of the 
Insurance Institute for Highway Safety. The Institute is a 
nonprofit research and communications organization that 
identifies ways to reduce motor vehicle crash deaths and 
injuries. I'm here today to discuss various approaches to 
improving vehicle safety.
    For years after the Federal Government first began 
regulation motor vehicle safety, both auto makers and safety 
advocates accepted the premise that this was the only way that 
safety could be improved. Auto makers believed safety wouldn't 
sell and safety advocates believed that auto makers wouldn't 
try to sell safety, therefore it had to be mandated.
    Today, however, times have changed. Safety does sell and 
many vehicle safety improvements have been made outside of the 
framework of Federal rulemaking. For example, we've already 
heard from Dr. Runge about side impact airbags that protect 
people's heads in side crashes. These are likely to become 
standard in most new passenger vehicles during the next few 
years. The widespread adoption of this impression safety 
technology has not been driven by government regulation, but by 
consumer demand for safety.
    Consumer interest in the comparative vehicle safety ratings 
derived from crash tests conducted by both NHTSA and my 
institute have produced significant improvements. When we began 
testing cars in our frontal crash test program in 1995, few of 
them performed well enough to earn good ratings. Most were 
rated marginal or poor. In the last 2 years, a total of 44 of 
the 50 vehicles we tested were rated good and the other 6 were 
acceptable. None was rated as marginal or poor.
    The Institute's new side impact test program already is 
prompting auto makers to improve designs to get good ratings in 
side impact crash tests.
    As important as the marketplace competition is, however, 
it's not an appropriate or effective way to address all of the 
vehicle safety issues. One example involves the recent concerns 
about the harm that SUVs and other light trucks can inflict on 
people in cars. So there continues to be a place for safety 
standards. But we don't believe that these standards always 
need to be federally mandated. We think this is especially the 
case when a timely response is needed to a particular problem. 
Voluntary cooperation among auto makers is another approach 
that recently has been used and the Institute has participated 
in some of these initiates. You've already heard about the 
initiative to reduce the risks in crashes between cars and 
light trucks. We think that the initiatives developed through 
this voluntary approach and already adopted and the future 
initiatives that will come from the research that we're 
undertaking will significantly improve the problems of 
compatibility in crashes between cars and light trucks.
    Even though we can achieve improvements on a voluntary 
basis, Federal rulemaking does remain indispensable to 
establish a broad range of minimum levels of safety for all 
vehicles. A question, obviously, however, is who should 
establish NHTSA's rulemaking priorities?
    Ideally, NHTSA should have both the commitment and the 
technical expertise to set priorities and complete the 
rulemaking process by issuing standards. We have to acknowledge 
that history is mixed in this regard. Few NHTSA Administrators 
have been knowledgeable about highway safety when they were 
appointed, so lags to accommodate learning frequently have 
slowed the agency's progress. Plus, the political leadership of 
NHTSA sometimes has been ideologically opposed to rulemaking 
which has further slowed progress toward vehicle safety 
improvements.
    I believe that NHTSA's present Administrator, Jeff Runge is 
competent, knowledgeable and committed. Therefore, I believe 
extensive congressional dictates for new rulemaking are not 
needed. Any dictate should be confined to issues that have been 
outstanding for a long time and even then Congress should 
ensure that what it legislates necessary to undertake is 
feasible and based on sound science and adequate data.
    Take the issue of roof strength. This issue has been around 
for a long time. The relevant standard is very old. it was 
first issued in 1971. And in response, this committee is now 
considering legislation from the Senate that would instruct 
NHTSA to consider setting new roof strength standards and I 
quote, ``based on dynamic tests that realistically duplicate 
the actual forces transmitted to a passenger motor vehicle 
during an on-roof rollover crash.'' A laudable goal, but 
something that's not easy to accomplish.
    The precise contribution of vehicle roof strengths to the 
deaths and injuries in rollover crashes is till not fully 
understood, in part, because FMVSS216, the roof strength 
standard specifies minimum performance levels and many, perhaps 
most auto makers are designing their vehicles so that the 
strengths of their roofs very significantly exceed this 
federally mandated minimum.
    What this means is that we do not know how strong the roofs 
are on the current vehicle fleet. Because we do not know how 
strong roofs are today relative to the existing standard, it's 
very difficult to estimate the benefits of a new standard. That 
doesn't mean to say we shouldn't have a new standard or we 
shouldn't address the issue, but the legislation mandates that 
there will be a dynamic test. The literature right now on 
dynamic testing for roll over suggests that making dynamic 
tests sufficiently repeatable, for them to be feasible as part 
of a Federal standard is not yet feasible.
    These kinds of issues must be resolved before NHTSA can 
issue a rule requiring improved roof strength and particularly 
requiring improved roof strength using a dynamic test. So even 
though upgrading 216 is long overdue, Congress should not 
mandate a time table and certainly should not mandate an 
outcome, for example, a dynamic test that precludes NHTSA from 
conducting the research that is needed to produce the sound 
rule.
    Vehicle safety today is being improved through regulation, 
consumer information and voluntary standards. This mix means 
that important vehicle safety improvements will be achieved 
much faster than when we relied solely on the regulatory 
process. Federal standards set minimum levels of safety, but in 
some areas, manufacturers are designing their vehicles 
substantially beyond these minimums to earn good ratings in 
consumer crash test programs.
    Mr. Stearns. Mr. O'Neill, I need you to sum up.
    Mr. O'Neill. Yes, I will, sir. Not every vehicle safety 
issue can be addressed this way, of course. It's hard to 
imagine consumers demand vehicles that are less aggressive or 
harmful to people in other vehicles. So we do need standards. 
Sometimes these can be voluntary standards and other times they 
should be federally mandated standards. But what we should be 
seeking is the appropriate mix of approaches so that we 
maximize vehicle safety.
    [The prepared statement of Brian O'Neill follows:]

Prepared Statement of Brian O'Neill, President, Insurance Institute for 
                             Highway Safety

    The Insurance Institute for Highway Safety is a nonprofit research 
and communications organization that identifies ways to reduce motor 
vehicle crash deaths, injuries, and property damage. I am the 
Institute's president, and I am here to discuss various approaches to 
improving vehicle safety. The first approach, beginning in the late 
1960s, was to establish federal motor vehicle safety standards. Then in 
the 1980s, after the National Highway Traffic Safety Administration 
(NHTSA) began crash testing to provide consumers with comparative 
safety information, manufacturers responded by making improvements to 
get better crash test ratings. This also created a marketplace for 
safety, as car buyers began factoring the ratings into their purchasing 
decisions. More recently, automakers have responded to some well-
publicized safety issues by cooperating among themselves to establish 
industry-wide safety standards.

    IMPROVING VEHICLE SAFETY OUTSIDE THE FEDERAL RULEMAKING PROCESS

    For years after the federal government began regulating motor 
vehicle safety, both automakers and safety advocates accepted the 
premise that this was the only way safety could be improved. The 
automakers believed safety wouldn't sell, and the advocates believed 
automakers wouldn't try to sell safety. Therefore, it had to be 
mandated.
    In the 1960s-70s, auto companies employed few engineers working on 
safety, and this wasn't a good career path because safety wasn't a high 
priority in designing vehicles. But times have changed, and now the 
industry is very different. Auto companies employ lots of safety 
engineers and compete to equip vehicles with the latest safety 
technologies. Huge international companies exist, apart from the 
automakers, for the sole purpose of developing and selling vehicle 
safety technologies. Stockholm-based Autoliv, for example, operates in 
29 countries and achieves sales of more than $4 billion annually.
    Today it is clear that safety does sell, and many safety 
improvements have been made outside the framework of federal 
rulemaking. For example, side impact airbags that protect people's 
heads are likely to become standard in most new passenger vehicles 
during the next few years. Recent research indicates these airbags 
reduce the risk of driver death in side impacts by about 45 percent. 
The widespread adoption of this impressive safety technology is not 
being driven by government regulation but by consumer demand for 
safety.
    Consumer interest in the comparative vehicle safety ratings 
published by NHTSA and the Institute have produced significant 
improvements. A good example involves the front-end crashworthiness 
improvements that have been introduced in response to the Institute's 
offset crash test program. When we began testing cars in 1995, few of 
them performed well enough to earn good ratings. Most were rated 
marginal or poor. As consumers began paying attention to these and 
subsequent passenger vehicle ratings, automakers responded by improving 
frontal crashworthiness to provide better protection in serious frontal 
crashes. In 2002-03, a total of 44 of the 50 vehicles we tested were 
rated good, and the other 6 were acceptable. None was rated marginal or 
poor.
    The Institute's new side impact test program already is prompting 
automakers to improve designs to get good ratings. In particular, plans 
to introduce side impact airbags with head protection have been 
accelerated because automakers know car buying choices will be 
influenced by the ratings produced by this program--and vehicles 
without side impact airbags will not get good ratings.
    As important as marketplace competition is, it is not an 
appropriate or effective way to address all vehicle safety issues. An 
example involves the recent concerns about the harm that SUVs inflict 
on people in cars. So there continues to be a place for safety 
standards, though the standards do not necessarily have to be federally 
mandated. This is especially the case when a timely response is needed 
to a particular problem. Voluntary cooperation among auto manufacturers 
is another approach that recently has been used. The Institute has 
participated in two such initiatives, so I can offer some insights 
about the effectiveness of this approach. First it is important to 
recognize that NHTSA instigated both of the initiatives in which we 
recently participated--one to ensure that injury risks from inflating 
side impact airbags are negligible and the other to develop approaches 
to reducing incompatibilities in collisions between cars and light 
trucks. NHTSA prompted these efforts by challenging the auto 
manufacturers to respond quickly to issues that were generating public 
concerns. This is important because such cooperative initiatives should 
not be viewed as attempts to ``go around'' NHTSA or to circumvent 
federal rulemaking.
    Addressing potential harm from inflating side impact airbags: In 
the wake of injuries and deaths to out-of-position occupants from 
inflating frontal airbags, then-NHTSA Administrator Ricardo Martinez 
challenged automakers in December 1998 to develop test procedures to 
ensure that the side impact airbags then being introduced would not 
have similar harmful side effects. The automakers asked Institute chief 
operating officer Adrian Lund to lead this collaborative effort, which 
included representatives of auto companies, restraint suppliers, 
government agencies, and safety research groups.
    One year later the working group completed the primary phase of its 
work and presented test protocols for assessing out-of-position 
occupant injury risk, especially to children, from side impact airbags. 
All automakers now are designing side airbags to meet the voluntary 
standards established by the working group. The success of this 
collaborative effort is underscored by the fact that, while more and 
more vehicles are being equipped with side impact airbags, there have 
been no reports that they have caused serious injuries when they have 
inflated. And now that the automakers are testing their airbag designs 
using these protocols, NHTSA is taking a more active role by conducting 
its own tests to measure compliance. The agency also is providing 
consumer information about the agreements and which vehicles comply.
    Addressing vehicle incompatibilities in crashes: In February 2003 
major automakers responded to a challenge from NHTSA Administrator 
Jeffrey Runge to address problems caused by the design attributes of 
light trucks that can increase the risks for car occupants with whom 
the light trucks collide. The Institute and the Alliance of Automobile 
Manufacturers are leading this effort. To begin the process, experts 
from around the world presented the latest research on crash 
compatibility at a technical meeting convened in Washington, D.C. Then 
two groups of engineers and other technical experts from car companies 
and safety organizations began meeting on a weekly basis, one group 
addressing incompatibility in front-to-side impacts and the other 
addressing front-to-front crashes. Within a matter of months, the 
working groups had completed the first phase of their work, and all of 
the major automakers have agreed to adopt the performance and design 
requirements developed by these two groups.
    The requirements addressing front-to-side crashes will improve 
occupant head protection in such collisions. In effect, by September 
2009 auto manufacturers will have to equip their vehicles with side 
impact airbags that protect the head. To address incompatibility in 
front-to-front crashes, participating automakers agreed that by 
September 2009 all of their new pickups and SUVs will have front-end 
energy-absorbing structures that overlap the federally mandated bumper 
zone for cars. This is a necessary first step toward reducing the 
chances of override and underride, thus enhancing the ability of the 
front ends of both vehicles to absorb crash energy and keep damage away 
from the occupant compartments. In effect, this particular agreement 
sets geometric design restrictions for the front ends of SUVs and 
pickups--something that would be harder and more complicated to achieve 
through the NHTSA rulemaking process because federal motor vehicle 
safety standards must specify performance, not design, requirements.
    This is not the end of the collaborative effort. In fact, it is 
more like the beginning. The next phase calls for research that should 
lead to additional performance requirements addressing front-to-front 
crash compatibility. A series of barrier and vehicle-to-vehicle crash 
tests will be conducted to develop procedures to measure the 
distribution of crash forces across vehicles' front ends. This should 
lead, in turn, to requirements that will match front-end forces in 
head-on crashes between cars and light trucks. Similarly, research 
planned for side impacts is expected to lead to performance criteria 
for body regions in addition to the head as well as evaluations of 
advanced dummies for use in side impact testing.
    It should not be assumed that achieving these kinds of voluntary 
standards is an easy process. Virtually every major automaker 
participated in the compatibility meetings, and there were frequent 
disagreements. Exchanges sometimes became contentious as we negotiated 
our way through the collaborative process. To achieve consensus we met 
frequently, conducted teleconferences, debated myriad options, and 
revisited thorny issues again and again.
    We at the Institute signed on to this process knowing our 
credibility would be at stake if the outcomes of the collaboration 
turned out to be standards reflecting the lowest common denominators. 
So we were committed to making sure the process led to important safety 
improvements. I believe such improvements will happen, especially as 
the research phases of this initiative progress and we develop new 
knowledge about countermeasures to reduce crash incompatibilities.

                   ESTABLISHING RULEMAKING PRIORITIES

    Even though we can achieve improvements on a voluntary basis, 
federal rulemaking remains indispensable to establish a broad range of 
minimum levels of safety for all vehicles. A question is, who should 
establish NHTSA's rulemaking priorities? Should it be Congress with 
help from safety advocates? Or should the agency set its own 
priorities? Ideally NHTSA should have both the commitment and the 
technical expertise to set priorities and complete the rulemaking 
process by issuing standards. But history is mixed in this regard. Few 
NHTSA administrators have been knowledgeable about highway safety when 
they were appointed, so lags to accommodate learning frequently have 
slowed the agency's progress. Plus the political leadership sometimes 
has been ideologically opposed to rulemaking, which has further slowed 
progress toward vehicle safety improvements.
    A good example involves the rule for side impact protection. 
Federal Motor Vehicle Safety Standard (FMVSS) 214, first issued in 
1970, was an adaptation of internal General Motors requirements for 
beams in car doors to resist intrusion. Somewhat later NHTSA conducted 
extensive research aimed at upgrading the standard to include crash 
testing with instrumented dummies. This research increased knowledge 
about vehicle performance in side impacts, but largely for political 
reasons NHTSA was not pursuing many new rules during the 1980s. 
Upgrading side impact requirements was put on hold. In November 1989 
the newly appointed administrator, Jerry Curry, responded to what was 
by then strong political pressure to move forward with an upgrade, and 
he committed to do so early in his tenure. An upgraded rule was issued 
within a year of his arrival at NHTSA. Because of continuing technical 
controversy about the adequacy of the new side impact test dummy, Curry 
acknowledged when he issued the rule in October 1990 that it was not 
perfect. But adding that waiting for a perfect rule would only delay 
the timely establishment of a good rule, he said he expected the agency 
to pursue further upgrades as new research became available. Fourteen 
years later, NHTSA finally is close to proposing an upgrade to FMVSS 
214 that will, in effect, require head protection. In the meantime, the 
Institute's side impact crashworthiness program and the voluntary 
agreement on front-to-side compatibility already are accelerating the 
installation of side airbags that protect people's heads. By the time 
any FMVSS 214 revisions can take effect, virtually all cars will afford 
such protection. So in this case marketplace demands and voluntary 
standards have superceded agency action.
    As this example indicates, the rulemaking process has not always 
proceeded as expeditiously as it should. Sometimes this is because the 
agency's leadership has failed, and sometimes it is because Congress 
has changed the agency's own priorities. I believe NHTSA's present 
administrator, Jeff Runge, is competent, knowledgeable, and committed. 
Therefore, I believe extensive Congressional dictates for new 
rulemaking are not needed. Any dictates should be confined to issues 
that have been outstanding for a long time. And even then, Congress 
should ensure that what it legislates NHTSA to undertake is feasible 
and based on sound science and adequate data.
    One longstanding issue is roof strength. The relevant standard 
(FMVSS 216) is essentially unchanged since it was issued in 1971, even 
though various groups have been advocating an upgrade for a long time. 
In response, this committee is considering legislation that would 
instruct NHTSA to consider setting new roof strength standards ``based 
on dynamic tests that realistically duplicate the actual forces 
transmitted to a passenger motor vehicle during an on-roof rollover 
crash'' and to consider requiring safety technologies and design 
improvements that would help to protect people in such crashes.
    The Institute supports efforts to reduce the approximately 10,000 
deaths and 20,000 serious injuries that occur each year in rollover 
crashes. But in the context of vehicle design changes intended to 
reduce this toll, it is important to remember that about 70 percent of 
the 10,000 annual deaths in rollovers involve unbelted occupants. The 
precise contribution of vehicle roof strength to the deaths and 
injuries in rollovers is not fully understood, in part because FMVSS 
216 (like all federal safety standards) specifies minimum performance 
levels and many automakers are designing their vehicles so that the 
strength of their roofs significantly exceed the federally mandated 
minimum. Plus the
    Institute's front and side crash test programs are producing 
stronger roofs on some vehicles. For example, the roof of the 2004 
model Ford F-150 pickup truck is likely to be stronger than the roof on 
the 2001 model. This is because the current model's occupant 
compartment was strengthened to improve the pickup truck's performance 
in the Institute's 40 mph frontal offset crash test.
    What this means is that we do not know how strong the roofs are in 
the current vehicle fleet. Because we do not know how strong roofs are 
today, relative to the existing standard, it is difficult to estimate 
the benefits of a new standard. Another issue involves the relationship 
between roof strength and real-world crash outcomes. As NHTSA has 
noted, ``vehicles that perform well in roof crush tests do not appear 
to better protect occupants from more severe roof intrusion in real-
world crashes.'' Yet another issue involves the difficulty in making 
dynamic tests sufficiently repeatable for them to be feasible as part 
of a federal standard. These issues must be resolved before NHTSA can 
issue a rule requiring dynamic tests. So even though upgrading FMVSS 
216 may be long overdue, Congress should not mandate a timetable or an 
outcome (for example, a dynamic test) that precludes NHTSA from 
conducting the research that is needed to produce a sound rule.

 CONCLUSION: VOLUNTARY AND REGULATORY APPROACHES COMPLEMENT EACH OTHER

    Vehicle safety is being improved through regulation, consumer 
information, and voluntary standards. This mix should mean that 
important safety improvements will be achieved much faster than when we 
relied solely on the slow and deliberative regulatory process. Federal 
standards set minimum levels of safety, but in some areas the 
manufacturers are designing their vehicles substantially beyond these 
minimums to earn good ratings in consumer crash test programs. Not 
every vehicle safety issue can be addressed this way, of course. For 
example, it is hard to imagine consumers demanding vehicles that are 
less aggressive, or harmful, to people in other vehicles. So another 
alternative is needed, especially when changes need to be made quickly. 
Then the best approach may be for automakers to collaborate to set 
voluntary safety standards. The main reason the Institute has signed on 
to collaborative approaches is that sometimes they can offer a faster 
track toward improvements than federal rulemaking would allow.
    Voluntary approaches do not replace rulemaking, which is and will 
continue to be a crucial NHTSA function. While the agency need not 
address every issue with a standard, it should have in place a long-
term program to review and upgrade (or in some cases to eliminate) its 
rules. If the agency stays on such a course, there should be no need 
for Congressional dictates on rulemaking.
    What is important to recognize is the range of options available 
today to achieve vehicle safety improvements. The wisest course is to 
proceed on a case-by-case basis, making full use of the most 
advantageous approach in any given situation.

    Mr. Stearns. I thank the gentleman.
    Mr. Bonin.

                    STATEMENT OF JASON BONIN

    Mr. Bonin. Mr. Chairman and members of the subcommittee, I 
am Jason Bonin, Vice President of Lighting Technology for Hella 
North America. I thank you for the opportunity to offer 
testimony before you today.
    Hella North America is headquartered in Plymouth, Michigan. 
We maintain and operate manufacturing of lighting electronics 
in Flora, Illinois, Peachtree, Georgia, York, South Carolina. 
Hella employs 3,000 people in the United States and Mexico and 
is a U.S. subsidiary of Hella KG Hueck & Company of Lippstadt 
in Germany.
    Hella is one of the world's leading manufacturers of 
automobile lighting and electronics and Hella North America is 
active in several automotive product trade associations, 
including the Motor and Equipment Manufacturing Association 
referred to as MEMA; the Transportation Safety Equipment 
Institution, TSEI; and the Motor Vehicle Lighting Council, 
MVLC, each of which supports the views expressed in my prepared 
testimony.
    Hella welcomes the privilege to comment on the following 
issues which constitute fundamental and urgent matters to the 
U.S. automotive industry.
    No. 1, the rewrite of the Federal motor vehicle safety 
standard FMVSS 108, the lighting reflective devices and 
associated equipment which sets forth the minimum safety 
performance standards applicable to all motor vehicles and 
automotive lighting equipment in the United States. And second, 
NHTSA's enforcement of FMVSS 108 with respect to imported 
noncompliant product.
    Regarding the rewrite, Hella North America is very 
concerned about the status and current lack of priority being 
placed on NHTSA on the long-awaited rewrite of FMVSS 108. 
Standard 108 sets forth the minimum performance requirements 
for lighting and use in the United States and it's fair to say 
that more manufacturers are regulated by Standard 108 than any 
other standard. Indeed,the regulated and otherwise affected 
parties under this standard including manufacturers of all 
types of vehicles, producers of a broad range of lighting 
reflective products, component suppliers such as light source 
manufacturers, test equipment, laboratory entities and research 
organizations.
    As one of the first standards issued by the agency more 
than 30 years ago, Standard 108 over the years has been amended 
frequently through a process that is essentially unplanned 
engraftment. Due to these piecemeal and fragmented amendments 
it is very difficult for all lighting equipment suppliers to 
find all provisions within and for the code and properly 
interpret and develop clear and consistent design compliance 
guidelines.
    In addition, it's very difficult to be confident that all 
requirements are met for the products that are sold and used on 
the roads in the United States. It should come as no surprise, 
therefore, that NHTSA has issued more interpretations on this 
standard than any other standard. Once senior NHTSA official is 
on record describing this standard as incomprehensible.
    The write of Standard 108 will have significant benefits 
for the agency by lowering the burden of issuing the large 
number of legal interpretations and also by simplifying the 
monitoring enforcing the standard. It has been several years 
since NHTSA first indicated that it would rewrite the Standard 
108, however, agency staff indicated during a July 31, 2003 
industry meeting and again during a November 11, 2003 meeting, 
that this project is not being given priority by NHTSA. These 
reports disappoint a very significant segment of the automotive 
parts industry.
    To conclude on this point, Standard 108 is an important 
regulation, very much in need of an editing process that will 
give coherence to its meaning. The auto lighting technologies 
are moving very quickly and it is important to Hella and the 
lighting industry that the U.S. regulations continue to reflect 
the state-of-the-art in the necessary and advanced technologies 
and safety features in lighting on vehicles.
    We seek your interest and support that we complete the 
rewrite of Standard 108 so that rulemaking to accomplish the 
safety enhancing result can be initiated as soon as possible.
    The second issue that is very significant to the industry 
is one of noncompliant product entering the market. U.S. 
autoparts manufacturers are facing a growing tide of imports of 
motor vehicle products primarily in the lighting sector that do 
not meet U.S. Federal motor vehicle safety standards in 108, in 
particular. These imports unfairly compete against the products 
of legitimate U.S. manufacturers and more importantly poses 
serious and escalating risk to highway safety in the American 
public.
    Many of these imported noncomplying lighting products, 
particularly taillights, red or amber in nature, are 
manufactured to precisely mirror or misrepresent by doing so 
legitimate products that comply and up to and including the 
placement of U.S. DOT and SAE markings on the product and I've 
brought a couple of those with me today.
    Legitimate, U.S. manufacturers have invested millions of 
dollars in developing safe products while foreign manufacturers 
of unsafe, knock off products shirk their responsibility. 
Although it's viewed that China is the primary source, it is 
not the only one. And despite previous attempts to raise this 
issue with NHTSA, the auto parts industry has not received any 
assurance that the agency will devote the necessary resources 
to combat this growing problem.
    The industry continues to engage in its own efforts to 
track and monitor such noncompliant products by, for example, 
conducting round robin testing, but we believe that these 
efforts must be combined with stronger detection and 
enforcement efforts by NHTSA and stiffer penalties for those 
found selling unsafe and noncompliant products.
    NHTSA has successfully conducted a number of compliant-
related investigations in this area. However, it's only a 
fraction of violations. NHTSA's standards enforcement arm for 
the agency's standard is understaffed and the agency appears to 
have relegated enforcement to the back burner. We seek help in 
your focus that NHTSA's attention on this important safety 
problem to assure both compliant American manufacturers are not 
unfairly forced out of business and that we continue to provide 
safety product to the American public.
    The U.S. automotive lighting industry estimates that 
sufficient monitoring and enforcement can achieve if NHTSA's 
Office of Vehicle Safety Compliance engages an additional two 
engineers to work exclusively on noncompliant product.
    Hella would also like to publicly thank Congressman Fred 
Upton of Michigan and Congressman Dale Kildey of Michigan who 
have sought to assist the industry on noncompliant product 
issues and who have sent the letter as the House Auto Caucus 
Co-Chairs to Administrator Runge in February.
    This concludes my testimony. I thank you for the 
opportunity to appear and give our voice for these very 
important and critical issues facing the lighting industry.
    [The prepared statement of Jason Bonin follows:]

Prepared Statement of Jason Bonin, Vice President, Lighting Technology, 
                       Hella North America, Inc.

    Mr. Chairman and members of the subcommittee, I am Jason Bonin, 
Vice President, Lighting Technology, Hella North America, Inc. My 
company is located in four states--Michigan, Illinois, South Carolina 
and Georgia and we are the US subsidiary of Hella KG Hueck & Co of 
Lippstadt, Germany. Hella is one of the world's leading manufacturers 
of automotive headlamps and electronics. We have been in the US since 
1978. Hella North America is active in several automotive products 
trade associations, including the Motor and Equipment Manufacturers 
Association, the Transportation Safety Equipment Institute (TSEI) and 
the Motor Vehicle Lighting Council (MVLC) <SUP>1</SUP>, each of which 
supports the views expressed in my prepared testimony. I am accompanied 
here today by outside counsel for the Motor and Equipment Manufacturers 
Association, Christopher Grigorian.
---------------------------------------------------------------------------
    \1\ Founded in 1904, the Motor & Equipment Manufacturers 
Association (MEMA) exclusively represents and serves manufacturers of 
motor vehicle components, tools and equipment, automotive chemicals and 
related products used in the production, repair and maintenance of all 
classes of motor vehicles. MEMA represents more than 700 member and 
affiliated companies. TSEI, a product line group of MEMA, is a non-
profit trade association representing North American manufacturers of 
vehicle safety equipment, including rearview mirrors, supplemental 
information devices, headlighting and signal lighting products, reflex 
reflectors, retroreflective conspicuity tape, emergency warning 
triangles, emergency lighting and other safety equipment for truck, 
trailer, passenger, emergency service and related vehicles. The MVLC, 
consisting of the automotive industry's leading lighting companies, was 
created to study, assess and build consensus on real world automotive 
lighting issues that will meet the common needs of motorists, 
pedestrians, government and industry. The MVLC is a product line group 
of MEMA.
---------------------------------------------------------------------------
    Thousands of automotive components manufacturers contribute to the 
daily lives of America's citizens. Without parts, component and systems 
suppliers, today's vehicles wouldn't be as safe, environmentally 
friendly, comfortable, high-tech or useful. Overall, the U.S. 
automotive supplier industry employs approximately two million workers 
with operations and facilities in nearly all 50 states. Sales in the 
U.S. automotive supplier industry totaled approximately $370 billion in 
2002. The industry remains a primary supporter of small manufacturers 
in the United States with each average Tier One (selling direct to a 
motor vehicle manufacturer) original equipment supplier representing a 
base of 1,300 lower-tier suppliers and parts manufacturers.
    Hella welcomes the privilege and opportunity to comment on the 
following issues, which constitute fundamental and urgent matters to 
the US automotive industry:

1. The rewrite of Federal Motor Vehicle Safety Standard (FMVSS) No. 
        108, ``Lighting, reflective devices, and associated 
        equipment,'' which sets forth minimum safety performance 
        standards applicable to all motor vehicles and automotive 
        lighting equipment in the United States.
2. NHTSA's enforcement of FMVSS 108 in respect of imported non-
        compliant product.

                           FMVSS 108 REWRITE

    Hella North America is very concerned about the status and lack of 
priority being placed by NHTSA on the long-awaited rewrite of FMVSS 
108.
    Standard 108 sets forth safety performance standards for all 
automotive lighting in use in the United States. It is fair to say that 
more manufacturers are regulated by FMVSS 108 than any other FMVSS. 
Indeed, the regulated or otherwise affected parties under FMVSS 108 
include manufacturers of all types of motor vehicles, producers of a 
broad range of lighting and reflective products, component suppliers 
such as light source manufacturers, test equipment and laboratory 
entities, and research organizations.
    One of the first standards issued by the agency more than 30 years 
ago, Standard 108 over the years has been amended frequently through a 
process that can fairly be characterized as unplanned engraftment. As a 
result of these piecemeal amendments, Standard 108 has become extremely 
difficult to understand and interpret. It should come as no surprise, 
therefore, that NHTSA has issued more interpretations of this Standard 
than any other standard. Due to the current ambiguous and arbitrary 
organization of the current document, it is very difficult for all 
lighting equipment suppliers to properly interpret and develop clear 
and consistent design compliance guidelines for their products that are 
to be sold in the United States market. There have also been many 
updates in the SAE standards referenced in the regulation that are 
critical and pertinent to the rewrite of the FMVSS 108 document. One 
senior NHTSA official is on record describing this standard as 
``incomprehensible.''
    It has been several years since NHTSA first indicated that it would 
rewrite FMVSS 108 to make it more understandable. However, agency staff 
indicated during a July 31, 2003 industry meeting, and again during a 
November 11, 2003 meeting, that this project was not being given 
priority or even current attention by NHTSA. These reports were 
extremely disappointing to a very significant segment of the industry. 
Based on our understanding, the proposed rewrite of FMVSS 108 promises 
to be significantly more understandable and organized for information 
referencing and retrieval.
    The rewrite of FMVSS 108 will also have significant collateral 
benefits to the agency. It will likely reduce the significant burden 
upon the agency of issuing large numbers of legal interpretations, and 
also simplify the agency's job of monitoring and enforcing the 
standard.
    To conclude on this point, FMVSS 108 is an important regulation 
very much in need of an ordering and editing process that will give 
coherence to its meaning and wide ranging applications. Vehicle 
lighting technologies are moving very quickly and it is important to 
Hella and the lighting industry that US regulations continue to reflect 
the state-of-the-art in vehicle lighting systems. We seek your interest 
in and support of the 108 re-write process so that rulemaking to 
accomplish this safety-enhancing result can be initiated as soon as 
possible. It is only through understanding and consistent application 
of this standard that lighting safety will be insured.

                     NON-COMPLIANT IMPORTED PRODUCT

    The second issue I would like to address is the problem of 
importation of non-compliant lighting products into the United States.
    U.S. auto parts manufacturers are facing a growing tide of imports 
of motor vehicle products, primarily in the lighting sector, that do 
not meet U.S. Federal Motor Vehicle Safety Standards, and FMVSS 108 in 
particular. These imports unfairly compete against the products of 
legitimate U.S. manufacturers and, more importantly, pose a serious and 
escalating risk to highway safety and to the American public. While 
this problem is prevalent across the entire array of automotive 
components, it has been particularly significant in the automotive 
lighting product sector, affecting North American manufacturers of 
vehicle safety equipment, including head lighting and signal lighting 
products, emergency warning triangles and other safety equipment for 
truck, trailer, passenger, emergency service and related vehicles.
    Many of these imported non-compliant lighting products 
(particularly taillights, red and amber lights) are manufactured to 
precisely mirror legitimate products that comply with FMVSS, up to and 
including the placement of ``USDOT'' and ``SAE'' markings on the non-
compliant products. Legitimate U.S. manufacturers have invested 
millions of dollars in developing safe products, while foreign 
manufacturers of unsafe, ``knock-off'' products shirk this 
responsibility. China is the primary source of non-compliant motor 
vehicle lighting products being sent into the U.S. market, but it is 
not the only source. Once manufactured in an overseas plant, the 
products are subsequently imported into the country without their 
packaging and then packaged and labeled in the United States before 
being sold.
    Certain U.S. manufacturers have sought redress under NHTSA 
regulations to address this problem, and have obtained positive results 
in a few cases. We believe that these efforts must be combined with 
stronger detection and enforcement efforts by NHTSA and stiffer 
penalties for those found selling unsafe and non-compliant products.
    Despite previous attempts to raise the prominence and visibility of 
this issue within NHTSA, the industry has not received any assurances 
that the agency will devote the necessary resources and staff to combat 
this growing problem. Although NHTSA has conducted a number of 
compliance-related investigations in this area since 1999 (15 involving 
replacement visibility and signaling devices that were imported from 
overseas markets), these cases represent a small fraction of all of the 
existing product violations. One such case, completed in June 2003, 
resulted in a $650,000 civil penalty for the American Products Company 
(APC). APC was found guilty of manufacturing, certifying and selling 
replacement lamps that were non-compliant. According to NHTSA's May 16, 
2003 press release, APC had for several years sold various models of 
noncomplying replacement tail lamps, known as ``clear'' tail lamps or 
``Eurotail'' lamps. In some cases, the non-complying models replaced 
red lamps and reflectors with clear ones. In other cases, there were 
missing side marker lamps or reflectors. APC also sold other 
noncompliant replacement lighting equipment, including clear corner and 
bumper lenses and high-intensity discharge (HID) conversion kits. This 
equipment was sold by a variety of retailers, and had been the subject 
of four recalls covering thousands of parts. This represents a 
successful case, but it is only one in a veritable ocean of thousands 
of similar violations.
    The industry has been engaged in its own efforts to track and 
monitor such non-compliant products by, for example, conducting round-
robin testing, but the industry's efforts must be supplemented by 
NHTSA's enforcement muscle. However, NHTSA's standards enforcement arm 
for the agency's lighting safety standard is understaffed and, more 
importantly, the agency appears to have relegated enforcement in this 
important area of vehicular visibility and signaling to a ``back 
burner.'' As a consequence, an important segment of American industry--
comprised of companies such as Hella North America who have committed 
the necessary product costs to assure compliance with the NHTSA 
lighting standard and improved consumer safety--is being overwhelmed 
and undermined by offshore competitors that seek only to earn a quick 
buck at the expense of the safety of the American consumer.
    Please understand that Hella and other U.S. manufacturers welcome 
competition from any company, domestic or foreign, that complies with 
the U.S. laws applicable to all automotive lighting competitors doing 
business in this country. That, obviously, is a driving force and great 
strength of our free enterprise economy. But compliance with NHTSA 
safety standards comes at a price that many offshore competitors and 
their importers are unwilling to pay. These companies enjoy the benefit 
of the American market without the burden of its laws.
    We seek your help and intervention to focus NHTSA's attention on 
this important safety problem to assure both that compliant American 
manufacturers are not unfairly forced out of business by unscrupulous 
competitors who consistently operate well outside the law, and that the 
safety of the American motoring public is preserved.
    The solution to this long-standing problem is simple: NHTSA should 
dedicate additional resources to investigating and prosecuting 
offending manufacturers and importers. As we understand it, only two 
individuals within NHTSA are presently directed to this function, 
namely one full-time engineer and a direct supervisor. The United 
States automotive lighting trade associations--the Transportation 
Safety Equipment Institute and the Motor Vehicle Lighting Council--have 
estimated that sufficient monitoring and enforcement can be achieved if 
NHTSA's Office of Vehicle Safety Compliance engages two additional 
staff engineers to work exclusively in the area of noncompliant 
products. The Associations estimate that this investment in additional 
personnel would cost less than $200,000 annually, including overhead 
and administrative expenses. We believe this is a small price to pay to 
reduce the serious commercial losses to U.S. businesses and the safety 
hazards on the nation's highways that are caused by these practices. 
Thank you for the opportunity to appear and give our voice for these 
important issues facing the lighting industry in the US.

    Mr. Stearns. I thank the gentleman and I have the 
prerogative. I'll start with my questions.
    Mr. Strassberger, your Alliance of Auto Manufacturers, I 
guess everybody except Honda, is that correct, pretty much, who 
is not in your alliance, I'm just curious?
    Mr. Strassberger. The most notable exceptions are Honda and 
Nissan.
    Mr. Stearns. Nissan, okay. Well, you've heard NHTSA 
Chairman speak and you know about the McCain bill and that we 
have the ability to reauthorize NHTSA as a clean bill or we 
could adopt some of the mandates that have been suggested by 
Mr. Pittle who supports the McCain bill and you folks don't 
support it.
    Now it sounds like Mr. O'Neill, you do not support the 
mandates in the McCain bill, that's correct.
    And Mr. Bonin, you support the McCain bill mandates, part 
of the NHTSA reauthorization, just yes or no?
    Mr. Bonin. Yes.
    Mr. Stearns. And Mr. Shea, no.
    Mr. Shea. No, we do not.
    Mr. Stearns. So that's where we seem to settle here and as 
Mr. Barton, our Chairman, new Chairman, has talked about, we're 
trying to wrestle ourselves with the reauthorization of a clean 
bill or not or just to let the process work and so I think it's 
incumbent, Mr. Strassberger, for you to tell me these voluntary 
standards that were developed, I guess you and Mr. O'Neill's 
group, what will that cost you and then give me if the Senate 
bill is passed, what would it cost you and what would be in 
terms of quantity, quantify it rather, so that I can get an 
idea in terms of impact this is going to have on the automobile 
manufacturers, the way they're moving now and in effect, that 
the bill that Senator McCain has is implemented? Just a short 
amount of time, it's a big question.
    Mr. Strassberger. Sure. In our collective deliberations, we 
did not talk about cost. We did not consider cost. I am sure 
that that was a concern or a point of analysis that was 
undertaken by each of the individual manufacturers when they 
considered whether or not to opt into this program. Needless to 
say, the cost will be in the billions and the cost of the 
McCain legislation, the Senate legislation, would also be in 
the billions, but it would be a cost that we can't afford to do 
twice. And so if that piece of legislation were to pass, it's 
quite likely that a lot of our voluntary efforts would have to 
cease as we wait for NHTSA to promulgate rules so that we would 
know what we would have to do under those new rules.
    Mr. Stearns. Could you make the argument that if you saw 
the possibility of that bill passing, that you would stop what 
you're doing now?
    Mr. Strassberger. Absolutely, yes.
    Mr. Stearns. Okay. And then if you stopped it, would that 
delay possibly you doing any more initiatives that might work 
toward safety?
    Mr. Strassberger. It would absolutely stall any other 
voluntary efforts that we have on-going right now. It would 
solve the industry's----
    Mr. Stearns. Mr. O'Neill, any other comments you want to 
make and then I'm going to ask Mr. Pittle.
    Mr. O'Neill. Well, when it comes to the compatibility 
initiative and costs, obviously, one of the things that this 
initiative will drive is the installation of side impact 
airbags with head protection. There's a cost associated with 
that technology, but that technology will save a lot of lives.
    Front to front design changes involve changing the front 
end architecture of a number of light trucks and SUVs. The cost 
of that will be significant, but it will not be as great as it 
need be if it was an accelerated approach because it can be 
done during the normal redesign cycle.
    I think the concern we have with mandates is not so much 
that Congress is mandating certain kinds of rules, it's the 
fact that they're dictating outcomes and deadlines.
    Mr. Stearns. Okay.
    Mr. O'Neill. I don't think that's appropriate.
    Mr. Stearns. Now, Mr. Pittle, your job is to convince the 
American public that these mandates and even Mr. Runge pointed 
out that are not viable, not based upon good science, your job 
is to convince the American public that all these manufacturers 
should implement these mandates, so the floor is yours.
    Mr. Pittle. Take it away. First, I need to let you in on an 
almost forgotten secret. From 1973 to 1982, I served as 
Commissioner of the Consumer Product Safety Commission, so I 
know firsthand during those years the complicated interaction 
between cost and benefits of risks and hazards, the role of 
personal behavior, the use of voluntary standards, mandatory 
standards, information programs, etcetera.
    Mr. Stearns. Are you saying you believe mandatory works 
better?
    Mr. Pittle. I'm saying----
    Mr. Stearns. Congressional mandates?
    Mr. Pittle. I would agree with my colleague here that 
there's a mix and there's a time for mandatory and there's a 
time for voluntary----
    Mr. Stearns. There's a proper blend.
    Mr. Pittle. There's a proper blend. But I must say that the 
administration has, in my view, mischaracterized the bill that 
you see before you. There are not mandates for technology. 
Every one of these provisions except for changing the 8 second 
time for the seat belt reminded which I hope is not 
controversial, all the other provisions in there asked for 
performance results to reduce complete or partial occupant 
ejection shall consider ejection mitigation capabilities, shall 
upgrade to reduce occupant ejection. I mean I can just go down 
the list. And the reason I say that is because it's to be 
analyzing back over prevention technology----
    Mr. Stearns. So you're saying it's feasible to implement 
this and you don't agree with----
    Mr. Pittle. What this really does is to put the issue on 
their agenda and by the way, Dr. Runge sat here and said here 
are our priority areas, rollover and side impact--well, that's 
what this is dealing with. It's dealing with the complex issues 
of rollover and side impact injuries and that is the bulk of 
these issues.
    And I must say that the question about whether or not it's 
a mandated deadline, yes, there are deadlines in there. You 
need a deadline, but NHTSA can always come back to Congress and 
ask for more time. They do this all the time. It could 
terminate the rulemaking like it did in 1994 to a congressional 
mandate and it can adjust the deadline. This is not an attempt, 
remember, we want an outcome from NHTSA that gets all these 
things done in a cost-effective technologically sound basis 
because if they aren't technologically sound, they'll be 
stopped. Somebody will take them to Court. I wouldn't want 
that. That's not the desired outcome. The desired outcome is to 
get these issues on their agenda so that 4 or 5 years from now 
when Dr. Runge may not be the Administrator and who knows who 
will be in there, that the staff is working on a congressional 
mandate, not on something that was done for today and may 
change tomorrow.
    Mr. Stearns. My time has expired. The gentlelady, ranking 
member.
    Ms. Schakowsky. Thank you. Mr. O'Neill, do you represent 
the insurance industry?
    Mr. O'Neill. I don't represent the insurance industry, but 
we are funded entirely by the automobile insurers.
    Ms. Schakowsky. Because Allstate Insurance and State Farm 
Insurance were in my office I guess it was yesterday, along 
with representatives of all the consumer organizations, all of 
whom support the Senate bill, in support of the legislation, so 
you're clearly taking a different position from Allstate and 
State Farm?
    Mr. O'Neill. We're taking a position based on data and 
research that many of these mandates----
    Ms. Schakowsky. But you don't poll your members, I'm trying 
to understand.
    Mr. O'Neill. We do not poll our members, no.
    Ms. Schakowsky. I see. Dr. Pittle is really the only person 
here among all those who have testified who has made the case 
for the mandates. I want to give you more time to talk, to make 
that case and to talk about whatever you want.
    Mr. Pittle. Well, that's really nice, thank you. I 
appreciate that. I was prepared for something else. I'd like to 
point out that this is not a new issue in which somebody has 
dreamed up a cockamamie fix. Rollover has been on everybody's 
mind now since at least 1973 when NHTSA came up and announced 
in the Federal Register they were going to work on it. And here 
it is 31 years later and it is still a growing problem. So it 
is our view that by putting a rollover resistance and a 
rollover crashworthy standard on their agenda, that they will--
and by the way, it is already on their agenda. They said it's 
one of their top priority items. So by having it on their 
agenda and a congressional mandate, we've seen over the years 
that NHTSA responds better to direction from Congress than when 
it sets its own direction.
    Ms. Schakowsky. This is the view of all of the consumer, 
the organizations that represent consumer interest.
    Mr. Pittle. It is Consumers Union's view and I'm sure it's 
the view of colleagues that I've spoken with as well as others. 
The use of a mandatory standard is appropriate when, and a 
congressional direction is appropriate when the agenda is not 
getting to it in a timely way and I think 31 years is what I 
would call not in a timely way.
    When I was at the CPSC there were times when Congress gave 
us mandates and it basically directed us to solve a problem 
that they saw and that we were not considering that important 
and I would take the direction from Congress and I consider 
Congress is speaking for the people and I consider that to be 
an appropriate way. You oversee this Agency. You oversee all 
these Federal safety agencies and it is your mandate that they 
follow it as your legislation that they're trying to enact and 
I'm trying to convince you that they aren't following that 
mandate in a timely and effective way.
    That's our position.
    Ms. Schakowsky. You have in your testimony on the issue of 
windows, the window safety, that Dr. Runge had said that this 
was a problem that would just take care of itself or would just 
go away. Could you comment on the issue of safety power 
windows?
    Mr. Pittle. I must say I'm really surprised by how that has 
stuck in the marketplace. Many manufacturers have a decade ago 
stop using these dangerous switches and several manufacturers, 
we rate cars every year and we just bought 50 some odd brand 
new 2004 models and several of them had these unsafe switches. 
So manufacturers are still using them. There's no design 
benefit, there's no cost benefit. It sort of makes me scratch 
my head why they would continue to families at risk and have 
some child be strangled to death by a window that goes up and 
closes on their neck.
    So in our asking and having a provision in here that that 
be resolved by a standard, that's a standard that NHTSA's been 
considering for a number of years and it just hasn't been 
finished. So this isn't going to take a lot of research. It's 
not going to take a lot of heavy insight and research on the 
part of the agency staff. This is something that needs to be 
just completed. I would think of this as--I would hope that 
this would be like an automatic. I don't understand why the 
agency's leader would say I'm going to let this take care of 
itself. It hasn't taken care of itself, even though kids have 
been strangled by this.
    Ms. Schakowsky. How do you respond to the issue of the cost 
to the industry? Clearly, we're interested in saving lives, but 
we are also interested in----
    Mr. Pittle. I absolutely agree, so I'm going to go back to 
my former regulator's mindset. There's no standard that's ever 
going to get on the books that doesn't pass a cost benefit 
muster and the standards that NHTSA has issued recently have 
passed a cost benefit muster and it would never be able to 
implement something in the future that didn't have a reasonable 
cost for the benefits that are acquired.
    But the fact of the matter is when we're talking about 
billions to the industry, the American public and society is 
absorbing a $260 billion cost each year from these injuries. So 
I know that there is a tradeoff here and I know everything 
won't happen instantly, but we do need to get the agency's 
attention to make these a higher priority item and that it will 
stick there long after Dr. Runge is--hopefully, he stays there 
a long time, but when he's gone.
    Mr. Stearns. Mr. Bass.
    Mr. Bass. Thank you, Mr. Chairman. Dr. Pittle, my family 
and I have been subscribers to Consumer Reports for years and 
years. I don't think I'd ever buy anything without looking at 
that magazine.
    Mr. Pittle. Thank you. Neither would I.
    Mr. Bass. And I love some of the--I won't go into it, but 
it's just a great magazine. And I'm maintaining an open mind 
about the issue of accepting the Senate version of NHTSA's 
reauthorization.
    It seems to me that if you really want to make cars safe, 
you ought--what about some of the more draconian changes, like 
limiting a car's speed or requiring helmets, that kind of 
thing? Do you have any comments on those kinds of--it would 
really change the safety.
    Mr. Pittle. You mean helmets to car occupants?
    Mr. Bass. Yes.
    Mr. Pittle. Well, Consumer Reports doesn't dictate what 
consumers buy. It just gives them information and our whole 
purpose is to make sure that they have objective and complete 
information so they can make that choice rationally. Consumers 
can't make a choice rationally about how a vehicle will handle 
in an emergency. You can't walk into a showroom and see. You 
could now on those models that offer electronic stability 
control, our advice is that that's a desirable feature and you 
should buy it, but on our test track they're not all alike, 
just like washing machines and refrigerators aren't all alike. 
Some of them work far better than others. So we have a 
provision--there's a provision in this S. 1072 that would have 
NHTSA evaluate electronic stability control so that consumers 
would know which ones work better. Some of them may be actually 
more preferable than others. Some of them may not do as good a 
job. So all of this comes down to the consumer making a choice 
and the consumer having to make a choice on information they 
can rely on and trust. I expect that information to come from 
an agency--NHTSA is the only agency that stands between the 
consumer and an unsafe vehicle. They're the ones that we rely 
on. They're the ones that Congress gave us as the overseer of 
the marketplace with respect to safety and I would expect them 
to--I would like for them to take on those challenges.
    Mr. Bass. Does Consumers Union oppose a mandatory helmet 
law for automobile occupants?
    Mr. Pittle. I think we would probably question it as 
questionable.
    Mr. Bass. You don't think it would improve safety?
    Mr. Pittle. I don't think so, no.
    Mr. Bass. How about limiting speed? I see here, safety 
belts, alcohol speed, road conditions are the four factors that 
contribute to fatalities.
    Mr. Pittle. Those are the factors that contribute to an 
accident, but when it contributes to a fatality it has 
something to do with whether or not if the vehicle rolls over 
because of the way it's designed, its suspension, its tires, 
etcetera and its center of gravity height. If it rolls over, 
that's not listed on there. That has to do with the automobile 
designer's decision about how they're going to market the car 
and how they're going to design it. So it does affect whether 
or not it rolls over. Then you have to decide once you're 
rolling over, are you in an environment in which you're 
protected? Will the roof crush in? Will the windshield go out 
and you go out there? Will the seat belt retain you?
    I mean another one of the provisions in here is to have 
seat belts with pretensioners. That's a very important thing in 
a rollover because seat belts don't always hold people in a 
rollover and they can slip out of them or they're partially 
ejected which is actually too gruesome to describe.
    Mr. Bass. I yield back, Mr. Chairman.
    Mr. Stearns. Thank the gentleman. Distinguished Ranking 
Member Dingell.
    Mr. Dingell. Mr. Chairman, thank you for your courtesy.
    Dr. Pittle, I've been reading the legislation from the 
Senate and if I read it correctly it would require a series of 
agency actions. First of all, three agency actions would have 
to be completed within 1 year of enactment. One would have to 
be completed 2 years after enactment. Four agency actions in 
2005. Eight agency actions in 2006. Eight agency actions to be 
completed in 207. One rule or agency action to be completed in 
2008. Now I haven't totaled that up, but that's a substantial 
number of agency actions that would have to be taken.
    Am I correct in that?
    Mr. Pittle. I'm going to----
    Mr. Dingell. Yes or no?
    Mr. Pittle. I don't know, but I'll say yes.
    Mr. Dingell. Now your agency or Consumers Union suggested 
that there should be a significantly larger number of agency 
actions completed, did you not?
    Mr. Pittle. No, these are the ones that we support here.
    Mr. Dingell. Didn't you suggest a number of additional 
other changes that you supported?
    Mr. Pittle. I'm sorry, no, other than what's in S. 1072.
    Mr. Dingell. Now, gentlemen, do you agree with what I've 
said? To the other members of the panel, all agree? Does 
anybody there disagree?
    All right, I note then and this raises to my mind a very 
interesting question. Perhaps Mr. Strassberger, you could tell 
us how many of these agency actions would require a major or 
full redesign of a vehicle?
    Mr. Strassberger. Quite a few of them would.
    Mr. Dingell. How many?
    Mr. Strassberger. Off the top of my head, I'm going to say 
of the 10 or so rulemakings that we believe the Act calls for, 
probably at least half if not more.
    Mr. Dingell. Now these rulemakings would come at different 
times so the manufacturer would be compelled then to redesign 
vehicles according to congressional whim, is that not right?
    Mr. Strassberger. They would come at different times, they 
would overlap.
    Mr. Dingell. What would that do to the cost of 
manufacturing vehicles?
    Mr. Strassberger. I'm sorry?
    Mr. Dingell. What would that do to the consumer cost for 
manufacturing vehicles?
    Mr. Strassberger. We have not had a chance to evaluate 
that, however, I have gone back to take a look at the cost that 
was added to vehicles by the rulemakings that the agency has 
issued over the course of the last decade or so. Many of those 
in response to prior reauthorizations and that cost is between 
$700 and $1000 a vehicle in 2003 dollars.
    Mr. Dingell. In my experience, I went by an auto plant to 
look at a new car which was being put on the market. I asked 
the CEO of the company, I asked how much does putting this car 
on the market cost the company that you have to retrieve in 
sales costs from consumers? He said--and this was a small car, 
it was not a large car or van. He said $9 billion. This was 
some years ago, so I'm sure it costs more. Is that a fair 
estimate of what it costs to redesign or reproduce a vehicle?
    Mr. Strassberger. Well, those estimates, I think, vary to 
the redesign.
    Mr. Dingell. Is it unrealistic?
    Mr. Strassberger. In some instances, probably not.
    Mr. Dingell. All right, Mr. O'Neill, there's a problem, I 
think, which we have not addressed for a long time and you're 
referring to it and I'm referring to roof strength which is a 
component of the safety questions on rollovers.
    Do we really need and just yes or no because this is not a 
trick question. Do we need a dynamic test for the safety and 
strength of the roof?
    Mr. O'Neill. Ideally, we do, but today we don't know how to 
do one.
    Mr. Dingell. That's one of the problems that we confront. I 
happen to think we do need a test, but nobody knows how to 
design that test, is that right?
    Mr. O'Neill. Right now, the literature on dynamic testing 
is such that it would not be feasible to produce a test that is 
sufficiently repeatable to become a standard. You can do 
dynamic rollover tests, but making them repeatable enough for 
them to be part of a standard is not yet there.
    Mr. Dingell. Now, Mr. Strassberger, what do you have to say 
about this matter of repeatability and about making these 
tests? I've not gotten the exact number of tests or agency 
actions or redesigns that would be needed, but how would we 
assure that all of these tests or all of these agency actions 
would assure that there be a repeatable test or a design change 
which would be beneficial?
    Mr. Strassberger. I think that begins first with the 
collection of data that would quantify the safety problem, a 
better understanding of how people are being injured in 
crashes, identifying potential counter measures or potential 
changes in the vehicle design and then developing tests that 
drive engineers to make those changes in vehicles and that is 
the real issue then with tests that are not repeatable. if they 
give engineers multiple answers to the same question, they 
don't know how to----
    Mr. Dingell. You don't know what answer you're getting. 
It's the same as no answer.
    Mr. Strassberger. That's exactly right.
    Mr. Dingell. Yes, isn't that right?
    Mr. Strassberger. That's exactly right and then you don't 
know whether or not indeed you've done any good in the real 
world.
    Mr. Dingell. And you may have spent a lot of money to 
accomplish nothing?
    Mr. Strassberger. That is the problem that we face, 
exactly.
    Mr. Dingell. Can you tell us what the cost of all these 
redesigns would be?
    Mr. Strassberger. As I mentioned previously in the Senate 
bill we have not evaluated that.
    Mr. Dingell. Is there any way of figuring out what those 
costs would be to the consumer?
    Mr. Strassberger. In time, yes, I expect so.
    Mr. Dingell. What would they be? What this tells me is 
you're telling me this is going to cost consumers more money. 
With occasion conjectural judgments as to benefits to be 
achieved. Is that right?
    Mr. Strassberger. Exactly.
    Mr. Dingell. Mr. O'Neill, do you have a comment on that?
    Mr. O'Neill. I think vehicle safety improvements are 
important. They are needed. I think there are many ways to 
achieve them. I think that rulemaking, I mean legislation that 
presupposes we know all the answers is not the way to address 
the problem.
    Mr. Dingell. Mr. Chairman, I have used more time than I'm 
allowed. I thank you for your courtesy.
    Mr. Stearns. Thank you. The gentleman from Texas, Mr. 
Green?
    Mr. Green. Thank you, Mr. Chairman. This question is for 
any of the industry panelists. The auto industry has developed 
some impressive technology on the safety end. However, it's my 
understanding that most of the technology safety features are 
only available on the higher end vehicles and I assume that's 
related to the price. First, what would the industry's costs be 
to put the most advanced safety technologies on all the models 
and does the industry have a time line for applying some of 
these to all the models and I just want to share that somewhere 
along the way because I have a District that's not a wealthy 
area and even though they'd like to buy the high end models 
they typically do buy the moderate. Is there a decision the 
industry does for that?
    Mr. O'Neill. I'll take one stab at that, Mr. Green. 
Typically, new technology will be introduced at the high end of 
the market because those vehicles are less price sensitive, but 
as that technology becomes more mature, costs drop and we 
expect and hope to see that technology spread into the less 
expensive vehicles.
    Right now, electronic stability control systems, which we 
have look quite promising as accident avoidance technology, are 
typically available on the more expensive vehicles. I think 
that that technology will become less and less expensive and 
you'll see it spread to less expensive vehicles. Same thing 
with side impact airbags that protect heads. That is going to 
spread to inexpensive vehicles very rapidly because the cost as 
the ramp up of production of these technologies increases drops 
dramatically. But typically, technology, new technology will 
start in the segments of the marketplace that are less price 
sensitive.
    Mr. Green. Let me add a caveat to that and for the other 
answers too, can you tell me a safety feature that started at 
the high end and ended up in all cars--just off the top of your 
head, if not, you can get back with us.
    Mr. O'Neill. Well, airbags before they were mandated 
started in Mercedes, the second generation of airbags were 
available in Mercedes Benz products before they were mandated, 
for example. Now they're in all products. We're going to see 
the same thing, not through a mandate, at least not in the near 
future, we're going to see the same thing with side impact 
airbags. They're going to be in all products.
    Mr. Green. Okay. Mr. Strassberger?
    Mr. Strassberger. There are other technologies as well. 
Anti-lock brakes is yet another example. And in fact, my 
written testimony I provide a long list of safety features that 
manufacturers have introduced in vehicles voluntarily, absent 
of regulation. All of those started, it makes sense even from 
an engineering perspective to roll out technology in orderly 
fashion and all of those technologies are spreading through the 
broad range of vehicles that are offered. So it's really just a 
way, I think, of managing the roll out of a technology in a way 
that's most appropriate.
    Mr. Green. But it does start at the high end and do you 
have any examples from the list, and again, without looking at 
your testimony, that started at the high end and then went to 
the more moderate cost or lower cost automobiles?
    Mr. Strassberger. Brian is right, ABS, airbags, side 
airbags, electronic stability control, an emerging technology 
that we're seeing is so called dynamic head restraints that 
help protect occupants and their necks in rear crashes. So 
there are a number of examples, I think.
    Mr. Green. Is that available today in the higher end?
    Mr. Strassberger. Yes, it is.
    Mr. Green. Anyone else? Mr. Pittle, please, if you have a 
response to that?
    Mr. Pittle. I thought you were precluding me when you say 
you wanted the industry to respond.
    Mr. Green. I wanted to hear from them first, but obviously, 
you're on the panel.
    Mr. Pittle. I understand. I agree with what they're saying, 
that we see them coming in at the higher end. I think that 
there's a difference between a safety feature and a safe 
design, so when we talk about roof crush, that, I think is 
something that affects everybody who gets in a rollover and I 
would--that's why we think a standard on that would be so 
important because it will affect whoever and whatever car 
you're in. And having the other devices, when they do trickle 
down and they get more in, consumers get the benefit of that. 
But something like roof crush, something like side impact 
protection, we believe those things should be across the board, 
otherwise, it winds up to be that the poor wind up paying more.
    Mr. Green. Thank you.
    Mr. Stearns. Well, I don't think there's anyone else here. 
We're not going to go a second round unless--I don't have any 
more questions and neither does the gentlelady, the ranking 
member. Is there any--something that's pressing on anyone of 
you that--Mr. Bonin, that you had the least amount of 
questions, is there something that you would like to reiterate 
here before we close up the subcommittee?
    Mr. Bonin. I would just like to clarify that the auto parts 
industry, as a whole, typically has not taken a position----
    Mr. Stearns. So you have no position on McCain?
    Mr. Bonin. Right.
    Mr. Stearns. Okay.
    Mr. Bonin. It is, however, important that we--there are 
practical matters and day to day manufacturing of safety 
devices and the laws that we currently operate under have had 
significant delays because of resources afforded to Mr. Runge 
and the Administration and we look for Congress' continued 
support for that administration and in the appropriate way to 
guide their priorities.
    Mr. Stearns. Well----
    Mr. Pittle. I was just going to say that in the last 
discussion about the rollover roof crush, I'd like to submit, 
if I could, to the record five papers that I've just recently 
acquired. The title of the first one is ``Repeatable Dynamic 
Roll Over Roof Test Fixture'' and this group of papers deals 
with the repeatability of and the research that's going on on 
rollover----
    Mr. Stearns. By unanimous consent, so ordered. All five of 
them.
    Mr. Pittle. And one last point, the argument that all of 
this is a bunch of--NHTSA is in a position to coordinate when 
these standards go into place and Congress is in position to 
negotiate these dates. These are--this is the Senate, so it can 
be negotiated so that it doesn't bunch up, but whatever it is, 
it's dealt with in a coordinated manner.
    Mr. Stearns. Mr. Shea, anything you'd like to----
    Mr. Shea. I would just like to echo Congressman Dingell's 
remark about compliance. The TREAD Act rulemakings for the tire 
industry changed the entire paradigm for industry and we think 
it's only fair to make sure that everyone complies with these 
new regulations. It's good for the consumer and it certainly 
will make us all adhere to the law.
    Mr. Stearns. Okay, and NHTSA has someone in the audience, 
Mr. Scott Brenner. Thank you for staying over to listen to the 
second panel so that anything they said that you've heard and 
you can take back to your boss.
    So with that, I thank all of you for your patience and the 
subcommittee is adjourned.
    [Whereupon, at 12:26 p.m., the hearing was concluded.]
    [Additional material submitted for the record follows:]

 Prepared Statement of Jacqueline S. Gillan, Vice President, Advocates 
                      for Highway and Auto Safety

    Every day millions of American families leave their homes to travel 
by car to work, school, medical appointments, soccer practice, shopping 
malls and cultural activities. Although our nation's highway system has 
created mobility opportunities that are the envy of the world, it has 
also resulted in a morbidity and mortality toll that is not. The U.S. 
Department of Transportation's (DOT) accounting of the traffic 
fatalities for 2002 is grim.
    In 2002, there were 42,815 motor vehicle fatalities, the highest 
number in over a decade. A record 10,666 fatalities occurred in 
rollover crashes. In addition to the emotional toll, these deaths are 
associated with a large financial toll to society. DOT estimates the 
cost of motor vehicle crashes exceeds $230 billion annually. Without a 
major reversal in the growing number of highway fatalities and injuries 
in the next six years, almost 250,000 people will die and 18 million 
more will be injured at a societal cost of more than $1.38 trillion.
    Advocates for Highway and Auto Safety (Advocates) urges the House 
Committee on Energy and Commerce to pass a bill to reauthorize the 
National Highway Traffic Safety Administration (NHTSA) that seriously 
addresses the unnecessary and preventable carnage on our roads and 
highways. Efficient, proven solutions and strategies already are on the 
shelf and ready to be used. Furthermore, technological solutions to 
improve the crashworthiness of motor vehicles are available and in use 
for some makes and models. It is important that this NHTSA 
Reauthorization bill include provisions that direct the agency to move 
forward on important, long-delayed rulemakings and data collection to 
halt the trend of increasing deaths and injuries on our highways.

ADVOCATES URGES PASSAGE OF A NHTSA REAUTHORIZATION BILL THAT 
        ESTABLISHES A SAFETY REGULATORY AGENDA INCLUDING:
 A safer standard for side impact crash protection;
 A rollover prevention standard;
 A stronger roof strength standard;
 A crash ejection prevention standard;
 A safer frontal impact protection standard;
 A standard to reduce vehicle aggressivity and incompatibility;
 Improvements to the safety of 15-passenger vans;
 A standard for child-safe power windows;
 A study of technology to prevent vehicle backover incidents;
 A public database of backover incidents; and
 Improved consumer safety information.
    These rulemakings and initiatives are essential to NHTSA 
Reauthorization. They will save countless lives and help fulfill the 
safety mission of both NHTSA and the TEA-21 Reauthorization 
legislation.
    In order to ensure progress on a broad spectrum of serious safety 
problems, Congress needs to take the lead and establish clear safety 
goals that can be achieved in reasonable but certain timelines. This is 
precisely the approach taken by the House Energy and Commerce Committee 
in the Transportation Recall Enhancement, Accountability, and 
Documentation (TREAD) Act of 2000. During congressional hearings and 
media attention on the deadly rollover occurrence of Ford Explorers 
equipped with Firestone tires, it was revealed that neither the federal 
tire standard nor the roof crush standard had been updated since the 
early 1970s. Also, warning signs of the potential problem were missed 
because of inadequate data collection and analysis. The TREAD Act 
directed NHTSA to undertake numerous rulemakings on a variety of issues 
related to tire and child passenger safety, including setting realistic 
deadlines for agency action. This is a model Advocates strongly 
supports for enactment of the NHTSA Reauthorization legislation in the 
108th Congress.
    It is imperative that Congress set the safety agenda, as it did in 
the TREAD Act, to ensure that long overdue safety rules and 
improvements are completed. The TREAD Act was passed in response to a 
defect problem that killed several hundred people, yet problems such as 
vehicle compatibility in crashes and rollover result in thousands of 
preventable deaths each year. However, without Congressional leadership 
and clear mandates the NHTSA has been slow to respond.
    For example, the issue of vehicle rollover has been a safety threat 
for over 25 years. More than 110,000 people have been killed in 
rollover crashes from 1991 to 2002. Yet, despite a prior Congressional 
directive that NHTSA initiate (but not complete) rulemaking to improve 
vehicle stability, the agency did not issue a standard. Moreover, even 
after years of research on improvements that were promised instead of a 
rollover standard, such as improved roof strength, the agency still has 
not acted to adopt a real world, dynamic roof crush test. And, although 
the NHTSA has in recent years emphasized crash avoidance programs that 
promote the importance of avoiding crashes in the first instance, 
rollover involved deaths continue to climb each year and a standard to 
improve vehicle stability and reduce rollover is nowhere to be found.
    In order to ensure that the American public is adequately protected 
from these and the other dire threats to safety mentioned above, it is 
imperative that Congress require the NHTSA to confront these problems 
and issue appropriate safety standards that will reverse the rising 
fatality toll on our nation's roads. Unless Congress requires agency 
action and final rules by specific dates in this reauthorization 
legislation, more years will pass without significant agency action to 
reverse the increasing trend in highway fatalities.
    At the same time, it is vital that NHTSA Reauthorization include 
the necessary funds for the agency to carry out this mission. At 
present, 95 percent of all transportation-related fatalities are the 
result of motor vehicle crashes but NHTSA's budget is less than one 
percent of the entire DOT budget.
    Congress has had to act twice since NHTSA was last reauthorized to 
correct severe funding and regulatory shortfalls. First, when serious 
problems resulting in deaths and injuries were identified in some 
passenger vehicle airbags, NHTSA was compelled to issue an advanced 
airbag rule to upgrade Federal Motor Vehicle Safety Standard (FMVSS) 
No. 208 to require new tests and advanced technology. Additional funds 
were needed by the agency to complete the necessary research and data 
analysis. Second, as part of the passage of the TREAD Act it was again 
necessary to augment NHTSA's budget to tackle the regulatory and other 
requirements included in that legislation. Congress must set the agency 
on the road toward resolving the nation's most serious safety problems, 
but it must also ensure that the agency has the funding and resources 
it needs to accomplish that task.

CONCLUSION
    Advocates' recommendations for action are common sense, cost 
effective and will achieve savings in lives and dollars. The fatalities 
that occur daily and routinely on our highways in motor vehicle crashes 
are equivalent to a major airline crash every other day of the year. 
This public health epidemic does not have to continue unabated. 
Enactment of these proposals will move the agency forward in addressing 
the unfinished regulatory agenda and will reverse the deadly trend 
facing us in the coming years.

NHTSA SHOULD ISSUE A RULE THAT IMPROVES STANDARDS FOR SIDE IMPACT CRASH 
        PROTECTION.
    About 10,000 people die each year in both single and multiple-
vehicle collisions involving side impacts. Deaths have increased and 
side impact crashes have become more severe over the past decade due to 
the explosive growth in the percentage of sport utility vehicles (SUVs) 
in the nation's fleet, followed by increased numbers of pickup trucks 
and large vans. In side impact crashes, the taller, heavier, and 
stiffer SUVs, pickup trucks, and large vans cause much more severe 
impacts with smaller passenger vehicles that result in more serious 
injuries and more deaths. Purchases of SUVs, pickup trucks, and large 
vans now comprise one-half of the annual sales of new passenger 
vehicles and the number of these vehicles on the road has increased 
dramatically in recent years.
    In side impact crashes where a light truck or van struck a 
passenger car alone resulted, there were approximately 5,400 deaths in 
each of the last few years, more than 30 percent of passenger car 
multiple-vehicle collision fatalities. Currently, the motor vehicle 
safety standards for upper interior side impact (FMVSS No. 201) and 
lower side impact (FMVSS No. 214) are too weak to adequately protect 
occupants in a car that is struck by a larger vehicle and need to be 
upgraded. When NHTSA adopted FMVSS No. 214 back in the early 1990's, it 
should be noted that the majority of the passenger vehicle fleet 
already met its compliance requirements, even without additional 
countermeasures. The standard was indexed to meet the existing 
protective capabilities of the vehicle fleet, which at that time 
consisted mostly of passenger cars. Additional side impact protection 
is needed to keep safety from losing ground with the changing vehicle 
fleet. For example, enhancing the side impact protection of occupants 
can be achieved by requiring dynamic impact safety systems, such as air 
bags, for both upper and lower portions of the vehicle interior.
    To date, however, NHTSA has not issued a final rule that improves 
standards for side impact crash protection. The current side impact 
standard only addresses vehicles with a gross vehicle weight rating of 
less than 6,000 pounds.
    Advocates supports an improved side impact standard that takes into 
account the heavier, stiffer light trucks and vans on the road today. 
This standard should evaluate test barriers, head and neck injury 
measurements, the need for additional test dummies, and review impact 
criteria.

NHTSA SHOULD ISSUE A ROLLOVER PREVENTION STANDARD.
    Rollover crashes result in a tragedy of massive proportions, with 
more than 10,000 deaths and hundreds of thousands of crippling injuries 
to Americans each year. Rollover crashes represent only three percent 
of all collisions but account for approximately one-third of all 
passenger occupant fatalities. More than 110,000 people have died in 
rollover crashes since 1991. Additionally, the soaring popularity of 
SUVs since the start of the 1990s has resulted in more than doubling 
their numbers on the road during this period, accompanied by a doubling 
of fatal rollover crashes. Six of every 10 deaths in SUVs in 2002 
occurred in rollover crashes. No other passenger vehicle has the 
majority of its deaths take place in rollovers. It is very clear that 
we are needlessly losing lives in the U.S. because of the tendency of 
SUVs to roll over in both single and multi-vehicle crashes.
    At a press event in 1994, DOT announced several safety initiatives 
to address rollover crashes in lieu of issuing a rollover stability 
standard. Nearly ten years later, DOT has made little, if any, progress 
in completing any of the major actions. NHTSA knows what needs to be 
done to protect our citizens from the lethal outcomes of rollover 
crashes. The agency failed to act when the need became clear years ago 
to stop the annual rise in deaths and injuries from vehicle rollovers.
    Yet, here we are almost 10 years after NHTSA terminated rulemaking 
to set a vehicle stability standard. The American public is placed at 
increased risk of death and injury every year because of the growing 
numbers and percentage of SUVs and pickups in the traffic stream. 
Instead, NHTSA has promised a consumer information regulation to reveal 
the on-road rollover tendencies of SUVs and pickups. However, that 
promise is highly qualified. Although the agency issued a rollover 
rating system based on static stability factor (SSF) and has developed 
a rating system based on a dynamic test procedure, the agency has 
warned that it will be years before enough vehicles are tested and 
enough data from the field are collected to be able to determine if the 
rollover ratings from dynamic testing are accurate indications of 
rollover tendencies. So, while NHTSA collects several years of data to 
determine whether its testing regime is even tenable, the American 
consumer will continue to buy vehicles that place individuals and 
families at increased risk of death and debilitating injuries.
    Advocates supports NHTSA Reauthorization legislation that requires 
the agency to issue a final rule on rollover stability that seriously 
addresses the rising deaths and injuries from vehicle rollovers.

NHTSA SHOULD ISSUE A STRONGER ROOF STRENGTH STANDARD.
    NHTSA also needs to improve occupant protection when vehicles roll 
over. That would be accomplished by improving the resistance of roofs 
to being smashed and mangled in rollover crashes. The existing vehicle 
roof strength standard is over 30 years old and has not kept pace with 
the changing vehicle fleet. In fact, NHTSA's own data indicate the need 
for an improved standard. In September 2002, the NHTSA Administrator 
stated that roof crush intrusion potentially contributes to serious or 
fatal injury in 26 percent of rollover crashes. NHTSA also estimates 
that belted occupants suffer 1,339 serious or fatal injuries resulting 
from roof crush intrusion each year.
    The current roof crush standard (FMVSS No. 216)--a standard that is 
weak and ineffective in preventing both general roof collapse and local 
intrusion in rollover crashes--also exempts all passenger vehicles 
above 6,000 pounds gross vehicle weight rating. This means that 15-
passenger vans, other large vans, small buses, and well-known makes and 
models of SUVs and pickup trucks, do not have to meet even the 
inadequate test compliance requirements of the existing standard. The 
exemptions for larger, heavier passenger vehicles weighing more than 
6,000 pounds gross vehicle weight rating from the roof crush standard 
(as well as a similar exclusion of vehicles over 6,000 pounds from the 
requirements of the lower interior side impact standard, FMVSS 214) is 
not supported by any compelling data that these vehicles are somehow 
safe for their occupants without adherence to even the weak roof crush 
standards. In fact, some of the vehicles with the worst rollover crash 
rates and roof failures are among the vehicles exempt from the 
standard. To complicate the issue further, NHTSA requires all passenger 
vehicles less than 10,000 pounds gross vehicle weight rating to comply 
with the head injury protection requirements for upper interior 
impacts, including side impacts, but does not require similar 
compliance for vehicles between 6,000 and 10,000 pounds gross vehicle 
weight rating for lower interior torso protection under Standard No. 
214.
    Advocates supports an improved roof strength standard based on a 
dynamic test.

NHTSA SHOULD ISSUE A CRASH EJECTION PREVENTION STANDARD.
    According to NHTSA, in 2002, there were 9,543 people are killed and 
tens of thousands injured--nearly 8,000 suffering severe injuries--
because of partial or complete ejection through passenger vehicle 
doors, windows, and even moon roofs in a crash.
    NHTSA researched anti-ejection glazing for years, estimating that 
up to 1,300 lives could be saved each year by anti-penetration side 
window glazing, yet suddenly decided that there were insufficient 
benefits of anti-ejection glazing to continue rulemaking.
    The agency also has not acted to upgrade the outdated standard for 
door latches and locks, which have remained unchanged since NHTSA first 
adopted an industry standard in the 1960's, and have proven inadequate 
for decades. Many doors still fly open in front, side, rear, and 
rollover crashes. About 2,500 deaths and many more serious injuries 
occurred annually due to door ejections. Side door ejections are the 
second leading cause of ejections in all types of crashes, exceeded 
only by ejections through fixed glazing.
    Advocates supports legislation directing the agency to issue a rule 
to reduce complete and partial occupant ejection from passenger 
vehicles. Additionally, the agency should consider the ejection 
mitigation capabilities of safety technologies such as advanced side 
glazing, side curtains, and side impact airbags. The rule should also 
address improvements in door locks, latches and other ejection reducing 
components of the vehicle.

NHTSA SHOULD ISSUE A SAFER FRONTAL IMPACT PROTECTION STANDARD.
    The high severity of frontal impact crashes, especially vehicle-to-
vehicle crashes, results in high levels of occupant mortality. Nearly 
17,000 people died in frontal impacts in 2002. For this reason, 
occupant crash protection has long depended on the full-frontal barrier 
test. With the advanced air bag rule now in place, the NHTSA should 
commence an upgrade of the frontal crash test including the test 
barrier and more refined measures for frontal injury criteria.
    In addition, while the full-frontal barrier test measures the 
effectiveness of vehicle restraint systems, occupant compartment 
intrusion would be better tested with the addition of an offset frontal 
compliance test requirement. A frontal offset test would provide safety 
benefits especially for lower extremity injuries. Frontal offset or 
overlap tests have been used in Europe and by the Insurance Institute 
for Highway Safety for some time, manufacturers are familiar with the 
test, and for several years, NHTSA has promised to propose adding an 
offset compliance test to the occupant protection standard, FMVSS 208. 
Even the Office of Management and Budget (OMB), in a letter dated 
December 7, 2001, urged the NHTSA to make the adoption of a frontal 
offset test a ``significant priority.'' In response, the Deputy 
Secretary of Transportation stated in a letter to OMB, dated January 
14, 2002, that the NHTSA would issue an Advanced Notice of Proposed 
Rulemaking on an offset frontal crash test device in ``early 2002.'' 
The fact is that the agency only recently issued a notice requesting 
public comment on technical issues regarding offset frontal crash 
testing. In light of this history, the agency should be able to move 
swiftly to adopt such a safety test once rulemaking is initiated.
    Advocates supports a provision that requires improvement in frontal 
impact protection for all occupants by evaluating need for additional 
test procedures, barriers, and injury and impact criteria, and the 
adoption of a frontal offset compliance test.

NHTSA SHOULD ISSUE A STANDARD TO REDUCE VEHICLE AGGRESSIVITY AND 
        INCOMPATIBILITY.
    Vehicle aggressivity and incompatibility needlessly contribute to 
motor vehicle deaths and injuries. Large SUVs, pickup trucks, and full-
size vans are disproportionately responsible for increasing the number 
of deaths and injuries when they collide with smaller passenger 
vehicles, including impacts even with small SUVs and mini-vans.
    According to NHTSA, the number of passenger car occupants dying in 
two-vehicle crashes with light trucks or vans increased in 2002 
compared to 2001, while the number of fatalities in light trucks or 
vans actually decreased. These mismatch crashes are especially lethal 
when two factors are present: first, the heavier, bigger vehicle is the 
``bullet'' or striking vehicle and the lighter, smaller vehicle is the 
``target'' or struck vehicle, and, second, the bigger vehicle hits the 
smaller vehicle in the side. In these circumstances the consequences 
are fairly predictable. The bigger, heavier, higher vehicle rides over 
the lower door sills of the side of the small vehicle in a side impact, 
or rides above its low crash management features in a frontal 
collision. As a result, the smaller vehicle's occupant compartment 
suffers enormous deformation and intrusion from the impact with the 
bigger vehicle. According to NHTSA, for cars struck in the near side by 
pickup trucks, there are 26 fatalities among passenger car drivers for 
each fatality among pickup truck drivers. For SUVs, the ratio is 16 to 
1.
    To date, NHTSA has not adequately address this tremendous ``harm 
difference'' between the biggest, heaviest members of the passenger 
vehicle fleet and smaller vehicles. The agency needs to reduce the 
aggressivity of larger vehicles and simultaneously improve the 
protection of occupants in the smaller, struck vehicles by undertaking 
regulatory actions on an accelerated calendar.
    Advocates and others in the highway safety community are concerned 
that rhetoric does not match reality and the problem will continue to 
grow as LTVs become a larger percentage of the vehicle fleet. There are 
several actions the agency should be taking in order to address this 
growing problem. For example, in the area of research, NHTSA's National 
Center for Statistics and Analysis currently collects detailed crash 
information for a sample of moderate to high severity crashes. However, 
the data points collected do not adequately document and illuminate the 
most critical aspects of passenger vehicle to passenger vehicle 
crashes, especially those involving mismatched pairs. Similar change 
should apply to all agency data collection from real world crashes. 
Data collection would be further enriched if the number of cases 
investigated were increased to improve the ability of the agency to 
generalize about the reasons for vehicle responses and occupant 
injuries in crashes involving incompatible passenger vehicles.
    NHTSA also can improve the compatibility between larger and smaller 
makes and models of the passenger fleet by reducing the aggressivity of 
larger vehicles, especially light trucks and vans. Lowering the front 
end height difference of larger, heavier vehicles to match the front 
ends and sides of smaller vehicles will prevent larger vehicles from 
riding over the front ends and side door sills of smaller passenger 
vehicles. Furthermore, simultaneously reducing the crash stiffness of 
larger pickup trucks, SUVs, and big vans would ensure that crash forces 
are more evenly distributed between larger and smaller vehicles in both 
front and side in multi-vehicle collisions, which would improve safety.
    Advocates supports a provision that requires NHTSA to issue a 
safety standard to reduce vehicle incompatibility and aggressivity 
considering factors such as bumper height, weight, and design 
characteristics to manage crash forces in frontal and side impact. 
NHTSA should also develop a standard metric to rate and compare 
aggressivity and incompatibility between different vehicles. Finally, 
NHTSA should initiate a public awareness program--including ratings--
that provides comparative rates of the risk to vehicle occupants and 
other vehicles.

NHTSA SHOULD IMPROVE THE SAFETY OF 15-PASSENGER VANS.
    Perhaps one of the clearest indications that NHTSA needs to control 
basic vehicle designs that consistently produce high rates of rollover 
crashes are the horrific rollover crashes among 15-passenger vans. A 
study released by NHTSA in late 2002 showed how, in 7 states, 15-
passenger vans as a class--regardless of the number of passengers on 
board--are substantially less safe than all vans taken together. The 
data from FARS for the year 2000 showed that 17.6 percent of van 
crashes involved rollovers, not significantly greater than passenger 
cars at 15.3 percent. However, single vehicle rollover crashes of 15-
passenger vans happen more frequently than with any other van when 
there are 5 occupants or more being transported. When these big vans 
have 5 to 9 passengers aboard, almost 21 percent of their single-
vehicle crashes are rollovers. When the passenger load is between 10 
and the maximum seating capacity of 15 occupants, single-vehicle 
rollovers are 29 percent of all van crashes. Even more dramatic, when 
15-passenger vans are overloaded, i.e., more than 15 passengers on 
board, 70 percent of the single-vehicle crashes for these extra-heavy 
vans were rollovers. These findings are similar to those of the 
National Transportation Safety Board (NTSB), released in October 2002, 
that found 15-passenger vans with 10 to 15 passengers onboard had a 
rollover rate about three times greater than that of vans seating 5 or 
fewer passengers. In addition, NTSB found that 15-passenger vans 
carrying 10 to 15 passengers rolled over in 96 of the 113 single-
vehicle crashes investigated, or in 85 percent of those crashes.
    Unfortunately, NHTSA has only issued advisories about more careful 
operation of these vans and the use of better-trained drivers, and has 
even stated that there is nothing inherently defective about their 
design. These disclaimers about the intrinsically poor stability and 
safety of 15-passenger vans are unsettling when they are viewed in 
relation to two safety recommendations issued by the NTSB on November 
1, 2002 to NHTSA and to two vehicle manufacturers, Ford Motor Company 
and General Motors Corporation. The NTSB recommendations asked NHTSA to 
include 15-passenger vans in the agency's rollover testing program and 
to cooperate with vehicle manufacturers to explore and test 
technologies, including electronic stability systems, that will help 
drivers maintain stable control over these vehicles.
    Unfortunately, 15-passenger vans, as well as larger passenger 
vehicles, especially medium and large SUVs and vans, along with small 
buses, are often exempted from key NHTSA safety regulations for 
crashworthiness. For example, because of the distance of seating 
positions in 15-passenger vans from side doors and the fact that the 
vans weigh more than 6,000 pounds, the lower interior side impact 
protection standard (FMVSS No. 214) does not apply to these big vans. 
This major safety standard also does not apply to any vehicles 
exceeding 6,000 pounds, or even to certain vehicles under this weight 
limit, such as walk-in vans, motor homes, ambulances, and vehicles with 
removable doors. Bigger passenger vehicles, then, as well as certain 
kinds of smaller passenger vehicles, are exempt from the minimal 
protection required by FMVSS No. 214.
    Advocates supports extending federal motor vehicle safety standards 
to vehicles up to 10,000 pounds gross vehicle weight and other 
improvements such as including 15-passenger vans the New Car Assessment 
Program and an evaluation of technology to improve stability.

NHTSA SHOULD ENHANCE THE SAFETY OF CHILDREN IN AND AROUND CARS BY 
        ISSUING A STANDARD FOR CHILD-SAFE POWER WINDOWS AND STUDYING 
        BACKOVER INCIDENTS AND AVOIDENCE TECHNOLOGIES.
    Motor vehicle crashes are the leading cause of death and injury to 
children. In 2002, 2,542 children under the age of 16 were killed in 
motor vehicle crashes and over 300,000 were injured. This means that 
every single day in the United States, nearly seven children under the 
age of 16 are killed and 850 are injured in car crashes. Clearly more 
needs to be done to protect our children. Two reasonable steps can be 
taken to address part of this safety problem.
    First, Advocates urges the Energy and Commerce Committee to address 
the issue of children who are left unattended in vehicles or standing 
behind vehicles that are placed in reverse, resulting in unnecessary 
deaths and injuries each year. Non-profit organizations, such as Kids 
and Cars, have documented in private research the deaths of hundreds of 
children who were left in cars when outside temperatures soared, who 
were inadvertently killed when a car or truck backed over them, or who 
were killed or injured by power windows and sunroof systems that were 
not child-proof. It is time that NHTSA lead the effort to collect data 
on child fatalities and injuries that occur in or immediately outside 
the car, although not on public roadways. Also, NHTSA needs to analyze 
the data and act to remedy safety inadequacies affecting children.
    Second, the technology to ensure that power windows and sun roof 
systems are child-safe exists and is used in vehicles sold in Europe 
and Japan. Window switches that are pulled up to close the window, and 
pushed down to open them are highly successful in preventing power 
window injuries to children. That same technology should be required in 
all passenger vehicles sold in the U.S.
    Several years ago the NHTSA initiated rulemaking to consider what 
could be done to keep small children from activating power windows to 
close when they leaned on them with their knees. But the preliminary 
proposal didn't keep children from inadvertently closing these 
guillotine windows with their elbows. This rule could be completed by 
adopting the highly successful approach taken in Europe and Japan.
    Advocates supports NHTSA Reauthorization legislation that directs 
NHTSA to collect and publish data on child fatalities and injuries in 
parked or inoperable vehicles and from strangulation and injuries 
involving automatic windows, and those from backing up collisions. 
NHTSA also should be required to ensure automatic window systems will 
not kill or injure children.

NHTSA SHOULD IMPROVE CONSUMER SAFETY INFORMATION.
    In 2002, more than 16.8 million new cars were sold in the United 
States. However, consumers entering dealer showrooms were hampered in 
making educated purchasing decision because of a lack of comprehensive, 
comparative information on the safety performance of different makes 
and models of automobiles. Readily accessible consumer information on 
the comparative safety of vehicles and vehicle equipment remains 
woefully inadequate. After purchasing a home, buying a car is the next 
most expensive consumer purchase, yet the majority of consumers end up 
at the mercy of the sales pitch and without recourse to objective 
information in the showroom. While energy conservation information is 
required on home appliances and other household items and even on 
passenger vehicles, critical safety information is not required on 
vehicles at the point of sale. The fact is consumers get more 
information about the health and safety value of a box of cereal than 
they do about vehicles in the dealer showroom.
    Providing vehicle buyers with important safety information at the 
point of sale is not a new idea. In 1994, the Secretary of 
Transportation suggested just such a label but it was never 
implemented. In 1996, the National Academy of Sciences issued a report 
that called for providing consumers with more and easier to use safety 
information, including a vehicle safety label with a summary safety 
rating. (Shopping for Safety, Transportation Research Board Special 
Report No. 248, National Academy of Sciences (1996).)
    There is no doubt that consumers continue to clamor for helpful 
information about vehicle safety. A safety label on the vehicle will 
ensure that every purchaser will at least be aware of the same basic, 
objective safety information for every vehicle they are interested in 
buying. Additionally, NHTSA should release to the public all types of 
vehicle safety information including early warning information that 
Congress requires the agency to collect under the TREAD Act. In this 
way, consumers will be knowledgeable about the real world performance 
of vehicles they purchase and drive.
    The NHTSA New Car Assessment Program (NCAP) conducts frontal and 
side impact crash tests on new cars, and has recently begun to provide 
rollover ratings on new vehicles. Despite problems regarding NCAP 
ratings that have been vigorously debated in the past, NCAP provides 
the only vehicle-to-vehicle comparative ratings that are available from 
the government. Although the NCAP ratings are available to the public 
and used by the media, consumers do not necessarily access that 
information or have it available in the showroom when considering a 
vehicle purchase. Consumers would be well served by having the NCAP 
ratings on a vehicle safety sticker affixed to a window.
    Advocates supports requiring new vehicles be labeled with the NCAP 
star ratings for frontal impact, side impact, and rollover.
                                 ______
                                 
    Prepared Statement of Joan Claybrook, President, Public Citizen

    Thank you, Mr. Chairman and members of the House Commerce, Science 
and Transportation Committee, for the opportunity to offer this written 
testimony on the importance of improvements in vehicle safety. My name 
is Joan Claybrook and I am the President of Public Citizen, a national 
non-profit public interest organization with over 150,000 members 
nationwide. We represent consumer interests through lobbying, 
litigation, regulatory oversight, research and public education. Public 
Citizen has a long history of working to improve consumer health and 
safety.
    Vehicle crashes are the leading cause of death for Americans from 2 
to 33--and kill 117 people every day of the year. Nearly a third of the 
people killed die in rollover crashes. The National Highway Traffic 
Safety Administration (NHTSA) estimates the direct cost in worker 
productivity and other economic losses from vehicle crashes is $230 
billion each year (in 2000 dollars), or $820 for every man, woman and 
child in the U.S.<SUP>1</SUP>
    The problem is only getting worse. In 2002, highway deaths reached 
42,815, the highest level since 1990. An astounding 82 percent of the 
increase in deaths between 2001 and 2002 occurred in rollover crashes. 
Rollover-prone SUVs and pickups, combined with vans, now are 49 percent 
of new passenger sales and 36 percent of registered motor vehicles--a 
70 percent increase between 1990 and 2000. Although NHTSA and the auto 
industry have known about the dangers of vehicle rollover and 
aggressivity for several decades, safety rules continue to lag far 
behind these market trends.
    Federal regulators acknowledge that the number of lives lost is far 
too high. Dr. Jeffrey Runge, Administrator of NHTSA, predicted last 
year in Newsday that the total dead could reach 50,000 annually in 
2008. ``This is a Vietnam War every year,'' he said. ``That's just not 
tolerable.'' Public Citizen agrees--something must be done to address 
the unconscionably high loss of life on our roadways.
    The bi-partisan McCain-Hollings-Snowe-DeWine vehicle safety 
provisions in S.1072, the Safe, Accountable, Flexible, and Efficient 
Transportation Equity Act of 2003 (SAFETEA), would prevent thousands of 
needless deaths on the highway each year. These measures address long-
overdue safety priorities that will continue to cost lives unless they 
are prioritized by Congress. The bill includes rollover prevention and 
survivability safeguards, ejection prevention measures, and vehicle 
compatibility measures. Also important are additional protections for 
15-passenger vans and child safety both in and around vehicles. All of 
these are obvious, common-sense fixes which target the areas where 
lives may be saved cost-effectively, with feasible and available safety 
technology and design improvements.

Vehicle Safety Work Left Unfinished by Congress in 2000
    In 2000, Congress quickly passed the Transportation Recall 
Enhancement Accountability and Documentation (TREAD) Act in the wake of 
the Ford/Firestone tragedy--but as Sen. John McCain (R.-AZ) said on the 
floor the day the Act was passed, major vehicle safety issues would 
have to be revisited.
    The final bill failed to address key vehicle safety issues raised 
by the Ford/Firestone tragedy. As Senator McCain said on the floor of 
the Senate, October 11, 2000:
    I say to my colleagues again that this issue isn't over. 
Tragically, I am in fear that there will be more deaths and injuries on 
America's highways before we finally make it much safer for Americans 
to be on America's highways.
    The Senator's words are sadly prophetic. Almost all of the 200 
lives lost, and 700 known injuries, through the year 2000 from Ford 
Explorers with Firestone tires occurred when these vehicles rolled 
over. Since then, numerous lives have been lost when SUVs rolled over 
in crashes, roofs collapsed upon occupants, or occupants were violently 
ejected from the vehicle.
    While the TREAD Act focused on information collection on defects 
and upgrades to the tire safety standard, among other items, fixing the 
tires was not even half of the battle, and many hazards remain 
unaddressed. We urge the House of Representatives to continue the 
lifesaving work begun in TREAD by addressing the vehicle to improve 
safety. The vehicle safety provisions in Title 4 of SAFETEA 2004 would 
establish rollover prevention and protection standards, anti-ejection 
standards, a standard to prevent the extensive harm from vehicle 
mismatch, and other crucial, long-overdue safeguards. It is time to ask 
American automakers to build a safer, better vehicle.

Cost-Benefit Canards and Auto Industry Myths
    While the auto industry claims the ``low hanging fruit'' in vehicle 
safety has been picked and that additional regulations will have merely 
diminishing returns. This is not correct. In rollover crashes alone, 
10,600 lives are lost annually--one-third of all occupant deaths--and 
this crash mode remains virtually unregulated while the death toll 
rises every year. The industry has known for decades about the need to 
improve vehicle rollover resistance and roof strength, as well as the 
problem of vehicle mismatch in crashes, called ``compatibility'' and 
need for improvements in child safety. Yet little has been done in 
these critical areas.
    Bipartisan safety provisions in Title IV of the Highway Funding 
bill, passed by the full Senate on February 12, 2004, would be enormous 
step towards addressing the lives unnecessarily lost in crashes. The 
safety hazards addressed by the bill target those areas where new 
safety rules would do the most amount of good, and are feasible and 
reasonable next steps.
    While the TREAD Act passed in the wake of the Ford/Firestone 
tragedy provided some new authority for NHTSA, it did not address SUV 
hazards that continue to cost record numbers of lives each year. 
Estimates of the lives to be saved are well above the numbers of people 
killed in the Ford/Firestone tragedy. The measures in the Senate 
highway bill would save thousands of lives:

 A new roof crush resistance standard: 1,400 deaths and 2,300 severe 
        injuries, including paraplegia and quadriplegia, would be 
        prevented each year by a more stringent standard.<SUP>2</SUP>
 Improved head protection and side air bags: 1,200 lives saved, and 
        975 serious head injuries prevented, would be saved by a new 
        requirement each year.<SUP>3</SUP>
 Side window glazing (``safety glass''): A requirement would save 
        1,305 lives and prevent 575 major injuries each 
        year.<SUP>4</SUP>
 Upgrade to door locks and latches standard: An upgrade would prevent 
        hundreds of the 2,500 door-related ejection deaths each 
        year.<SUP>5</SUP>
 Rollover prevention standard that examines use of electronic 
        stability control (ESC): Several comprehensive studies estimate 
        that ESC technology reduces deaths and injuries by as much as 
        one-third by preventing crashes for occurring in the first 
        place.<SUP>6</SUP>
 Compatibility standards for light trucks: NHTSA research estimates 
        1,000 lives a year could be saved.<SUP>7</SUP>
 Stronger seatback design: 400 lives saved, and 1,000 serious injuries 
        prevented, each year.<SUP>8</SUP>
 Effective seat belt reminders in all seats: 900 lives each year would 
        be saved by such a requirement.<SUP>9</SUP>
    Preventing these deaths would save taxpayers billions of dollars in 
direct costs alone, and prevent untold suffering. Requirements for the 
issuance of new and upgraded rules in all of these areas are contained 
in the lifesaving NHTSA Reauthorization bill that passed the full 
Senate. The ongoing public relations effort on the part of the industry 
to downplay risks and avoid new rules should be dismissed by policy-
makers and the media as an avoidance maneuver that is both wrong on the 
facts, and coldly indifferent to the potential for saving lives.

Answering the industry: A history of select life-saving safety measures 
        since 2000
    A recent article <SUP>10</SUP> cited the auto industry as 
suggesting that three recent rulemakings demonstrate that safety rules 
are yielding limited returns: advanced air bags, tire-pressure 
monitoring systems, and fuel system integrity. In each case, the story 
has been distorted.

The real story on advanced air bags
    In 1991, the Intermodal Surface Transportation Efficiency Act 
(ISTEA), was enacted into law. ISTEA requires all passenger cars 
manufactured on or after September 1, 1997, and light trucks 
manufactured on or after September 1, 1998, to have driver and 
passenger air bags, plus manual lap-shoulder belts in accordance with 
the safety standards issued by Secretary of Transportation Elizabeth 
Dole in 1984. Unfortunately, after arguing for a performance standard, 
many manufacturers responded by creating cut-rate airbags that were 
dangerous to children and small adults.
    It is important to note that not all airbags, as originally 
designed, were unsafe. From the beginning, Honda designed airbags that 
never killed a single child, showing that good design was possible 
under the Dole rule. The industry in fact has an obligation, which it 
largely failed to meet, to make designs that encompassed all likely 
uses by customers, and did not cut corners to achieve the bare minimum 
for compliance with the standard.
    Because of the danger posed by shoddily designed airbags on the 
market in the early 1990s, new ``advanced'' airbag rules had to be 
promulgated to protect children and small-statured women. In 1998, the 
Transportation Equity Act for the 21st Century (TEA-21) was passed by 
Congress, requiring that airbag safety ``improve occupant protection 
for occupants of different sizes, belted and unbelted . . . while 
minimizing the risk to infants, children, and other occupants from 
injuries and deaths caused by air bags, by means that include advanced 
air bags.''
    In 2000, NHTSA promulgated a new advanced airbag rule, but caved to 
auto industry pressure and decreased the test speed from 30mph to 
25mph. Public Citizen and other safety groups have challenged the 
decision to lower the test speed in federal court, and the case is now 
pending.
    A USA Today article highlights the lack of deaths from air bags, 
which has been a welcome result of efforts to move children into the 
back seat of vehicles, but implies the rule only has minimal benefits. 
NHTSA's actual findings on the costs and benefits of the advanced air 
bag rule included the following:

 More than 95 percent of the at-risk population in low speed 
        deployments would be protected by technologies to meet the 
        rule's requirements.
 The cost per vehicle for the compliance options for consumers (or 
        retail cost) is between $21 and $128 per vehicle (in 1997 
        dollars)--most consumers would happily pay that, given the 
        major investment a vehicle represents and the value of safety 
        to consumers.
 Property damage savings alone is over $85 per vehicle, or $1.3 
        billion in savings from the rule in property damage alone, 
        while the overall maximum total cost in the most expensive 
        compliance scenario is a comparatively small $2 billion.
 NHTSA reduced the likely benefits because it also lowered the testing 
        speed to 25 mph. Because this produces a less protective air 
        bag in high-speed crashes, Public Citizen has challenged this 
        decision in court. A 30 mph standard would raise the amount of 
        benefits (i.e., the number of lives saved) anticipated from the 
        rule.

The real story on tire pressure monitoring systems
    The Transportation Recall Enhancement, Accountability and 
Documentation (TREAD) Act, passed in the wake of the Ford/Firestone 
fiasco, required the Secretary of Transportation to mandate, within one 
year, a standard that would mandate a warning system in new vehicles to 
alert operators when their tires are under-inflated. After extensive 
study, NHTSA determined that a direct tire pressure monitoring system 
should be installed in all new vehicles. But in a ``return letter'' 
issued after meetings with the auto industry, the Office of Management 
and Budget (OMB) demurred, claiming its cost-benefit calculations 
provided a basis for delaying a requirement for direct systems. The 
final rule, issued May 2002, would have allowed automakers to install 
ineffective TPMS and would have left too many drivers and passengers 
unaware of dangerously underinflated tires.
    In June 2002, Public Citizen joined with other consumer safety 
groups to sue NHTSA because its final rule would have allowed 
manufacturers to choose to install the inferior (indirect) system. A 
year later, in August 2003, a unanimous three-judge panel of the United 
States Court of Appeals for the Second Circuit ordered NHTSA to rewrite 
the rule, agreeing with Public Citizen and others that NHTSA acted in 
an arbitrary and capricious manner by allowing installation of a 
clearly faulty (indirect) system.--
    In its decision, the Court reminded NHTSA that the notion that 
``cheapest is best'' is contrary to Supreme Court precedent that safety 
improvements are a core responsibility of federal regulators. The court 
also reminded NHTSA that, in doing its cost-benefit calculations, the 
agency is supposed to ``place a thumb on the safety side of the 
scale.'' <SUP>11</SUP>
    The USA Today article gets the numbers wrong;<SUP>12</SUP> however, 
as the Court stated, the numbers are in fact beside the point. The real 
cost of the industry's undue influence over an improper rule is that no 
rule is now on the books despite clear directions from Congress to 
protect consumers from the harmful effects of tire underinflation. For 
each year of obfuscation and delay, NHTSA's own cost-benefit analysis 
shows that 142 lives are needlessly lost on the highway.
    In the eight months since the rule was overturned by the Court, 
NHTSA has also failed to re-issue the rule, despite the substantial 
factual record collected by the agency in rulemaking which should make 
a new final rule an easy matter. Should NHTSA continue to delay, Public 
Citizen plans to bring an unreasonable delay case against the agency to 
encourage more timely action.
The real story on the fuel system integrity upgrade
    About 15,820 occupants are exposed to a post-crash fire each year--
736 of whom received moderate or severe burns, three-quarters of whom 
had second or third degree burns over more than 90 percent of their 
body. In 2001, 1,449 occupants died in crashes that involved fire and 
in 341 of those cases, fire was the most harmful event in the crash. 
Preserving fuel system integrity in crashes is necessary to reduce 
these unnecessary deaths and injuries.
    NHTSA recognized this need in the 1970's, implementing the first 
requirement for fuel system integrity. The agency did not consider 
upgrading the standard until 1995 and did not promulgate an actual 
upgrade until December, 2003.
    The upgrade proposed by NHTSA falls vastly short of the mark of 
what is necessary in rulemaking on this issue. There are two prominent 
explanations for the very low benefits associated with NHTSA's new fuel 
system integrity rule. First, NHTSA's data collection on fire-related 
deaths is extremely poor, and does not include roadside crashes, such 
as those involving police cars and the now-notorious Crown Victoria, 
which bursts into deadly flames when hit in the rear. Second, the new 
standard is so weak that most vehicles currently on the road pass the 
new standard. Even the CK pickup truck, which is associated with more 
than 2,000 terrible fire deaths, would pass. Where a standard is so 
inadequate, the benefits are also small.
    The worst performers, known for killing hundreds in vehicle fires, 
the CK Pickup and the Crown Victoria, both pass the agency's new 
standard test. Crown Victoria crashes have burned to death at least 18 
police officers, and GM C/K pickups have caused over 2,000 fatalities, 
yet NHTSA estimates its rule would save only 8 to 21 fatalities a year 
(of a total of, in NHTSA's count, an extremely low 58 burn deaths a 
year). The lesson? When a rule is too weak to require safety upgrades, 
the corresponding benefits, or number of lives saved, is also far too 
low.
    The cost-benefit analysis on the upgrade of fuel system integrity 
available is based on NHTSA's extremely conservative analysis of an 
extremely inadequate standard. The low-ball savings estimated by the 
agency are 8 to 21 fatalities per year, and no injury prevention 
numbers were calculated. The costs for complying with this upgrade are 
minimal as well--only $5.31 per vehicle for rear impact test and 
because the agency combined two side impact tests, the manufacturers 
will actually save money on the standard for side impacts--savings of 
about $25,200 per model. Only one in 100 vehicles that were tested 
under the new standard failed ``more evidence that it does not 
meaningfully move the ball forward on safety.<SUP>13</SUP>

New Safeguards Needed for Rollover Prevention and Survival
    Rollover crashes are rare events, representing only 2.5 percent of 
all crashes. Yet rollovers cause approximately 10,600 fatalities--a 
full one-third of all vehicle occupant deaths--and 21,000 serious 
injuries each year.
    SUVs and pickup trucks are a major part of the rollover problem: 
while 23 percent of passenger car occupant fatalities occur in rollover 
crashes, a whopping 61 percent of SUV occupant fatalities and 45 
percent of pickup fatalities do.<SUP>14</SUP> The high frame and 
unstable design of these vehicles make SUV and pickup rollovers 
particularly likely, and the weak roofs and poor crash protection make 
rollovers particularly deadly for people when they do occur.

The high propensity of SUVs and pickups to rollover
    The high center of gravity of SUVs and pickups and narrow track 
width makes them unstable during emergency maneuvers, such as swerving 
to avoid another vehicle, pedestrian or curb, or during a tire blowout. 
Loading of the vehicle, which is encouraged in SUVs and pickups by the 
large cargo areas, raises the center of gravity of the vehicle, making 
it more dangerous and hard to control. Some vehicles are so tippy that 
even driving experts are unable to control them. In a rollover 
propensity test of the Ford Explorer by Little Rock, Arkansas, trial 
attorney Tab Turner, even an expert driver aware of the planned timing 
of the tire blowout was unable to keep the vehicle from rolling over.
    And the problem is growing. The rate of passenger car occupants who 
died in fatal rollover crashes per 100,000 registered vehicles declined 
18.5 percent between 1991 and 2000, while the rate of light truck 
occupants who died in fatal rollover crashes increased 36 percent 
between 1991 and 2000.<SUP>15</SUP> Rollover fatalities in all types of 
vehicles accounted for 82 percent of the total fatality increase 
between 2001 and 2002.<SUP>16</SUP>
    Although charged by Congress to prepare a rollover propensity 
minimum standard in 1991, NHTSA terminated rulemaking on the standard 
in 1994. NHTSA defended its termination by citing obsolete statistics 
on the number of SUVs in the vehicle population in the late 1980s, 
without acknowledging the growing popularity and hazards of this 
vehicle class. At that time, NHTSA promised that a consumer information 
program and numerous crashworthiness protections would be forthcoming.
    A decade and thousands of rollover deaths later, in January 2001, 
NHTSA at long last published very basic information based on a static 
measure of the rollover propensity of vehicles as a part of the 
agency's New Car Assessment Program (NCAP), which assesses a mere 40 or 
so vehicles in each model year. Rather than prominently displaying a 
vehicle's safety ratings next to the sticker price to help consumers 
make informed purchases, the safety information is only available on 
the agency's Web site, where many consumers do not know to look. NHTSA 
claimed that its program would highlight the poor performers and that 
public pressure would force manufacturers to improve the rollover 
tendencies of vehicles. The ``Stars on Cars'' program sponsored by 
Senator Mike DeWine and made part of the Highway Funding Bill passed by 
the Senate would fix this serious oversight by mandating that NCAP 
information be available on the window sticker at the point-of-sale. We 
urge the House of Representatives to enact a similar provision.
    The Transportation, Recall Enhancement, Accountability and 
Documentation (TREAD) Act, passed in the wake of the Ford/Firestone 
disaster, included a requirement for a dynamic rollover consumer 
information program to be added to NCAP on the NHTSA Web site. In 
October of 2003, NHTSA adopted a ``fishhook'' maneuver as a dynamic 
procedure to be combined with a static measurement of a vehicle's 
stability for the consumer ratings. Four months later, the first round 
of ratings were published, again only on the agency's Web site.
    While the dynamic test provides an indication of on-road 
performance, the absence of a standard, or performance ``floor'' means 
that every vehicle starts with at least one star, and inflates the 
performance results on the tests (i.e., with a two-star ``floor,'' 
vehicles now earning three stars would receive substantially lower 
ratings). Moreover, the agency's dynamic test is so weak that vehicles 
that experience vehicle ``tip-up'' during the test will not lose a 
star, yet tippy vehicles that do not tip-up in the test can gain a 
star, making the dynamic test a one-way ratchet.

Poor vehicle design increases rollover hazards
    Despite the unconscionably high death toll, rollovers are actually 
highly survivable crashes. The forces in the collision are far lower 
than those in many other types of highway crashes. Race car drivers, 
who wear five point belts and drive vehicles with strong crash 
protections, often walk away from severe crashes that would be deadly 
in other vehicles because of superior crashworthiness designed into 
their vehicles. This survivability means that rollovers are primarily 
dangerous due to poor vehicle design. Safety belts and seat structures 
do not keep occupants in place during a crash, and vehicle roofs are so 
flimsy that they crush into occupants' heads and spines, inflicting 
very serious injuries.
    These important crash protections are also missing in most 
vehicles, even in pickups and SUVs where rollovers are relatively 
common. The box-like, windowed passenger area of an SUV or pickup 
(called the ``greenhouse''), protrudes into the air and in a roll hits 
the ground with more force due to its shape. Rolling ``like a box'' 
creates a more violent rollover crash upon impact with the ground, in 
comparison with the crash dynamics of passenger cars, which roll more 
like tubes. Centrifugal forces push passengers' heads towards the 
outside of the roll and into contact with the vehicle's sides and roof 
just as the vehicle impacts the ground, frequently crushing inward with 
deadly consequences.
    These heightened risks distinguish SUVs and pickups from passenger 
cars and in part may account for the dramatically higher rollover 
fatality rates.
    In addition, the heavy bodies and engines of light trucks place 
greater pressure on the roof during a roll, making roof strength a 
paramount concern for drivers of these vehicles. Most roofs are not 
strong enough to withstand the impact of a rollover crash. The current 
roof crush standard became effective in 1973 and has been revised since 
that time only for extension to vehicles with a gross vehicle weight 
(GVWR) of 6,000 pounds or less and to apply to vehicles with raised 
roofs.<SUP>17</SUP> This weight limit has allowed manufacturers to 
increase the gross weight of SUVs and pickups over 6,000 pounds to 
evade the standard, meaning that the vehicles most in need of a strong 
roof are totally unregulated. The weight limit should be raised by 
Congressional action to 10,000 pounds to correct this egregious 
oversight, as it is in the Senate bill.
    NHTSA's 1994 termination of work on a rollover propensity standard 
was followed by subsequent public statements in which the agency 
promised many crashworthiness improvements, including a stronger roof 
crush standard as well as requirements for better door latches, door 
hinges and upper side impact protection. Among these tragically broken 
promises, the roof crush standard remains far out-of-date.
    In order to ``beat'' the standard in recent years, manufacturers 
have taken the short cut of merely improving the bonding of the 
windshield to the vehicle structure, which helps the vehicle pass 
NHTSA's weak test without helping occupants, because in a crash the 
windshield is typically gone by the end of the first roll. Once the 
windshield is gone, typically one-third of the roof strength disappears 
with it, and the roof crushes.
    When roofs crush in a rollover, the cardinal rule that occupant 
space not be intruded upon is broken. The survival space for occupants 
is greatly limited or eliminated altogether, so that the heads and 
spines of occupants contact the roof. In addition, roof crush can open 
ejection portals--making windows and the windshield area very large and 
leading to ejection of occupants, which is frequently fatal.
    The current roof crush standard is woefully out of date. It tests 
just one side of the roof and passes vehicles that with roofs that 
collapse and kill occupants in real crashes on the highway. NHTSA 
estimates 3,700 belted passengers are killed each year by collapsing 
roofs and a more rigorous roof-crush standard would save 1,400 people. 
Its estimate is likely too low: it excludes occupants who are ejected 
when roof crush opens ejection portals, as well as occupants killed by 
roof collapse before being ejected. Approximately 13,000 fatalities 
each year involve ejection: 8,000 people are ejected through windows, 
while 2,500 are ejected through open doors. And, although rollovers 
remain one of the most survivable crash types, inadequate crash 
protection standards or lack of safeguards make rollovers unnecessarily 
deadly crashes, exposing people to seat failure, safety belt failure 
and ejection.
    The image above depicts the fixture used to conduct roof crush 
dynamic testing in a testing laboratory in Salinas, California. The 
roadway surface moves forward along the track, contacting the roof of 
the vehicle as it rotates on the spit. The test surface impacts both 
sides of the roof a single time, imitating the first roll of a vehicle 
in a rollover crash, with repeatable results. The picture shows a 1994 
Chevrolet Suburban with two dummies inside.
    The current federal test is a static test using a platen, or plate, 
on the roof, and measures the impact of force on only one side of the 
roof through the steady exertion of pressure. While a static test 
measures the strength of the roof, a dynamic tests measures injury to 
the occupants.
    A dynamic test such as the one above is far superior for the 
following reasons:

By showing the impact of the crash on instrumented dummies, it measures 
        the occupant protection and survivability of the rollover 
        crash' the human impact;
It is capable of testing safety belt performance and failure in a 
        rollover crash;
It includes the lateral or sliding velocity of the roadway as it moves 
        beneath the vehicle, as in a real-world rollover crash (the 
        vehicle is both rolling and sliding on the road surface);
It tests both sides of the roof--the current test only tests one side, 
        with the windshield intact. Yet research shows that passengers 
        sitting in the seat below the second, or trailing edge, of the 
        roll, are the ones severely injured or killed. At the second 
        impact, the roof's integrity has been compromised and crush is 
        typically far more severe.
It shows harm after the windshield shatters in the first impact. While 
        windshields typically break on the first roll, the windshield 
        and its bonding provide as much as one-third of the roof 
        strength.
The test shows the real dynamic of crush as a function of roof geometry 
        (roundness, curvature, etc.). Because the static test is not 
        designed to measure the role of roof geometry, it fails to 
        include a major factor in measuring occupant survivability.
    Dynamic drop tests for roof strength are repeatable and have long 
been in use by industry. As a 2002 Society of Automotive Engineers 
(SAE) paper attests:
          The automotive industry and researchers have used drop 
        testing for years to evaluate roof strength. In the late 
        1960s's, SAE developed a standardized procedure to perform full 
        vehicle inverted drop testing. Many domestic and import auto 
        manufacturers have utilized the inverted drop test technique as 
        far back as the 1960s and 1970s to evaluate roof strength . . . 
        Mercedes-Benz continues to use inverted drop testing as one of 
        their many standard crash tests and has recommended inverted 
        drop tests in its comments to the docket regarding roof 
        strength rulemaking.<SUP>18</SUP>
    The House of Representatives should enact measures for rollover 
prevention and survival:

 A rollover resistance standard that will require design improvements 
        in the tippiest vehicles and support the use and further 
        development of technologies to improve roll resistance and 
        vehicle handling.
 A roof strength dynamic test standard to prevent extensive roof 
        collapse, which can measure injuries to people in evolving 
        crash situations and test safety belt performance in rollovers.
 A rollover crashworthiness standard, including improved seat 
        structure, safety belt design (with safety belt pretensioners 
        that tighten in a rollover crash), side impact airbags and roof 
        padding protection, all of which will dramatically increase 
        rollover survivability.
 An ejection mitigation standard using a combination of safety 
        technologies, including advanced safety window glazing, side 
        window curtain airbags and side impact airbags.
 An upgraded door lock and retention standard to reduce door openings 
        in rollovers and other crashes and prevent ejection.
 An enhancement of the NCAP program that would mandate crash ratings 
        (frontal, side and rollover) be added to the manufacturer's 
        window sticker so that consumers are provided with the 
        information when they go to purchase a vehicle.

Addressing Vehicle Mismatch in Crashes to Level the Playing Field
    The growing number of light trucks on the highway is contributing 
to the increasing fatalities in crashes between light tucks and 
passenger cars, showing vehicle incompatibility and aggressivity is a 
serious problem. The design of light trucks--and large SUVs and pickup 
trucks in particular--with a high center of gravity, high bumpers, and 
steel bars and frame-on-rail construction, makes these vehicles act 
like battering rams in a crash with another vehicle.
    While the National Highway Traffic Safety Administration has taken 
a few tentative first steps, there are few signs that NHTSA and the 
auto industry are treating this grave problem with the needed 
seriousness and expediency.
    The problem is a serious one:

 When an SUV strikes the side of a passenger car, the car driver is 22 
        times more likely to die than is the driver of the SUV. When 
        the striking vehicle is a pickup, the car driver is 39 times 
        more likely to be killed.
 NHTSA's Administrator estimated as long ago as 1997 that the 
        aggressive design of light trucks kills 2,000 additional people 
        needlessly each year.<SUP>19</SUP>
 Another analysis found that 1,434 passenger car drivers who were 
        killed in collisions with light trucks would have lived if they 
        had been hit instead by a passenger car of the same weight as 
        the light truck, even under the same crash 
        conditions.<SUP>20</SUP>
 For every Ford Explorer driver saved in a two-vehicle crash because 
        that driver chose an Explorer over a large car, five drivers 
        are killed in vehicles hit by Explorers.<SUP>21</SUP>
    Auto manufacturers have responded to the carnage inflicted on other 
motorists from light trucks' high bumpers and menacing front grilles, 
by building ever-more heavy and aggressive SUVs over time and 
continuing to market them militaristically, such as with ads calling 
the Lincoln Navigator an ``urban assault vehicle.'' In fact, General 
Motors' Hummer is a direct adaptation of a military vehicle. The chief 
designer of the 2006 Toyota Tundra recently bragged that his 
threatening design for the huge pickup truck is intended to highlight 
``the power of the fist.'' <SUP>22</SUP>
    Despite shocking highway statistics and mounting research, in its 
June report NHTSA focuses myopically on only the struck vehicle--
bulking up cars, but ignoring the equally important challenge of 
changes to reduce the aggressiveness of pickups and SUVs. Rather than 
addressing the issue directly, NHTSA's proposal mimics, to a disturbing 
degree, industry suggestions that overwhelmingly focus on occupant 
protection in the struck vehicle, support only voluntary measures, and 
distance themselves from design changes to make the striking vehicle 
less aggressive. While improving occupant protection is critically 
important, the total crash dynamic can and must be considered.

An Attempt to Stave Off Real Action: Promises, Promises by 
        Manufacturers, Ratified by NHTSA
    In December 2003, auto manufacturers announced a voluntary 
initiative to address incompatibility and aggressivity. Their plan, 
currently to be phased-in on most vehicles by September 2009, would 
gradually increase the numbers of side impact air bags in vehicle and 
lower the bumpers of SUVs or add a barrier to prevent them from riding 
over cars.
    Yet the Alliance made no specific or time-bound commitments to 
redesign vehicles to protect consumers, despite the fact that pickup 
trucks act as battering rams in crashes, and that the height and 
stiffness of SUVs makes them devastating on the highway. Moreover, 
there is no requirement that all vehicles become compliant with the 
plan, and no outside body will verify vehicle compliance. While the 
commitment may increase occupant protection, it does little to address 
the violence that will be inflicted by the striking vehicle in crashes, 
ignoring the need to reduce stiffness and address ever-larger vehicle 
weights.
    A voluntary ``commitment'' is a particularly inapt solution where, 
as here, thousands of lives are at stake. In fact, Congress rejected 
them almost three decades ago when it passed the National Traffic and 
Motor Vehicle Safety Act in 1966. As the Senate Committee Report 
stated:
        The promotion of motor vehicle safety through voluntary 
        standards has largely failed. The unconditional imposition of 
        mandatory standards at the earliest practicable date is the 
        only course commensurate with the highway death and injury 
        toll.<SUP>23</SUP>
    The 1966 Congressional legislators were right. The historical path 
of automakers' voluntary efforts is paved with broken promises. From 
General Motors' promises in 1970 to voluntarily put air bags in all its 
vehicles by the mid-1970s (GM installed just 10,000 in model year 1974 
and 1975 vehicles, and then discontinued the program), to Ford, 
DaimlerChrysler and GM's recent recanting of their widely publicized 
2001 promises to voluntarily improve the fuel economy of their light 
trucks by 25 percent (withdrawn after the threat of Congressional 
action on fuel economy receded). ``Voluntary'' is often just another 
name for manufacturers' tactical maneuvers and delay.
    Moreover, government reliance on voluntary ``commitments'' violates 
core principles of democratic accountability and transparency, because 
such voluntary agreements:

 Contain no mechanisms for accountability: If the voluntary proposal 
        proves dangerously deficient, automakers shirk liability 
        because there is no recourse for injured consumers, nor for the 
        government to initiate a defect investigation or compel the 
        industry to perform a recall;
 Involve closed, secret processes and meetings: The public, which is 
        at risk, is shut out of the development of the proposal, which 
        instead is designed in secret by industry working groups who 
        are not subject to oversight, compliance with statutory 
        requirements, responsibility for explaining the basis for their 
        decisions, or judicial review of their decisions;
 Lack transparency: The public has no means to secure an independent 
        evaluation of the quality of the industry's voluntary tests or 
        standards. The public receives no verification that a 
        particular vehicle actually complies with the industry's 
        voluntary tests, as they do with government standards that are 
        subject to public compliance testing and enforcement, and there 
        is no vehicle sticker at the point-of-sale to indicate that a 
        standard is met;
 Lack a baseline for safety: High-income purchasers, who can afford 
        safety extras may be protected, but low-income purchasers 
        remain vulnerable to cost-based decisions by manufacturers;
 Produce weak and non-binding results: Proposals are invariably weak 
        because they represent the lowest common denominator among 
        companies looking out for their own costs and product plans, 
        and there is no obligation to install technology in compliance 
        with the group standard, meaning that companies can change 
        their minds at will and decide to withdraw any protection 
        offered by the voluntary ``standard.''
 Lack any means of enforcement: Voluntary ``commitments'' are just 
        that--voluntary and therefore not enforceable. Consumers and 
        NHTSA have no legal recourse against a manufacturer's failure 
        to meet the agreed-upon initiative. NHTSA cannot bring an 
        enforcement action, force a statutory recall, or even influence 
        a voluntary recall for failure to abide by the voluntary 
        agreement. Industry group decision makers are not subject to 
        oversight, compliance with statutory requirements, 
        responsibility for explaining the basis for their decisions, or 
        judicial review of those decisions;
 Replete with Exemptions: Voluntary ``commitments'' usually have 
        exemption clauses permitting manufacturers to opt out of 
        ``compliance'' because of marketing considerations, costs, or 
        for other reasons.
 Undermine Regulatory Agencies: Voluntary efforts often sideline 
        agency involvement in safety policy by allowing willing 
        agencies to defer or avoid regulation in a timely and vigorous 
        manner.
 Discourages New Agency Research: Agency research likely will stop or 
        be directed toward other areas in light of adopted industry 
        voluntary commitments and industry research to support those 
        agreements.
 Produces Limited Remedies: because voluntary ``commitments'' are 
        developed and agreed to by industry they include little or no 
        remedies for consumers in the event the standards are not met 
        or are ineffective.
    In fact, automakers latest round of voluntary ``commitments'' on 
compatibility is just an older, recycled campaign in updated clothing. 
In 1998, the auto industry promised the NHTSA Administrator Dr. Ricardo 
Martinez that it would make modifications to achieve safer designs, 
mainly by adjusting vehicle suspension, but the industry refused to 
provide any details of their plans. There is little evidence that any 
substantial design changes were made.
    The House of Representatives should enact measures to address 
vehicle mismatch in crashes:

 A vehicle compatibility and aggressivity reduction standard 
        addressing bumper height, weight and other compatibility 
        characteristics.
 A consumer information program to rate vehicles according to 
        aggressivity and compatibility in multiple-vehicle collisions.
 An upgrade of the side and frontal impact standards to ensure that 
        vehicle design also protects occupants who are inside both the 
        struck and striking vehicle.

Fixing the Needlessly Deadly 15-Passenger Van
    There were about 500,000 15-passenger vans on the road as of July 
2001.<SUP>24</SUP> Between 1990 and 2000, 864 occupants of these vans 
died in crashes, 424 of them in single-vehicle rollover crashes, 
producing a vehicle death rate that is far higher than it should be 
given the relatively small number of these vehicles that are on the 
road, as well as an extraordinarily high death rate in rollover 
crashes.<SUP>25</SUP> There is no question that 15-passenger vans are 
over-involved in single-vehicle rollover crashes compared to other 
passenger vehicles. From 1991 to 2000, 33 percent of passenger vehicles 
involved in single-vehicle, fatal accidents experienced a rollover, 
compared to 52 percent for 15-passenger vans involved in such crashes. 
A shocking 81 percent of all 15-passenger van occupant fatalities 
occurs in single-vehicle rollover crashes.<SUP>26</SUP>
    Further, NHTSA has found that the number of occupants in a 15-
passenger van has a large effect on the frequency of rollover in fatal 
crashes. In fatal single-vehicle crashes, cars with 10 or more 
occupants rolled over 85 percent of the time, compared to 38 percent of 
the time in those vans with fewer than 10 occupants and 28 percent of 
the time for those vehicles with fewer than five.<SUP>27</SUP>
    The vans fall outside of the scope of many federal motor vehicle 
safety standards, such as roof crush, head restraints, braking systems 
and rollover warning labels. Under current law, these vans are not 
tested by the New Car Assessment Program (NCAP), so consumers have no 
idea of their crash or rollover ratings. Many innocent passengers have 
no idea that these vehicles are deadly, particularly when carrying more 
than 5 occupants.
    In recent years, high-profile rollover crashes of 15-passenger vans 
have killed or injured many riders in crashes particularly notable for 
the high numbers of people hurt and the concentration and close 
association of those affected. A number of such crashes involved 
college sports teams and church groups, and finally caught the 
attention of the U.S. Department of Transportation's highway safety 
agency, NHTSA.
    After conducting an inquiry into the problem, NHTSA issued a 
Consumer Advisory and Research Note in April 2001, and reissued another 
Consumer Advisory a year later in April 2002.<SUP>28</SUP> In its 
consumer warnings, NHTSA highlighted the riskiness of the vans. A few 
insurers of churches and schools are no longer selling policies to 
insure these vehicles and are raising the rates for existing 
policyholders.<SUP>29</SUP>
    The National Transportation Safety Board (NTSB) also issued a 
safety report on November 1, 2002, with recommendations to address the 
safety hazards of the vans in letters directed to General Motors, Ford 
and NHTSA.<SUP>30</SUP> The NTSB recommends that NHTSA include 15-
passenger vans in its pending plan for a dynamic rollover testing 
program and test these vehicles in crash tests as part of the agency's 
New Car Assessment Program, which publishes results by make and model 
for consumers. The NTSB further requested that NHTSA, in conjunction 
with the manufacturers, test and evaluate technological handling 
systems, particularly electronic stability control systems, which have 
potential to assist drivers in maintaining control of these rollover-
prone vans.
    The House should enact basic safeguards for 15-passenger vans:

 The inclusion of 15-passenger vans in all relevant safety standards 
        for occupant protection and vehicle crash avoidance and in 
        NHTSA's dynamic rollover testing program.
 The incorporation of ratings of 15-passenger vans into NHTSA's NCAP 
        program
 Testing and evaluation of potential technological systems to assist 
        drivers in controlling15-passenger van
 The inclusion of all 15-passenger vans used in commercial purposes in 
        all relevant truck safety standards and regulations.

Making the road safer for America's children
    Motor vehicle crashes are the single leading cause of death for 
children age 2 and every age 4 through 18.<SUP>31</SUP> During the 
1990s, more than 90,000 children were killed and 9 million injured in 
motor vehicle crashes. Many of these children were harmed because they 
were improperly restrained, and many others were hurt because the 
vehicles they were riding in were not designed to properly protect 
them.

Unrestrained or incorrectly restrained children are at risk
    Many children who are too large for child seats and too small for 
adult belts are strapped into adult belts or are left wholly 
unrestrained. A small percentage of these children are placed in 
booster seats that can slide or tip in a collision; are often installed 
incorrectly or simply incompatible with the family vehicle; are not 
regulated for children over 50 pounds; and are not crash-tested in 
vehicles, even though compatibility is a crucial issue for safety.
    The current federal safety standard for child restraints was put in 
place in the early 1970s. It applies only to children who weigh less 
than 50 pounds, meaning that booster seats for larger children are 
completely unregulated and not required to meet safety tests. It is 
based on adult injury criteria never designed for children, and only 
frontal, not all, crash modes.
    Due to conflicting and complex messages put out by the auto 
industry and NHTSA, parents too often do not know how to protect their 
child. Although it is dangerous to place a children under age 9 in an 
adult safety belt, 29 states require parents to place children in 
either a safety seat or an adult belt when a child reaches age 4.
    Child restraint devices that address the ``safety gap'' were 
pioneered by researchers outside of the auto industry as far back as 
1974. But instead of designing effective safety belts or child seats 
integrated into rear seats to accommodate children in the 4 to 8 age 
group, auto companies promoted aftermarket booster seats as the gap 
filler, despite their knowledge that the seats could be hazardous in 
collisions.

The terrible risk of vehicle backover
    In 2002, the Center for Disease Control announced that 9,160 
children are treated in U.S. emergency rooms every year following 
involvement in non-traffic, non-crash events related to 
vehicles.<SUP>32</SUP> The non-profit group, Kids and Cars, documented 
at least 154 deaths in 2003 due to non-traffic, non-crash events.
    According to news reports gathered by Kids and Cars, 58 children 
were killed by being accidentally backed over, usually by family 
members, in 2002 and at least 72 were killed in 2003. SUVs, minivans 
and pickups have larger blind spots than do passenger cars and with the 
increase of these vehicles on the highway, and in the driveway, there 
is an increased likelihood that additional children will be 
accidentally run-over.
    Although NHTSA recognizes that it is responsible for motor vehicle 
safety when a crash occurs off the public roadway, lacks a method to 
collect data, or an office in which these significant types of injuries 
and deaths are researched. And, even though numerous technologies exist 
that could greatly reduce the likelihood of backover incidents, no 
standards require them and few manufacturers offer them as standard 
equipment.
    The House should enact crucial measures to improve child safety in 
and around vehicles:

 A backover avoidance study and assess technologies that let drivers 
        know when a child is behind the vehicle.
 The beginning of a collection of basic data on the number and types 
        of non-traffic vehicular deaths and injuries.
 The establishment of a state based incentive program that encourages 
        states to enact laws mandating booster seat use for children 
        too big for child safety seats.
 A new child-sized dummy for increased testing of how rollover and 
        other crashes injure children.
 A report on technologies designed to prevent and reduce the number of 
        injuries and deaths of children because of automatic windows.
 And a standard would require window switches be designed to reduce 
        the accidental closing by children of power windows and issue 
        performance-based regulations that child-safe switches or 
        related technologies be designed to prevent accidental closing.

Additional important safeguards in the Senate-passed bill
Increasing safety belt use
    NHTSA estimates that 12,144 lives were saved by safety belts alone 
in 2001, and wearing a safety belt reduces a person's risk of dying in 
a crash by 50 percent. Current law prohibits a regulation for an 
audible reminder longer than 8 seconds, though Ford and other companies 
have tested superior reminders. The safety provisions in the Senate-
passed bill would allow new and innovative safety belt reminder systems 
that will increase belt usage.

Improving the frontal impact standard
    Most occupant fatalities that occur on America's highways occur in 
frontal impact crashes. In 2002, 16,870 died when their vehicle was 
involved in a frontal crash.<SUP>33</SUP> Even though few of these 
crashes are head on into solid barriers, the only test NHTSA does to 
assess a vehicle's frontal impact safety is head-on into a solid 
barrier. The Senate-passed bill would require the improvement of 
frontal impact standards for passenger vehicles, including the 
evaluation of additional test barriers and different measurements of 
occupant head and neck injuries.

Enhancing the side impact standard
    In 2002, 9,197 occupant fatalities were attributed to side-impact 
crashes.<SUP>34</SUP> As discussed above, the danger of being a 
passenger car occupant in a side impact crash with a light truck is 
extreme and these dangers only grow as the population of light trucks 
on the road increase. In October 1999, NHTSA granted a petition from 
Advocates for Highway and Auto Safety on improving side impact 
standards, but no rulemaking has occurred to date. This is despite a 
recent study showing that side air bags can reduce side impact crash 
fatalities by up to 50 percent.<SUP>35</SUP> The Senate-passed bill 
would assure an upgrade in the current standard to improve impact 
protection to passenger vehicle occupants as well as an update of new 
barriers and head and neck injury measurements.

Upgrading tire safety
    In June, 2003, in response to directives in the 2000 TREAD Act, 
NHTSA issued a ruling updating safety performance standards for tires. 
However, counter to Congressional intent, NHTSA left serious holes in 
the updated standard. Despite the clear mandate, the new rule failed to 
adequately address tire strength and road hazard protection, or to 
establish minimum standards for bead unseating resistance and aging. 
The Senate-passed bill would upgrade the tire standards to respond to 
the TREAD directives and would increase tire resistance to bead 
unseating and aging.

                                Endnotes

    <SUP>1</SUP> Blincoe, L., A. Seay, E. Zaloshnja, T. Millar, E. 
Romano, S. Luchtner, R. Spicer. The Economic Impact of Motor Vehicle 
Crashes, 2000. (DOT HS 809 446). Washington: NHTSA, May 2002.
    <SUP>2</SUP> Plungis, Jeff. ``Lax auto safety rules cost thousands 
of lives.'' Detroit News 3 March 2002.
    <SUP>3</SUP> ``NHTSA's New Head Protection Rule Puts New Technology 
on Fast Track.'' Press Release. Washington: NHTSA, 30 July 1998.
    <SUP>4</SUP> Willke, Donald; Stephen Summers; Jing Wang; John Lee; 
Susan Partyka; Stephen Duffy. Ejection Mitigation Using Advanced 
Glazing: Status Report II. Washington: NHTSA and Transportation 
Research Center, August 1999.
    <SUP>5</SUP> Plungis, Jeff. ``Lax auto safety rules cost thousands 
of lives.'' Detroit News 3 March 2002.
    <SUP>6</SUP> Schopf, Hans-Joachim. (2002). Analysis of Crash 
Statistics Mercedes Passenger Cars Are Involved In Fewer Accidents. 
Germany: DaimlerChrysler AG. 11.
    <SUP>7</SUP> Joksch, Hans. Fatality Risks in Collisions Between 
Cars and Light Trucks. Final Report. Ann Arbor: Transportation Research 
Institute, Sept 1998.
    <SUP>8</SUP> Plungis, Jeff. ``Lax auto safety rules cost thousands 
of lives.'' Detroit News 3 March 2002.
    <SUP>9</SUP> The UCS Guardian & Guardian XSE: A Blue Print For A 
Better SUV. Washington: Union of Concerned Scientists, 2003. <http://
www.suvsolutions.org/blueprint.asp>.
    <SUP>10</SUP> Jayne O'Donnell, ``Will more safety rules save many 
more lives?'' USA Today, Feb. 25, 2004.
    <SUP>11</SUP> Public Citizen v. Mineta, 340 F.3d 39, [get quote 
cite], (2nd Cir. 2003).
    <SUP>12</SUP> According to the figures in the agency final 
rulemaking, a direct tire pressure monitoring system requirement would 
save between 79 and 124 lives a year, but would only cost $54 per 
vehicle (not $90, as the article states). The cost per life saved would 
be $4.3 (not $5 million, as the article states). The shoddy, indirect 
system had even higher costs per life saved, $5.8 million, because it 
offers only very meager benefits.
    <SUP>13</SUP> 68 Fed. Reg. at 67079
    <SUP>14</SUP> NHTSA, Motor Vehicle Traffic Crash Injury and 
Fatality Estimates: 2002 Annual Report, July 2003.
    <SUP>15</SUP> NCSA, Characteristics of Rollover Crashes, DOT HS 809 
438, (Apr. 2002), at 14 and 20; See also ``Registration Data for 1975-
2001: Data Source'' FHWA and Polk'' provided by a NCSA researcher to 
Public Citizen on Feb. 6, 2003, (The rate of passenger car occupants 
who died in fatal rollover crashes declined 18.5 percent between 1991 
and 2000 (from 4.32 to 3.52 deaths per 100,000 registered vehicles) 
while the rate of light truck occupants who died in fatal rollover 
crashes increased 36 percent between 1991and 2000 (from 7.55 to 10.27 
deaths per 100,000 registered vehicles.).
    <SUP>16</SUP> NHTSA, Motor Vehicle Traffic Crash Injury and 
Fatality Estimates: 2002 Annual Report, July 2003.
    <SUP>17</SUP> The current standard requires a static test, in which 
the platen on the vehicle roof corner, above the A pillar, must bear 
one and a half times the vehicle's weight with the windshield intact.
    <SUP>18</SUP> Brian Herbst, Stephen Forrest, Steven E. Mayer and 
Davis Hock, Alternative Roof Crush Resistance Testing with Production 
and Reinforced Roof Structures, 2002-01-2076, SAE 2002.
    <SUP>19</SUP> Bradsher, Keith. High and Mighty: SUVs-The World's 
Most Dangerous Vehicles and How They Got That Way. New York: Public 
Affairs 2002, at 193 (Referring to Hans C. Joksch, ``Vehicle Design 
versus Aggressivity,'' (April 2000), DOT HS 809 194. p. 40-42).
    <SUP>20</SUP> Joksch, Hans C. ``Vehicle Design versus 
Aggressivity,'' at 41. Further calculations contained in an electronic 
mail communication between Public Citizen and safety researcher Hans 
Joksch stated: ``In 1996, 890 car occupants died in collisions with 
SUVs. If the risk in collisions with cars of the same weight had been 
half as high, as estimated at that time, 445 deaths would not have 
occurred if SUVs had been replaced by cars of the same weight.'' Email 
from Hans Joksch to Laura MacCleery of Public Citizen, on Feb. 24, 2003 
(on file with Public Citizen).
    <SUP>21</SUP> Bradsher. at 449, fn. 13 (Leaving aside SUVs and 
considering just the number of drivers killed per 5,000 crashes, in 
which a large car hits another car of any size, an average of 2.2 
drivers die in large cars and 5.5 drivers die in the other cars that 
were truck. Together these numbers render a total of 7.7 deaths per 
5,000 crashes. Because the large cars are heavier than most of the cars 
they hit, the drivers of the large cars tend to fare better. When 
looking at the crashes involving Explorers, on average only 1.2 
Explorer drivers die when involved in the same number of collisions 
with cars. Compared to the 2.2 drivers who died in the large cars, the 
Explorers actually save a life. However, this is misleading because, 
doubling to 11 deaths. Therefore, on average 5.5 extra driver deaths 
occur in the struck cars. The combined death rate for drivers on both 
sides of the collision has now risen to 12.2 for collisions involving 
Explorers, compared with 7.7 when there were just large cars hitting 
the other cars.)
    <SUP>22</SUP> Rechtin, Mark. ``Toyota Concept Truck hints at next 
Tundra.'' Automotive News 4 Jan. 2004. < http://www.autonews.com/
news.cms?newsId=7421&bt=fist>
    <SUP>23</SUP> Committee Report on S. 3005, The Traffic Safety Act 
of 1966, June 23, 1966, at 271, 273, 274.
    <SUP>24</SUP> Conversation of Rajesh Subramanian, Statistician, 
National Center for Statistics and Analysis (NCSA) with Ed Ricci, 
Policy Analyst, Public Citizen, Nov. 7, 2002.
    <SUP>25</SUP> Id.
    <SUP>26</SUP> Safety recommendation letter from National 
Transportation Safety Board to William Clay Ford, Jr., Chairman and 
Chief Executive Office, Ford Motor Company and Mr. G. Richard Wagoner, 
Jr., President and Chief Executive Officer, General Motors Corporation, 
Nov. 1, 2002, H-02-29.
    <SUP>27</SUP> Id.
    <SUP>28</SUP> See NHTSA Consumer Advisory, April 9, 2001, http://
www.nhtsa.dot.gov/nhtsa/announce/press/2001/
pressdisplay.cfm?year=2001&filename=ca-010409.html; W. Riley Garrott, 
``The Rollover Propensity of Fifteen-Passenger Vans,'' April 2001, 
NHTSA Research Note; NHTSA, NHTSA Repeats Rollover Warning To Users of 
15-Passenger Vans, April 15, 2002, http://www.nhtsa.dot.gov/nhtsa/
announce/press/pressdisplay.cfm?year=2002&filename=pr27-02.html.
    <SUP>29</SUP> GuideOne Insurance News Release, GuideOne Insurance 
takes a Stand on Dangerous 15-Pssenger Vans, Aug. 13, 2002.
    <SUP>30</SUP> Safety recommendation letter from National 
Transportation Safety Board to William Clay Ford, Jr., Chairman and 
Chief Executive Office, Ford Motor Company and Mr. G. Richard Wagoner, 
Jr., President and Chief Executive Officer, General Motors Corporation, 
Nov. 1, 2002, H-02-29.
    <SUP>31</SUP> Subramanian, Rajesh. ``Motor Vehicle Traffic Crashes 
as a Leading Cause of Death in the United States, 2001'' DOT HS 809 
695, December 2003.
    <SUP>32</SUP> CDC ``Injuries and Deaths among Children Left 
Unattended in or Around Motor Vehicles,'' Morbidity and Mortality 
Report Vol. 51. No. 26. July 5, 2002.
    <SUP>33</SUP> Data Source: Occupant Fatalities in Vehicles in 
Crashes with Initial Side, Rear, and Frontal Impact, and Rollover, by 
Year, Restraint Use, Ejection, and Vehicle Body Type. FARS 1992-2001 
FINAL & 2002 ARF. Data Request. Washington: NCSA, Sept. 2003.
    <SUP>34</SUP> Id.
    <SUP>35</SUP> Insurance Institute for Highway Safety Status Report, 
6-28-2002.
                                 ______
                                 
   Prepared Statement of The Association of International Automobile 
                          Manufacturers, Inc.

    The Association of International Automobile Manufacturers (AIAM) is 
a trade association representing 14 international motor vehicle 
manufacturers who account for 40 percent of all passenger cars and 20 
percent of all light trucks sold annually in the United States. AIAM 
members have invested over $26 billion in U.S.-based production 
facilities, have a combined domestic production capacity of 2.8 million 
vehicles, directly employ 75,000 Americans, and generate an additional 
500,000 U.S. jobs in dealerships and supplier industries nationwide. 
AIAM members include Aston Martin, Ferrari, Honda, Hyundai, Isuzu, Kia, 
Maserati, Mitsubishi, Nissan, Peugeot, Renault, Subaru, Suzuki and 
Toyota. AIAM also represents original equipment suppliers and other 
automotive-related trade associations.
    AIAM appreciates the opportunity to offer its views regarding the 
need for additional or revised legislative authority regarding the 
programs administered by the National Highway Traffic Safety 
Administration (NHTSA). The programs administered by NHTSA are of 
significant, daily importance to virtually all Americans. In general, 
the agency's programs enjoy broad public support and support within the 
auto industry. This level of support derives to a significant extent 
from the agency's strong reliance in recent years on science and data 
analysis in determining policy direction and pursuing these policies in 
an objective, non-ideologically driven manner.
    In this statement, AIAM will address the need for new legislation 
in the vehicle safety area, in certain narrow aspects of the fuel 
economy standards program, and in its programs for content labeling of 
motor vehicles.

                          MOTOR VEHICLE SAFETY

    In September 2002, NHTSA announced five priority safety areas for 
in-depth staff review of possible mitigation measures: safety belt use, 
impaired driving, rollover mitigation, vehicle crash compatibility, and 
traffic records and data improvements. Building on that work, last year 
the agency announced a four-year priority plan for safety rulemaking 
and supporting research. NHTSA has developed this priority agenda in 
the vehicle safety area based on its analysis of which aspects of 
safety have the potential to provide the greatest public benefit in 
terms of reduction of fatalities and serious injuries from motor 
vehicle crashes.
    AIAM fully supports the agency's approach of establishing its 
priorities on the basis of safety data, so as to target the areas with 
the greatest potential benefit for early action. NHTSA's approach 
reduces the likelihood that vehicle manufacturers will be forced to 
assign staff and budget resources to research and development 
activities with a limited safety benefit, which in turn helps assure 
that consumers will not confront higher vehicle prices resulting from 
such misallocation of resources.
    To assist the agency in establishing appropriate priorities, 
Congress should fully fund the agency's research program. In 
particular, AIAM urges full funding for the agency's FARS and NASS 
crash databases and the planned, long-overdue updating of a 
comprehensive crash causation study. These data sources are critical to 
agency efforts to identify appropriate safety priorities. Congress 
would be hard-pressed to identify more effective investments of the 
taxpayers' money than these programs. Another research priority that 
should be fully funded is agency work to develop safety standards 
appropriate for new technology vehicles (e.g., fuel cell vehicles, 
fully electronic ``by-wire'' systems, etc.). Manufacturers are already 
developing designs and prototypes for such new technologies. Without 
knowing what standards will apply or how to interpret current standards 
in the context of the new technology, manufacturers will generally not 
be able to economically incorporate standards compliance into their 
designs.
    We urge the Subcommittee to avoid the temptation to micromanage the 
agency's establishment of safety priorities and agendas, as has been 
done to a degree in the Senate version of highway reauthorization 
legislation, S. 1072. We see no indication that the agency has 
established inappropriate priorities or has failed to pursue those 
priorities aggressively. Should the Subcommittee find, in the course of 
its oversight of NHTSA's operations, that the agency strays from these 
priorities, it could act then to impose a set of mandates.
    Although the vehicle safety provisions in the Senate bill have 
improved somewhat during the course of deliberations in that body, we 
still find substantial problems in the Senate approach. Our concerns 
lie in three areas--reordering of agency priorities, establishment of 
inflexible deadlines, and regulatory outcomes that are directed prior 
to agency assessment and research and public comment. Note, for 
example:

 It is our understanding that NHTSA has concluded that the planned 
        upgrade to its side impact protection standard is by far its 
        most significant near term rulemaking, in terms of potential 
        safety benefits. Yet the Senate bill would prevent NHTSA from 
        prioritizing that rulemaking, by piling on additional 
        rulemaking requirements in the same time frame or in some cases 
        ahead of the side impact requirement (e.g., Sec. 4152, general 
        ejection mitigation and door lock standards; Sec. 4155, crash 
        compatibility/aggressivity standards and consumer information 
        program; Sec. 4156, rollover crashworthiness and resistance 
        standards and frontal crash test upgrades including new test 
        barriers and injury criteria; Sec. 4157, 15-passenger van 
        standards and consumer information; Sec. 4158, tire standards 
        upgrades beyond the recently completed upgrades and report on 
        shearography analysis; Sec. 4159 seat belt reminder standard; 
        Sec. 4173, report and rulemaking on testing of additional child 
        test dummies, rulemaking, consumer information, and report to 
        Congress on child safety in rollover crashes, and rulemaking on 
        power windows.)
 The requirement in section 4155 for near term standard setting and 
        new consumer information on crash compatibility/aggressivity 
        would restrict the agency's flexibility to consider potentially 
        more effective approaches. For example, the agency might well 
        conclude that the best approach would be to rely on the 
        industry's recently announced commitments to address the 
        compatibility matter for the near term and to pursue more 
        advanced approaches thereafter that could not be accomplished 
        consistent within the bill's time frame (an early 2007 
        proposal).
 Section 4156 of the Senate bill would require near term rulemakings 
        to adopt standards on rollover crashworthiness and rollover 
        resistance. The agency has recently issued upgraded consumer 
        information requirements relating to rollover, in response to a 
        2002 study by the National Academy of Sciences. See http://
        books.nap.edu/html/SR265/SR265.pdf. NHTSA has found that the 
        consumer information approach is superior to rulemaking as a 
        means of addressing the rollover propensity matter, and recent 
        experience with NHTSA and the Insurance Institute for Highway 
        Safety consumer information programs supports the effectiveness 
        of a consumer information approach. The consumer information 
        approach promotes improvement in all types of vehicles and has 
        the potential to achieve quicker results at lower cost. We see 
        no basis for the need to overlay a regulatory program on the 
        newly enhanced consumer information program.
 The Senate has attempted to reduce the rigidity of the deadlines 
        established in S. 1072 by adding a requirement for reports to 
        Congress on any missed deadlines (Sec. 4160). Nevertheless, the 
        inevitable effect of the bill is to lead NHTSA to take steps to 
        comply with the deadlines in the law, even when doing so would 
        limit opportunities to pursue alternatives with greater long 
        term safety benefits.
    We wish to emphasize that our opposition to the mandates in the 
Senate bill should not be read as an indication that we believe that 
all of the mandated rulemakings would be counter-productive. Indeed, 
many of the rulemakings are already in NHTSA's rulemaking priority 
plan. Rather, our principal concern is that the rigidity of the Senate 
approach may force NHTSA to delay action on high priority safety 
initiatives in order to address measures of less safety significance. 
The issue of priorities is real, not just theoretical. The testimony of 
the lighting supplier Hella at the March 18 hearing provides an example 
of NHTSA's need to set priorities due to limited resources. Hella 
described how NHTSA has been forced to delay rulemaking to clarify the 
lighting standard, as it focuses on matters with a greater potential 
safety pay-off.
    NHTSA is also responsible for administering certain programs that 
are tangential to the agency's primary safety mission. Certain 
requirements under these programs have consistently been shown to 
impose costs but provide little or no benefit to consumers. These 
programs dilute the agency's focus and divert resources from its 
primary responsibilities. We believe that Congress should consider 
repealing these requirements. These requirements are discussed below.

                AMERICAN AUTOMOBILE LABELING ACT (AALA)

    AIAM has several concerns regarding the American Automobile 
Labeling Act (AALA), which is codified at 49 U.S.C. 32304. The statute 
requires that vehicles be labeled with information showing final 
assembly points and domestic content percentages.
    The purpose of AALA is not explicitly stated in the legislation. 
NHTSA's regu-lations state that the purpose of the AALA program is ``to 
aid potential purchasers in the selection of new passenger motor 
vehicles by providing them with information about the value of the 
U.S./Canadian and foreign parts content of each vehicle, the countries 
of origin of the engine and transmission, and the site of the vehicle's 
final assembly.'' See 49 CFR 583.2. One could presume from the basic 
AALA requirements that the law was intended to make it easier for U.S. 
consumers who are so inclined to purchase vehicles that are assembled 
in the U.S. or North America or are produced using high levels of U.S./
North American components, thereby promoting growth in the domestic 
economy. Keeping these potential purposes in mind, the information 
disseminated under AALA has several deficiencies:

 The information is not appropriately categorized by country. If the 
        purpose of the law is to promote the sale of vehicles with high 
        levels of U.S. content, Canadian content should not be combined 
        with U.S. content. See 49 U.S.C. 32304(b)(1)(A). If the purpose 
        of the law is to promote North American content consistent with 
        NAFTA, Mexican content logically should be included with U.S. 
        and Canadian content.
 Content that is added at the place of final assembly in the U.S. 
        should not be excluded from the domestic portion of the content 
        calculation. See 49 U.S.C. 32304(a)(15). Such content 
        contributes fully to the U.S. economy.
 There should not be different content calculation rules for allied 
        and outside suppliers. Domestic content is rolled up from 70 
        percent to 100 percent for outside suppliers, but not for 
        allied suppliers. This discrepancy distorts the content 
        percentages.
 In some instances, a car line may be produced in different countries 
        (e.g., the U.S. and a foreign country), with vehicles from both 
        sources being sold in the U.S. In that situation, AALA has been 
        interpreted to require that the content percentages shown on 
        the label must be an average of the two or more sources. As a 
        result, the content percentages shown on the label are, in 
        general, unrepresentative of any actual vehicle, potentially 
        misleading consumers.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ NHTSA regulations provide an option for a manufacturer to 
include in an ``explanatory note'' at the bottom of the label an 
additional content percentage reflecting the applicable assembly plant. 
However, this option is generally not viable due to consumer confusion 
that would potentially result from having two different content 
percentages on the same label and additional administrative burden. See 
49 CFR 583.5(e).
---------------------------------------------------------------------------
    By including Canadian content as domestic (or excluding Mexican 
content), ignoring the value of labor at the final assembly point in 
the U.S., establishing different calculation methodologies for 
``allied'' and ``outside'' suppliers, and averaging content over 
multiple assembly plants, AALA misleads consumers as to the impact of 
the production of a particular vehicle on the U.S. economy.
    Our second primary concern is that available information does not 
support the usefulness of the information disseminated under AALA. 
Based on the analysis presented in a NHTSA evaluation report regarding 
the program, one conclusion that is clearly justified is that the 
calculation and dissemination of the U.S./Canadian content percentages 
should be discontinued. In this regard, the Executive Summary of the 
report states that the agency's 1998 survey of 646 consumers found that 
``not a single person explicitly stated that they had used the 
numerical parts-content score on the AALA label to comparison shop 
among make-models according to their percentages of U.S./Canadian parts 
content.'' (See http://www.nhtsa.dot.gov/cars/rules/regrev/evaluate/
809208.html, emphasis supplied.) Calculation of the percentages is a 
task that imposes substantial burdens on vehicle manufacturers and 
suppliers, apparently to no useful end whatsoever. If the consumers 
surveyed for the evaluation are at all representative, there can be no 
basis for further dissemination of the content percentage information. 
Bluntly stated, no one cares about the percentages.
    In his signing statement for the ``Department of Transportation and 
Related Agencies Appropriations Act, 1993'' that contained the original 
AALA provisions, former President Bush stated as follows:
          The bill contains an unnecessary and costly auto labeling 
        requirement that may conflict with our international 
        obligations on origin and labeling. In implementing this new 
        requirement, the Department of Transportation will make every 
        effort to provide accurate and meaningful information to 
        consumers while minimizing costs. (See 28 Weekly Compilation of 
        Presidential Documents 1869, October 12, 1992.)
    Considering the invalidity of and the lack of consumer interest in 
the content percentages, eliminating the content labels is clearly in 
order.

                    CAFE: SEPARATE FLEET REQUIREMENT

    It is not our intention in this statement to raise the full range 
of possible legislative changes to the CAFE program that have been 
recommended by various parties. However, there is one issue that 
adversely affects U.S. employment and should be addressed by Congress 
in the near term. This issue involves the CAFE ``two-fleet'' 
requirement.
    Under current law, manufacturers must divide their fleets of 
vehicles into two sub-fleets, based on the domestic content levels of 
those fleets. See 49 U.S.C. 32904(b). This requirement divides fleets 
using a 75 percent domestic content criterion, with each sub-fleet 
(vehicles having high U.S. content and those with low U.S. content 
levels) being treated as if produced by separate companies for 
standards compliance purposes. The requirement was originally intended 
(as part of the original CAFE statute) to assure that U.S.-based 
companies did not simply import large numbers of fuel-efficient 
vehicles from overseas in order to comply with standards. However, 
recent years' experience has shown that the principal effect of the 
provision has been to act as a disincentive to increasing U.S. parts 
content for foreign-based companies and to encourage U.S. companies to 
reduce the U.S. content of their less fuel-efficient models.
    Congress commissioned a National Academy of Sciences study of the 
CAFE program in 2000.<SUP>2</SUP> The NAS Committee concluded that the 
two-fleet rule increases costs to consumers, is no longer justifiable, 
and should be eliminated. (See Report page 90.) In presenting its 
Findings and Conclusions, the Committee stated in Finding number 3 in 
the report <SUP>3</SUP> as follows:
---------------------------------------------------------------------------
    \2\ See Conference Report on H.R. 4475, Department of 
Transportation and Related Agencies Appropriations Act, 2001, Report 
106-940, as published in the Congressional Record of October 5, 2000, 
pp. H8892-H9004.
    \3\ ``Effectiveness and Impact of Corporate Average Fuel Economy 
(CAFE) Standards,'' National Research Council, 2002.
---------------------------------------------------------------------------
        Certain aspects of the CAFE program have not functioned as 
        intended The committee could find no evidence that the two-
        fleet rule distinguishing between domestic and foreign content 
        had any perceptible effect on total employment in the U.S. 
        automotive industry. (See page 111 of Report.)
    In Recommendation number 4, the report states:
        Under any system of fuel economy targets, the two-fleet rule 
        for domestic and foreign content should be eliminated. (See 
        page 114 of the Report.)
    AIAM concludes that, whatever basis there may have been originally 
for the two-fleet requirement, the requirement provides no current 
benefits and should be repealed.

                               CONCLUSION

    In considering legislation to reauthorize NHTSA, AIAM urges the 
Subcommittee to avoid handcuffing the agency with an extensive set of 
mandated rulemakings and deadlines. A more appropriate approach is to 
recognize the value of the agency's current standard-setting agenda as 
part of a comprehensive approach that includes voluntary commitments by 
industry (such as the recent agreement to address vehicle crash 
compatibility) and consumer information programs (such as NHTSA's NCAP 
program and the program of the Insurance Institute for Highway Safety). 
So as not to divert agency and industry resources away from efforts to 
enhance vehicle safety, the Subcommittee should also consider 
provisions to eliminate regulations that impose burdens but provide no 
benefit, such as the domestic content label requirements. Finally, the 
Subcommittee should consider eliminating the CAFE ``two-fleet'' rule, 
which also imposes costs and may harm domestic employment, contrary to 
the original intent of Congress.

[GRAPHIC] [TIFF OMITTED] T2543.001

[GRAPHIC] [TIFF OMITTED] T2543.002

[GRAPHIC] [TIFF OMITTED] T2543.003

[GRAPHIC] [TIFF OMITTED] T2543.004

[GRAPHIC] [TIFF OMITTED] T2543.005

[GRAPHIC] [TIFF OMITTED] T2543.006

[GRAPHIC] [TIFF OMITTED] T2543.007

[GRAPHIC] [TIFF OMITTED] T2543.008

[GRAPHIC] [TIFF OMITTED] T2543.009

[GRAPHIC] [TIFF OMITTED] T2543.010

[GRAPHIC] [TIFF OMITTED] T2543.011

[GRAPHIC] [TIFF OMITTED] T2543.012

[GRAPHIC] [TIFF OMITTED] T2543.013

[GRAPHIC] [TIFF OMITTED] T2543.014

[GRAPHIC] [TIFF OMITTED] T2543.015

[GRAPHIC] [TIFF OMITTED] T2543.016

[GRAPHIC] [TIFF OMITTED] T2543.017

[GRAPHIC] [TIFF OMITTED] T2543.018

[GRAPHIC] [TIFF OMITTED] T2543.019

[GRAPHIC] [TIFF OMITTED] T2543.020

[GRAPHIC] [TIFF OMITTED] T2543.021

[GRAPHIC] [TIFF OMITTED] T2543.022

[GRAPHIC] [TIFF OMITTED] T2543.023

[GRAPHIC] [TIFF OMITTED] T2543.024

[GRAPHIC] [TIFF OMITTED] T2543.025

[GRAPHIC] [TIFF OMITTED] T2543.026

[GRAPHIC] [TIFF OMITTED] T2543.027

[GRAPHIC] [TIFF OMITTED] T2543.028

[GRAPHIC] [TIFF OMITTED] T2543.029

[GRAPHIC] [TIFF OMITTED] T2543.030

[GRAPHIC] [TIFF OMITTED] T2543.031

[GRAPHIC] [TIFF OMITTED] T2543.032

[GRAPHIC] [TIFF OMITTED] T2543.033

[GRAPHIC] [TIFF OMITTED] T2543.034

[GRAPHIC] [TIFF OMITTED] T2543.035

[GRAPHIC] [TIFF OMITTED] T2543.036

[GRAPHIC] [TIFF OMITTED] T2543.037

[GRAPHIC] [TIFF OMITTED] T2543.038

[GRAPHIC] [TIFF OMITTED] T2543.039

[GRAPHIC] [TIFF OMITTED] T2543.040

[GRAPHIC] [TIFF OMITTED] T2543.041

[GRAPHIC] [TIFF OMITTED] T2543.042

[GRAPHIC] [TIFF OMITTED] T2543.043

[GRAPHIC] [TIFF OMITTED] T2543.044

[GRAPHIC] [TIFF OMITTED] T2543.045

[GRAPHIC] [TIFF OMITTED] T2543.046

[GRAPHIC] [TIFF OMITTED] T2543.047

[GRAPHIC] [TIFF OMITTED] T2543.048

[GRAPHIC] [TIFF OMITTED] T2543.049

[GRAPHIC] [TIFF OMITTED] T2543.050

[GRAPHIC] [TIFF OMITTED] T2543.051

[GRAPHIC] [TIFF OMITTED] T2543.052

[GRAPHIC] [TIFF OMITTED] T2543.053

[GRAPHIC] [TIFF OMITTED] T2543.054

[GRAPHIC] [TIFF OMITTED] T2543.055

[GRAPHIC] [TIFF OMITTED] T2543.056

[GRAPHIC] [TIFF OMITTED] T2543.057

[GRAPHIC] [TIFF OMITTED] T2543.058

[GRAPHIC] [TIFF OMITTED] T2543.059

[GRAPHIC] [TIFF OMITTED] T2543.060

[GRAPHIC] [TIFF OMITTED] T2543.061

[GRAPHIC] [TIFF OMITTED] T2543.062

[GRAPHIC] [TIFF OMITTED] T2543.063

[GRAPHIC] [TIFF OMITTED] T2543.064

[GRAPHIC] [TIFF OMITTED] T2543.065

[GRAPHIC] [TIFF OMITTED] T2543.066

[GRAPHIC] [TIFF OMITTED] T2543.067

[GRAPHIC] [TIFF OMITTED] T2543.068


</pre></body></html>
